<html>
<title> - AVIATION SAFETY: FAA'S ROLE IN THE OVERSIGHT OF COMMERCIAL AIR CARRIERS</title>
<body><pre>[Senate Hearing 111-342]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-342

AVIATION SAFETY: FAA'S ROLE IN THE OVERSIGHT OF COMMERCIAL AIR CARRIERS

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 10, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
52-751 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             SAM BROWNBACK, Kansas
TOM UDALL, New Mexico                MEL MARTINEZ, Florida
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
                   Bruce H. Andrews, General Counsel
   Christine D. Kurth, Republican Staff Director and General Counsel
              Brian M. Hendricks, Republican Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

BYRON L. DORGAN, North Dakota,       JIM DeMINT, South Carolina, 
    Chairman                             Ranking Member
DANIEL K. INOUYE, Hawaii             OLYMPIA J. SNOWE, Maine
JOHN F. KERRY, Massachusetts         JOHN ENSIGN, Nevada
BARBARA BOXER, California            JOHN THUNE, South Dakota
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
MARK PRYOR, Arkansas                 SAM BROWNBACK, Kansas
CLAIRE McCASKILL, Missouri           MEL MARTINEZ, Florida
AMY KLOBUCHAR, Minnesota             MIKE JOHANNS, Nebraska
MARK WARNER, Virginia
MARK BEGICH, Alaska











                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 10, 2009....................................     1
Statement of Senator Dorgan......................................     1
Statement of Senator DeMint......................................     2
Statement of Senator Hutchison...................................     3
    Prepared statement...........................................     4
Statement of Senator Lautenberg..................................     4
Statement of Senator Isakson.....................................    47
Statement of Senator Begich......................................    50
Statement of Senator Boxer.......................................    54
Statement of Senator Klobuchar...................................    57
Statement of Senator Thune.......................................    59

                               Witnesses

Hon. Randolph Babbitt, Administrator, Federal Aviation 
  Administration.................................................     5
    Prepared statement...........................................     6
Hon. Calvin L. Scovel III, Inspector General, U.S. Department of 
  Transportation.................................................    10
    Prepared statement...........................................    12
Hon. Mark V. Rosenker, Acting Chairman, National Transportation 
  Safety Board...................................................    19
    Prepared statement...........................................    21
John O'Brien, Member of the Executive Committee, Flight Safety 
  Foundation.....................................................    37
    Prepared statement...........................................    38

                                Appendix

Hon. Maria Cantwell, U.S. Senator from Washington, prepared 
  statement......................................................    69
Hon. Charles E. Schumer, U.S. Senator from New York, prepared 
  statement......................................................    69
Letter, dated June 3, 2009, from FAA Whistleblowers Alliance to 
  Hon. John D. Rockefeller IV, Hon. Kay Bailey Hutchison, Hon. 
  Byron L. Dorgan, and Hon. Jim DeMint...........................    71
Letter, dated June 10, 2009, from Kirsten E. Gillibrand to Hon. 
  Byron 
  Dorgan.........................................................    73
Response to written questions submitted by Hon. Byron L. Dorgan 
  to Hon. Randolph Babbitt on behalf of Hon. Kirsten E. 
  Gillibrand for the Families of Flight 3407.....................    73
Response to written questions submitted to Hon. Randolph Babbitt 
  by:
    Hon. Claire McCaskill........................................    75
    Hon. Johnny Isakson..........................................    78
Response to written questions submitted by Hon. Johnny Isakson to 
  Hon. Mark V. Rosenker..........................................    80

 
AVIATION SAFETY: FAA'S ROLE IN THE OVERSIGHT OF COMMERCIAL AIR CARRIERS

                              ----------                              


                        WEDNESDAY, JUNE 10, 2009

                               U.S. Senate,
  Subcommittee on Aviation Operations, Safety, and 
                                          Security,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:33 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Byron L. 
Dorgan, Chairman of the Subcommittee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. We'll call the hearing to order.
    Good afternoon to everyone. I want to thank all of you for 
joining us here today to talk about a very important subject, 
the subject of aviation safety.
    This is the Subcommittee of the U.S. Senate Commerce 
Committee. It's the first of two hearings that we will hold, 
one today and one next week, to discuss aviation safety, with 
particular focus on the safety of regional airlines. During 
this hearing we will receive testimony from the Federal 
Aviation Administration, National Transportation Safety Board, 
the Department of Transportation Inspector General, and an 
independent safety expert from the Flight Safety Foundation. 
Mr. O'Brien, who I have just mentioned, is not yet here; he's 
stuck in some traffic, but he will be with us momentarily. At 
our next hearing, on June 17, we will hear from other 
witnesses, including some of the airlines and some pilots.
    Let me begin the subject of safety by saying, in this 
country I think we have a remarkably safe system of air travel. 
The safety record is extraordinary. And it's not my intention 
here to alarm anyone about considering taking a flight on a 
regional carrier, or any airline, for that matter, but I do 
think we have a responsibility to examine airline crashes, when 
they occur, and to ensure that we do all we can to prevent 
future accidents.
    We've all heard the story of the tragic crash, in February 
of this year, of Continental connection Flight 3407 from 
Buffalo, New York--or, rather, in Buffalo, New York. This 
flight was operated by Colgan Air. The plane was a Bombardier 
Dash 8 operated by a captain and a co-pilot, both of whom had 
commuted fairly long distances to get to work and were found to 
have had little rest before the flight. The co-pilot revealed 
her inexperience in flying in icy conditions, in the transcript 
of the voice recording that I have read and I'm sure my 
colleagues have, as well. The captain had previously failed a 
number of flight tests.
    We'll hear from the NTSB, which has been investigating, but 
it sounds like the captain just made the wrong decision at the 
wrong time, flying in very, very difficult icing conditions.
    I worry, when I have looked at this and read the transcript 
of the cockpit recording and all of the other issues, that 
there are issues here of fatigue, training, commuting, and 
perhaps salaries, that could have played a role. I'm concerned 
about the airlines and the FAA's ability to prevent 
inexperienced pilots from flying planes they might be less 
familiar with than they should be, or in icy weather, for 
example, when they are less experienced in icing conditions, 
and you would expect them to be.
    We are supposed to have one level of safety for both 
regional and major carriers. And I want to hear from our new 
administrator, FAA Administrator Babbitt, whether he thinks 
that is actually the case and whether the FAA has kept up with 
the changes in the industry and is able to ensure one level of 
safety. Does the standard exist of one level? And is that 
standard enforced to one level?
    I sent a letter to the Department of Transportation 
Inspector General to ask that they review the FAA's role in the 
development and certification of training programs that 
airlines require for pilots, the extent to which the FAA can 
verify that pilots are receiving appropriate training, and the 
ability of the FAA to verify the qualifications of pilots to 
operate specific aircraft. And I'm pleased that the Inspector 
General is here with us today.
    I've also sent a letter to the GAO to ask that they study 
the safety practice in place to prevent and deal with icing 
conditions.
    Let me say that the NTSB, in my judgment, appears to be 
doing a very thorough job, which is not a surprise to me, in 
trying to gain an understanding of this crash. We need to fully 
understand it and find out what changes, if any, are necessary 
to be made to ensure it doesn't happen again.
    So, as I said, this will be the first of two such hearings, 
and our witnesses today will be Randy Babbitt, Administrator of 
the FAA; Mark Rosenker, the Acting Chairman of the NTSB; Calvin 
Scovel, Inspector General at the Department of Transportation; 
and John O'Brien, who will be with us shortly, a Member of the 
Board of the Flight Safety Foundation.
    I indicated that I am going to call on the Ranking Member 
of this Subcommittee for an opening statement, and then the 
Chairman and Ranking Member of the full Committee, and then 
call on the witnesses, and then have 7-minute rounds for 
questions.
    Senator DeMint?

                 STATEMENT OF HON. JIM DeMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Thank you, Mr. Chairman. And I particularly 
want to thank you for diligence and your sense of urgency in 
having these hearings and trying to get answers to American 
people and all passengers.
    I appreciate the witnesses being here today. I'm not going 
to give a full opening statement, because I want to get to you, 
but just the possible weaknesses, on the carrier side, are 
obviously important. I agree with everything the Chairman says. 
But, in interviewing some of the carriers, the one involved 
with this, there may be things on our side that we can do, such 
as our privacy regulations that keep carriers from having 
access to some of the records that we now fault the carrier for 
not responding to. I'd like to hear more about that from some 
of you.
    But, Mr. Babbitt, as you know--and you met with me and some 
of the parents who lost loved ones in that crash, is--all they 
ask of you is that, once this report comes out and it makes 
recommendations, will we respond or will we make the same 
mistakes again? And I hope we can talk about that today as--we 
can talk about--theory is one thing, but these parents are 
asking us what we're going to do about when we find out what it 
is we should do?
    So, thanks again for being here. I appreciate all three of 
you.
    And I'll yield to the Chairman.
    Senator Dorgan. The Ranking Member of the full Committee, 
Senator Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Well, thank you, Senator Dorgan and 
Senator DeMint. Of course, I have been the Chairman of this 
great Subcommittee, and having been the Vice Chairman of the 
National Transportation Safety Board, safety is always going to 
be the highest priority on my agenda. And I will always remain 
interested. So, get ready, I'm going to be an active member of 
this Subcommittee.
    But, seriously, having had the NTSB experience, we've made 
some great strides. As you know, we used to have two 
standards--one for the regionals and one for the mainline air 
carriers, but, we don't anymore. We're now all together in the 
FAA Part 121 category. But, the fact is that some of the 
largest airlines also have more robust safety programs, and 
they have higher standards than even the minimum in 121.
    Mr. Babbitt, I know that is something that you're going to 
want to look at: do we have the right minimum standard, or 
should we start stepping it up to be more in line with some of 
the larger air carriers?
    The troubling thing, of course, is that four of the last 
five accidents that we have had in our country have been 
regional carriers. And I think pilot issues have been a part of 
that. So, what I'm going to want to hear, and ask you to 
particularly look at--in addition to the pilot history, crew 
rest calculations, cockpit oversight, and training--is the 
maintenance training. That's probably the key issue in most of 
these accidents, but I think we do need to look at it, just 
because we're beginning to see that maybe maintenance training 
needs to come into the safety factors, as well.
    I will support what Senator Dorgan said. We have the safest 
system in the world, and we have had wonderful FAA and NTSB 
involvement. Our investigators are the best, and they come up 
with the causes, and we have learned from those causes, and we 
have made the adjustments by the FAA through the years.
    So, I think that we are a safe aviation country, but we 
should now be saying, ``Let's take another look. Let's see 
where we need to be more stringent and have more oversight, 
just to ensure that we're doing everything possible,'' because 
I know there are people in this audience whose lives have been 
affected by some of these tragic accidents.
    So, I really appreciate that you're holding the hearing. I 
do have a conflicting hearing, so I will not be able to stay, 
but I will get the testimony, and, when we are into the FAA 
reauthorization and when we're into the safety standards, I 
will be very active, and I want to have the input. I will look 
at everything that you have said, we will work together in what 
is in all of our interests.
    Thank you.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas
    Thank you, Senator Dorgan, I appreciate you holding this hearing. 
Unfortunately, in the wake of the U.S. Airways ``Miracle on the 
Hudson'', the recent Air accident and the Colgan flight 3407 accident 
in Buffalo, it is necessary we again direct our attention to aviation 
safety.
    As I have said in the past, aviation safety, and the public trust 
that goes along with it, is the bedrock of our national aviation policy 
and we simply cannot allow for any degradation of service to the flying 
public.
    As we will hear from the FAA, the commercial aviation industry is 
experiencing the safest period in history. I commend the FAA and the 
air carriers for an excellent accident safety record, but recent 
incidents clearly show there is still much room for improvement.
    The collaborative safety system between the FAA and the air 
carriers has been effective; however, it is time for that system to 
evolve. It is time we effectively tackle some of the most difficult and 
hard to quantify issues like pilot fatigue and professional 
responsibility.
    The FAA must make a strong and exhaustive assessment and review of 
the safety foundation it has in place and start making some tough 
decisions regarding pilot training, disclosure of pilot history to air 
carriers, crew rest calculations and cockpit oversight.
    I believe all of our commercial air carriers, including regional 
airlines, are safe. However, regional carriers have been involved in 
five of the last seven accidents since 2001, with four of the five 
accidents being attributed to pilot error. This is a troubling 
statistic.
    While each accident in the aviation industry always has its own set 
of contributing factors and circumstances, I believe these recent 
incidents warrant a review of how pilots are trained, licensed and 
certified.
    Each industry has a natural career progression, and the aviation 
industry is no different. Pilots have to start somewhere and in many 
cases in the airline industry they start at regional carriers in order 
to gain experience.
    However, how pilots are selected and trained prior to pursuing this 
career path should certainly be analyzed given the issues raised from 
the preliminary findings in the Colgan accident.
    Thank you, Senator Dorgan; I look forward to the testimony and to 
working with you on ways to address these important issues.

    Senator Dorgan. Senator Hutchison, thank you very much and 
thanks for your work on this Subcommittee over the years.
    Senator Rockefeller, the Chairman of the full Committee, is 
not able to be with us.
    If the three of you who are here would wish to make a 1-
minute opening statement, very briefly, I'd be happy to 
recognize any of the three of you.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Just very quickly, Mr. Chairman, 
because I do want to hear, we all want to hear, from the 
witnesses.
    And we're pleased to have the new administrator for the FAA 
and the IG, people of competence and experience, and that's 
just what we ought to be doing, is looking at the safety side. 
People are anxious to go places, they still crowd airplanes, 
there are still huge delays and so forth, but the overriding 
concern is safety.
    And, Mr. Chairman, I commend you for holding this hearing.
    Senator Dorgan. Well, as we recognize the witnesses, let me 
just make one final point. Most consumers get on an airplane, 
and all they see in the fuselage is the brand name of that 
carrier, and they don't know whether it's a commuter or another 
carrier, a major. They just see the brand name. And the 
question, I think, for all of us as we begin to hear the 
witnesses is, should passengers expect that the same competence 
and the same capability, the same experience, and the same 
judgment exists in that cockpit, no matter the size of the 
airplane? Because they don't know whether it's a commuter or a 
major carrier. Does it exist today? That's what we're asking, 
because a lot of evidence suggested that, at least in the most 
recent crash, that was not the case. And so, let me commend the 
NTSB for the extraordinary work they are doing.
    And I'm going to begin with The Honorable Randy Babbitt, 
Randolph Babbitt, the Administrator of the FAA. I'm very 
pleased that you've decided to serve your country in this way. 
And you're new to that job, but I will recognize you.
    And I would say, to all four witnesses, your entire 
statements will be made a part of the permanent record, and we 
would ask you to summarize.
    Mr. Babbitt, you may proceed.

  STATEMENT OF HON. RANDOLPH BABBITT, ADMINISTRATOR, FEDERAL 
                    AVIATION ADMINISTRATION

    Mr. Babbitt. Thank you, sir. Chairman Dorgan, Senator 
DeMint, and Members of the full Committee, thank you for 
inviting me here today to discuss the FAA's role in the 
oversight of air carriers.
    Let me start by saying that we, at the FAA, mourn the 
tragic loss of Colgan Air Flight 3407 and as well as the 
families and crew members aboard the Air France 447. This is an 
agency that's dedicated to air safety. Any loss is felt keenly 
by all of us, and our sympathies go out to the families of 3407 
and Air France 447.
    As you noted, Senator, this is my first appearance at a 
hearing since I was sworn in as FAA Administrator on June 1, 
and I want to thank this Committee again for both your support 
and your confidence in me.
    We do have an ambitious agenda, and I think I discussed 
some of that with you during the confirmation hearing. I intend 
to work very hard to achieve the safety goals that we've set 
forth and are the challenge of the FAA.
    Since the mid-1990s, there has been a requirement for ``one 
level of safety''--that all regional carriers must operate 
under the same rules and at the same level of safety as their 
major-airline counterparts. And I'm proud to say that when I 
was President of the Air Line Pilots Association, I led ALPA's 
efforts to work with the FAA to make those changes. And all 
carriers that operate aircraft today that have ten or more 
seats are required to meet the exact same safety standards and 
are subject to the same level of safety oversight across the 
board.
    When the NTSB conducted its public hearing last month on 
the Colgan Air crash--and I commend them on that hearing--
several issues came to light when they were investigating the 
Colgan Air crash, issues such as pilot training and 
qualifications, issues such as flight-crew fatigue and 
consistency of safety standards and compliance between air 
transportation operators. And given that the NTSB has not yet 
concluded this investigation, I can't really speak today to any 
of their potential findings.
    My written testimony will provide details as to the current 
regulations and requirements with regard to pilot training, 
pilot records, and flight-time and duty-time limitations.
    I can also tell you that, yesterday, Secretary LaHood and I 
announced that we have ordered FAA inspectors to immediately 
focus their inspections on training programs to better ensure 
that all airlines, including regional airlines, are complying 
with Federal regulations. We're gathering representatives from 
the major air carriers, their regional partners, aviation 
industry groups, and labor here in Washington, D.C., next week 
on the 15th, to participate in a Call to Action to improve 
airline safety. This review will address those issues: pilot 
training, cockpit discipline, and other issues associated with 
flight safety. And while we await the findings of the NTSB 
investigation of the Colgan Air accident, the Secretary and I 
believe that there is absolutely no time to lose in acting upon 
information that we already have gathered.
    Our June 15 summit is designed to foster actions and 
voluntary commitments in four key areas: air carrier management 
responsibilities for crew education and support; second, 
professional standards and flight discipline in the cockpit; 
third would be training standards and performance; and fourth, 
the mentoring relationships between mainline carriers and their 
regional partners.
    The Colgan Air accident and the loss of Air France 447 
remind us that we cannot rest on our laurels of a great safety 
record and that we must remain alert and vigilant to the 
challenges in our aviation system. We've got to continue to 
work to enhance the air safety within this system. This is a 
business where one mistake is one mistake too many.
    Senator Dorgan, Senator DeMint, and the Members of the 
Committee, this concludes my prepared remarks, and I'd be happy 
to answer any questions that you have.
    Thank you.
    [The prepared statement of Mr. Babbitt follows:]

      Prepared Statement of Hon. Randolph Babbitt, Administrator, 
                    Federal Aviation Administration
    Chairman Dorgan, Senator DeMint, Members of the Subcommittee:
    Thank you for inviting me here today to discuss the Federal 
Aviation Administration's (FAA's) role in the oversight of air 
carriers. Let me begin by saying that we at the FAA mourn the tragic 
loss of Colgan Air Flight 3407 deeply. This is an agency dedicated to 
aviation safety; any loss is felt keenly by us all. Likewise, our 
sympathies go out to the families and loved ones of the passengers and 
crew of Air France Flight 447.
    The National Transportation Safety Board (NTSB) conducted a public 
hearing May 12-14, 2009 on the Colgan Air crash. Several issues came to 
light regarding pilot training and qualifications, flight crew fatigue, 
and consistency of safety standards and compliance between air 
transportation operators. Given that the NTSB has not yet concluded its 
investigation, I cannot speak today to any of the potential findings. I 
can, however, outline for you the FAA's oversight responsibility with 
regard to safety oversight of operators, pilot training and 
qualifications, and flight and duty times for flight crew, and my focus 
on aviation safety as my top priority.
One Level of Safety
    In the mid-1990s, the FAA revised its regulations on air carrier 
safety standards to reflect ``one level of safety,'' requiring regional 
air carriers to operate under the same rules and at the same level of 
safety as their major airlines counterparts. I am proud to say that 
while I was President of the Air Line Pilots Association, I led the 
efforts on working with the FAA to make these changes.
    Now, all air carriers that operate aircraft with 10 or more seats 
are required to meet the same safety standards and are subject to the 
same level of safety oversight across the board. Specifically, the air 
carriers are required to comply with the regulations embodied in Part 
121 of Title 14, Code of Federal Regulations (Part 121).
    FAA safety oversight for these carriers is conducted through the 
comprehensive Air Transportation Oversight System (ATOS). ATOS has 
three fundamental elements: design assessment, performance assessment, 
and risk management.

  <bullet> Design assessment ensures an air carrier's operating systems 
        meet regulatory and safety standards.

  <bullet> Performance assessments confirm that an air carrier's 
        operating systems produce intended results, including 
        mitigation or control of hazards and associated risks.

  <bullet> Risk management process identifies and controls hazards and 
        allocates FAA resources according to risk-based priorities.

    Under ATOS, FAA's primary responsibilities are: (1) to verify that 
an air carrier is capable of operating safely and complies with the 
regulations and standards prescribed by the Administrator before 
issuing an air carrier operating certificate and before approving or 
accepting air carrier safety programs; (2) to re-verify that an air 
carrier continues to meet regulatory requirements when changes occur by 
conducting periodic safety reviews; and (3) to continually validate the 
performance of an air carrier's approved and accepted programs for the 
purpose of continued operational safety.
Pilot Training and Qualifications
    The FAA offers several types of pilot certification. The typical 
FAA certification progression for an airline pilot is Private Pilot (a 
license to fly oneself and others, without charge, under Visual Flight 
Rules), Commercial Pilot (a license needed to fly for compensation or 
hire as a second in command), and Airline Transport Pilot (a license to 
fly as a captain for an airline), with an Instrument Rating (a rating 
that one is proficient at using instrument navigational aids and other 
avionics) usually added to the Private Pilot certificate. For each 
level of pilot certification, the individual must demonstrate 
aeronautical knowledge as well as flight proficiency. Each new level of 
certification requires the satisfactory completion of the previous 
rating. In other words, it is not permissible for an individual to 
receive a Commercial Pilot certificate without first completing the 
requirements of the Private Pilot Certificate. For airline pilots to be 
captains of aircraft larger than 12,500 pounds, or any jet aircraft, 
they must complete specialized training for the specific aircraft and 
test for a type rating in that aircraft.
    The requirements for each of these pilot certifications, including 
the Instrument Rating, are summarized below:

------------------------------------------------------------------------

------------------------------------------------------------------------

1. Private Pilot-----------------(Minimum of 40 hours at certification)-
------------------------------------------------------------------------
a. Aeronautical knowledge        Complete a comprehensive ground school
                                  and pass a written test composed of at
                                  least the following: aircraft systems,
                                  weight and balance, aeronautical
                                  charts, Federal Aviation Regulations
                                  (FARs), airport operations, national
                                  air space, emergency procedures,
                                  communications, and navigation
                                  requirements. The ground school must
                                  be conducted by an authorized
                                  instructor.
b. Flight proficiency            Minimum of 40 hours, composed of at
                                  least 20 hrs from an approved
                                  instructor, 10 hrs of solo, 3 hrs of
                                  night time, and 5 solo hrs of cross
                                  country. Pass a flight check
                                  administrated by the FAA or designated
                                  evaluator.
------------------------------------------------------------------------
2. Commercial Pilot              (Minimum of 250 Hours)
------------------------------------------------------------------------
a. Aeronautical knowledge        FARs, accident reporting procedures,
                                  aerodynamics, meteorology, weather
                                  reports and forecast, safe operations
                                  of the aircraft, weight and balance,
                                  performance charts, aircraft
                                  limitations, aeronautical charts,
                                  navigation, aeronautical
                                  decisionmaking, aircraft systems,
                                  maneuvers procedures and emergency
                                  operations, night and high altitude
                                  operations, and operations in the
                                  national airspace system.
b. Flight proficiency            Minimum of 250 hours to include day,
                                  night and flight by reference to
                                  aircraft instruments. Pass a flight
                                  check administrated by the FAA or
                                  designated evaluator.
------------------------------------------------------------------------
3. Instrument Rating
------------------------------------------------------------------------
a. Aeronautical knowledge        Must complete ground training on
                                  instrument flight conditions and
                                  procedures. Pass an aeronautical test
                                  composed of the following: FARs, Air
                                  Traffic Control (ATC) system,
                                  instrument procedures, Instrument
                                  Flight Rules (IFR) navigation,
                                  instrument approach procedures, use of
                                  IFR charts, weather reports and
                                  forecasts, recognition of critical
                                  weather situations, aeronautical
                                  decisionmaking, and crew resource
                                  management.
b. Flight proficiency            Minimum of 50 hrs cross country as
                                  Pilot in Command (PIC). 40 hours of
                                  actual or simulated flight time, 15
                                  hrs with an authorized instrument
                                  instructor. Pass a flight check
                                  administrated by the FAA or designated
                                  evaluator.
------------------------------------------------------------------------
4. Airline Transport Pilot       (Minimum of 1,500 Hours)
------------------------------------------------------------------------
a. Aeronautical knowledge        FARs, meteorology, Knowledge of effects
                                  of weather, general weather and
                                  Notices to Airmen (NOTAM) use,
                                  interpretation of weather charts, maps
                                  and forecasts, operations in the
                                  national airspace system, wind sheer
                                  and micro burst awareness, air
                                  navigation, ATC procedures, instrument
                                  departure and approach procedures,
                                  enroute operations, airport
                                  operations, weight and balance,
                                  aircraft loading, aerodynamics ,
                                  aircraft performance, human factors,
                                  aeronautical decisionmaking, and Crew
                                  Resource Management (CRM). Must pass
                                  an FAA test on these subjects.
b. Flight proficiency            1,500 hours total time. 500 hrs cross
                                  country, 400 hours night time. Pass a
                                  flight check administrated by the FAA
                                  or designated evaluator on the
                                  maneuvers required by the FAA's
                                  Airline Transport Pilots Practical
                                  Test Standards.
------------------------------------------------------------------------


    In addition to these FAA certifications, airline pilots receive 
initial and additional recurrent training through the air carriers for 
whom they work. These training programs are evaluated and approved by 
the FAA. An air carrier training program contains curricula, 
facilities, instructors, courseware, instructional delivery methods, 
and testing and checking procedures. These training programs must meet 
the requirements of Part 121, the regulations for commercial air 
carriers, to ensure that each crewmember is adequately trained for each 
aircraft, duty position, and kind of operation in which the person 
serves. An air carrier or operator's training program is divided into 
several categories of training that are specific to the operator, and 
which may include initial training for new hires, initial training on 
equipment, transition training, upgrade training, recurrent training, 
and requalification training.
    Training programs are approved by the FAA in two stages: initial 
training approval and final approval. Initial approval consists of a 
thorough review by the Principal Operations Inspector (POI) for that 
carrier of the training program to ensure that all applicable 
requirements of Part 121 have been met and are covered in the training 
program. Once initial approval is granted by the POI, the POI will 
observe several training classes, which include ground training and 
flight (simulator) training.
    The quality of the training is determined by an evaluation of 
passing scores of the pilots. Direct observation by the POI of testing 
and checking is an effective method for determining whether learning 
has occurred. Examining the results of tests, such as oral or written 
tests or flight checks, provides a quantifiable method for measuring 
training effectiveness. The POI must examine and determine the causal 
factors of significant failure trends. The POI periodically monitors 
the training and evaluates failure rates to determine whether the 
training program continues to comply with FAA standards, and also 
evaluates the program.
    On January 12, 2009, the FAA issued a Notice of Proposed Rulemaking 
(NPRM) regarding upgraded training standards for pilots, flight 
attendants and dispatchers. This proposal is the most comprehensive 
upgrade to FAA training requirements in 20 years and was drafted 
working with an Aviation Rulemaking Committee (ARC) that included 
pilots, flight attendants, airlines, training centers, FAA, and others.
    While aviation has incorporated many technologies over the years to 
prevent accidents by addressing findings from NTSB accident 
investigations, human factors remain a source of risk. Improving human 
performance is a central element to improving safety. Thus, the FAA 
proposal is aimed at using best practices and tools to help pilots, 
flight attendants, and dispatchers (1) avoid the mistake and (2) 
respond better if there is a mistake made.
    The aviation industry has moved to performance-based training 
rather than prescriptive training to reflect that the way people learn 
has changed. New technology, particularly simulators, allows high-
fidelity training for events that we never could have trained to in the 
past using an aircraft, e.g., stall recovery. We now have qualitative 
measures to measure actual transfer of knowledge. We can determine 
proficiency based on performance, not just on the number of hours of 
training. While the major airlines are already doing this type of 
training, our proposed rule incorporates best practices and tools so 
that all operators will use the upgraded standards.
    One of the pilot training issues that has arisen in the wake of the 
Colgan Air investigation is that of failed check rides and whether air 
carriers are informed of a pilot-applicant's failures. A check ride is 
a practical examination given by an FAA check airman or airline 
employer that checks or tests the proficiency of the pilot to perform 
certain skills. Under the Pilot Records Improvement Act of 1996 (PRIA), 
air carriers must obtain the last 5 years' performance and disciplinary 
records for a prospective pilot from their previous employer. These 
records would include information regarding initial and recurrent 
training, qualifications, proficiency, or professional competence 
including comments and evaluations made by a check airman.
    PRIA also requires carriers to obtain records for a pilot from the 
FAA. FAA records regarding pilot certification are protected by the 
Privacy Act of 1974. However, PRIA requires carriers to obtain a 
limited waiver from prospective pilots allowing for the release of 
information concerning their current airman certificate and associated 
type ratings and limitations, current airman medical certificates, 
including any limitations, and summaries of closed FAA legal 
enforcement actions resulting in a finding by the Administrator of a 
violation that was not subsequently overturned. Although PRIA does not 
require carriers to obtain a release from prospective pilots for the 
entirety of the pilot's airman certification file, including Notices of 
Disapproval for flight checks for certificates and ratings, FAA 
guidance suggests to potential employers that they may find this 
additional information helpful in evaluating the pilot. In order to 
obtain this additional information, a carrier must obtain a Privacy Act 
waiver from the pilot-applicant.
Pilot Fatigue
    Another one of the concerns that has come out of the NTSB's 
investigation is the issue of pilot fatigue and what factors may 
contribute to pilot fatigue. This is an area of particular interest to 
me. The FAA regulates flight and duty limitations for all Part 121 
pilots conducting domestic operations. The ``crew rest'' elements of 
the regulation are designed to mitigate chronic and acute fatigue, 
primarily through limitations on flight hours and defined hours of rest 
relative to flight hours. For example, the regulation outlines:

  <bullet> No more than 30 flight hours in any 7 consecutive days.

  <bullet> At least 24 hours of consecutive rest during any 7 
        consecutive days.

  <bullet> Varying rest requirements relative to hours flown in any 24 
        hour period.

    The rule also defines rest period activities and prohibitions, and 
provides provisions for circumstances under which flight time 
limitations can be exceeded, such as in adverse weather operations. As 
of late 2000, an FAA legal interpretation clarified that under these 
rules a pilot crew member, flying under domestic flight rules, must 
``look back'' 24 hours and find 8 hours of uninterrupted rest before 
beginning any flight segment.
    Pilots also have a regulatory responsibility to not fly when they 
are not fit, including being fatigued. Thus, while the carrier 
schedules and manages pilots within these limitations and requirements, 
the pilot has the responsibility to rest during the periods provided by 
the regulations. The FAA has long held that it is the responsibility of 
both the operator and the flight crewmember to prevent fatigue, not 
only by following the regulations, but also by acting intelligently and 
conscientiously while serving the traveling public. This means taking 
into consideration weather conditions, air traffic, health of each 
flight crewmember, or any other circumstances (personal problems, etc.) 
that might affect the flight crewmember's alertness or judgment on a 
particular flight.
    The FAA has initiated a number of fatigue mitigation efforts in 
recent years:

  <bullet> The FAA took steps in 2006 to address fatigue mitigations 
        for Ultra-Long Range flights (more than 16 hours of flight 
        time) and associated extended duty times.

  <bullet> The FAA held the 2008 Aviation Fatigue Management Symposium 
        to provide the industry the latest information on fatigue 
        science, mitigation, and management. (Symposium proceedings are 
        available on www.faa.gov.)

  <bullet> The FAA is in the process of writing an Advisory Circular 
        regarding fatigue that incorporates information from the 
        Symposium.

    However, because piloting is a highly mobile profession, one of the 
persistent challenges is that pilots are often domiciled in places that 
are hundred of miles from the airlines' bases of operations, e.g., the 
pilot lives in Los Angeles but is based out of the airline employer's 
Atlanta operations. This means that the pilot's ``commute'' is a 5-hour 
plane ride. Though the commuting pilot is riding in the jump seat or in 
a passenger seat, she is not technically considered to be on duty 
during that time. Whether this has an impact on pilot fatigue is 
something that the FAA continues to monitor and examine to determine 
whether it is an appropriate area for regulation.
    As the NTSB moves forward on its investigation and presents its 
findings, the FAA continues to examine the facts that are coming to 
light. We continue our vigilance in assessing the safety of our system 
and taking the appropriate steps to improve that. While we are in an 
extremely safe period in aviation history, the Colgan Air accident and 
the loss of Air France 447 remind us that we cannot rest on our 
laurels, that we must remain alert and aware of the challenges in our 
aviation system, and that we must continue to work to enhance the 
safety of the system. This is a business where one mistake is one too 
many.
    Chairman Dorgan, Senator DeMint, Members of the Subcommittee, this 
concludes my prepared remarks. Thank you again for inviting me here 
today to discuss the FAA's role in the oversight of air carriers. I 
would be happy to answer any questions that you might have.

    Senator Dorgan. Administrator Babbitt, thank you very much 
for being with us.
    Next, we will hear from The Honorable Calvin Scovel, who's 
the Inspector General of the Department of Transportation.
    Mr. Scovel, you may proceed.

STATEMENT OF HON. CALVIN L. SCOVEL III, INSPECTOR GENERAL, U.S. 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Scovel. Chairman Dorgan, Ranking Member DeMint, Members 
of the Subcommittee, we appreciate the opportunity to testify 
today regarding the FAA's role in the oversight of air 
carriers.
    Safety is a responsibility shared among FAA, aircraft 
manufacturers, airlines, and airports. Together, all four form 
a series of overlapping controls to keep the system safe. The 
past several years have been one of the safest periods in 
history for the aviation industry; however, the tragic accident 
in February of Colgan Flight 3407 underscores the need for 
constant vigilance over aviation safety on the part of all 
stakeholders.
    Last month, NTSB held a preliminary hearing into the cause 
of the Colgan accident in which some evidence suggested that 
pilot training and fatigue may have contributed to the crash. 
As a result, Mr. Chairman, you, along with Committee Chairman 
Rockefeller, Committee Ranking Member Hutchison, and Ranking 
Subcommittee Member DeMint requested that our office begin an 
extensive investigation into some of the issues that were 
brought to light during the NTSB hearing. We have already begun 
work on this review.
    Today, I will first address two major weaknesses related to 
FAA's oversight of the aviation industry and then move on to 
operational differences between mainline and regional carriers.
    First, this Subcommittee's hearing in April 2008 
highlighted weaknesses in FAA's risk-based oversight system, 
known as ATOS, and air-carrier compliance with safety 
directives. While our work identified safety lapses in 
Southwest Airline's compliance, many stakeholders were 
concerned that they could be symptomatic of much deeper 
problems with FAA's air-carrier oversight on a systemwide 
level.
    For example, in 2002 we reported that FAA needed to develop 
national oversight processes to ensure that ATOS is effectively 
and consistently implemented. In 2005, we found that inspectors 
did not complete 26 percent of planned ATOS inspections.
    Last year, we reported that weaknesses in FAA's 
implementation of ATOS allowed compliance issues in Southwest's 
maintenance program to go undetected for several years. 
Further, our ongoing work has determined that lapses in 
oversight inspections were not limited to Southwest. FAA 
oversight offices for seven other major air carriers also 
missed ATOS inspections. Some had been allowed to lapse well 
beyond the 5-year inspection cycle.
    Additionally, FAA's national oversight of other facets of 
the aviation industry, such as repair stations, has struggled 
to keep pace with the dynamic changes occurring in the 
industry. These facilities are rapidly becoming air carriers' 
primary source for aircraft maintenance. We have found that FAA 
relies heavily on air carriers to provide oversight of those 
repair stations; however that oversight has not always been 
effective.
    We reported that air carriers did not identify all 
deficiencies at repair stations and did not adequately follow 
up on deficiencies identified to ensure problems were 
corrected. This is an area of particular concern for regional 
carriers, who rely heavily on repair stations. According to 
data provided to the Department, regionals are sending as much 
as half their maintenance to repair stations. The NTSB's 
investigation into the crash of another regional carrier, Air 
Midwest Flight 5481 in January 2003, identified serious lapses 
in the carrier's oversight of outsourced maintenance.
    Last month's NTSB hearing brought to light the need to 
closely examine the regulations governing pilot training and 
rest requirements and the requisite oversight to ensure 
compliance. These issues are particularly critical at regional 
carriers. In the last six fatal accidents involving regional 
air carriers, the NTSB cited pilot performance as a potential 
contributory in four of those accidents.
    Moving to our second concern, related to operational 
differences between mainline and regional air carriers. It is 
critical that there be one level of safety for all carriers. 
Regional flights represent one-half of the total scheduled 
flights across the country, and regional airlines provide the 
only scheduled airline service to over 400 American 
communities.
    In response to your new request, our preliminary audit work 
has identified differences in regional and mainline carriers' 
operations and potential differences in pilot training programs 
and level of flight experience. We are also looking into FAA's 
role in determining whether air carriers at both mainline and 
regional air carriers have developed programs to ensure pilots 
are adequately trained and have sufficient experience to 
perform their responsibilities.
    Mr. Chairman, I would like to reiterate that we will 
continue to do our part in advancing the Department's goal of 
one level of safety. While all stakeholders are committed to 
getting it right, our work has identified a number of 
significant vulnerabilities that must be addressed. This will 
require actions in areas FAA has already targeted for 
improvement, as well as other areas where FAA will need to 
revisit differences in standards and regulations and rethink 
its approach to safety oversight.
    That concludes my statement, Mr. Chairman. I'd be happy to 
answer any questions you or other Members of the Committee may 
have.
    [The prepared statement of Mr. Scovel follows:]

  Prepared Statement of Hon. Calvin L. Scovel III, Inspector General, 
                   U.S. Department of Transportation
    Chairman Dorgan, Ranking Member DeMint, and Members of the 
Subcommittee:
    We appreciate the opportunity to testify today regarding the 
Federal Aviation Administration's (FAA) role in the oversight of air 
carriers. Ensuring that airlines safely meet the demand for air travel 
is of paramount importance to the flying public and the national 
economy; this remains one of the top priorities for the Department of 
Transportation.
    Safety is a shared responsibility among FAA, aircraft 
manufacturers, airlines, and airports. Together, all four form a series 
of overlapping controls to keep the system safe. The past several years 
have been one of the safest periods in history for the aviation 
industry. This is largely due to the dedicated efforts of the 
professionals within FAA and throughout the industry as well as 
significant advances in aviation technology.
    In January, we witnessed a dramatic example of aviation safety at 
its best when U.S. Airways flight 1549 made an emergency landing in the 
Hudson River, and, miraculously, all 155 passengers and crew survived 
due to the skillful efforts of the pilot and crew. However, the tragic 
accident in February of Colgan flight 3407, which resulted in 50 
fatalities, underscores the need for constant vigilance over aviation 
safety on the part of all stakeholders.
    Last month, the National Transportation Safety Board (NTSB) held a 
preliminary hearing into the cause of that accident, in which some 
evidence suggested that pilot training and fatigue may have contributed 
to the crash. The NTSB has identified these issues as areas of concern 
for all air carriers; however, they are particularly critical at 
regional carriers. The last six fatal Part 121 \1\ accidents involved 
regional air carriers, and the NTSB has cited pilot performance as a 
potential contributory factor in four of those accidents.
---------------------------------------------------------------------------
    \1\ 14 CFR 121 Operating Requirements: Domestic, Flag, and 
Supplemental Operations. This FAA regulation governs commercial air 
carriers, including regional air carriers, with primarily scheduled 
flights.
---------------------------------------------------------------------------
    As a result of that hearing, Mr. Chairman, you, along with 
Committee Chairman Rockefeller, Committee Ranking Member Hutchison, and 
Ranking Subcommittee Member DeMint, requested that our office begin a 
review to include FAA's standards for certification of commercial pilot 
training programs and licensing, FAA's oversight of those programs, and 
the Agency's ability to verify that pilots have the appropriate 
qualifications and training to operate specific aircraft. You also 
requested that we review FAA regulations and airline policies regarding 
crew rest requirements, including the role of pilots' domicile and duty 
locations, and FAA's and air carriers' (both mainline and regional) 
oversight and enforcement of those regulations and policies. We are in 
the preliminary stages of this extensive review, and, as part of the 
discussion today, we would like to address how we intend to proceed 
with that audit.
    A key focus of this review, Mr. Chairman, is that FAA maintains it 
has one level of safety for all types of air carrier operations. Yet, 
we have overseen the application of that standard for years and have 
concerns. In short, our past work has disclosed serious lapses in FAA's 
safety oversight and inconsistencies in how its rules and regulations 
are enforced. Today, I would like to cover three areas: (1) 
vulnerabilities in FAA's oversight of safety, (2) differences between 
mainline and regional air carrier operations, and (3) our plan to 
address the Committee's and Subcommittee's new request for additional 
safety work.
Vulnerabilities in FAA's Oversight of Safety
    While FAA has made progress toward improving aspects of its safety 
oversight, such as clarifying guidance to inspectors who monitor air 
carriers and repair stations, we continue to find weaknesses. For 
example, a year has passed since we last testified before this 
Subcommittee regarding FAA's oversight of the aviation industry.\2\ 
That hearing highlighted weaknesses in FAA's national program for risk-
based oversight, known as the Air Transportation Oversight System 
(ATOS), and in airline compliance with safety directives. While the 
safety lapses discussed at the hearing indicated problems with one 
airline's compliance, many stakeholders were concerned that they could 
be symptomatic of much deeper problems with FAA's air carrier oversight 
on a systemwide level. Since then, our work has focused on determining 
whether the kind of problems we reported on last year are unique to one 
air carrier and one FAA oversight office. We have determined the 
problems were not limited to that office and carrier, and we continue 
to believe the key to addressing this problem is better national FAA 
oversight.
---------------------------------------------------------------------------
    \2\ OIG Testimony Number CC-2008-067, ``Key Safety Challenges 
Facing the FAA,'' April 10, 2008. OIG reports and testimonies are 
available on our website: www.oig.dot.gov.
---------------------------------------------------------------------------
    In preparation for this hearing, we have identified serious 
vulnerabilities in five critical FAA programs for oversight of the 
aviation industry: risk-based inspections, repair stations, aging 
aircraft, disclosures of safety violations made through the Aviation 
Safety Action Program (ASAP), and whistleblower complaints.
Vulnerabilities in FAA's National Program for Risk-Based Oversight--The 
        Air Transportation Oversight System
    More than 10 years ago, FAA initiated ATOS, its risk-based 
oversight approach to air carrier oversight. ATOS was designed to 
permit FAA to focus inspections on areas of highest risk and maximize 
the use of inspection resources. We have always supported the concept 
of ATOS as FAA would never have enough inspectors to continuously 
monitor all aspects of a constantly changing aviation industry. 
However, since 2002, we have reported that FAA needs to develop 
national oversight processes to ensure the program is effectively and 
consistently implemented. In 2005, we found that inspectors did not 
complete 26 percent of planned ATOS inspections--half of these were in 
identified risk areas,\3\ such as maintenance personnel qualifications.
---------------------------------------------------------------------------
    \3\ OIG Report Number AV-2005-062, ``FAA Safety Oversight of an Air 
Carrier Industry in Transition,'' June 3, 2005.
---------------------------------------------------------------------------
    Last year, we reported that weaknesses in FAA's implementation of 
ATOS allowed airworthiness directive (AD) compliance issues in 
Southwest Airlines' (SWA) maintenance program to go undetected for 
several years.\4\ We found that FAA inspectors had not reviewed SWA's 
system for compliance with ADs since 1999. In fact, at the time of our 
review, FAA inspectors had not completed 21 key inspections for at 
least 5 years. While FAA has subsequently completed some of these 
inspections, 4 of the 21 inspections were still incomplete at the time 
we testified before this Subcommittee; some had not been completed for 
nearly 8 years.
---------------------------------------------------------------------------
    \4\ OIG Report Number AV-2008-057, ``Review of FAA's Oversight of 
Airlines and Use of Regulatory Partnership Programs,'' June 30, 2008.
---------------------------------------------------------------------------
    We have recommended that FAA implement a process to track field 
office inspections and alert the local, regional, and Headquarters 
offices to overdue inspections required through ATOS. While FAA has 
implemented a system to track field office inspections, it is unclear 
whether it has taken any actions in response to identified overdue 
inspections. At the request of the Subcommittee, we are currently 
performing a review of FAA's implementation of ATOS and will address 
this issue as part of that review.
    Thus far, we have determined that lapses in oversight inspections 
were not limited to SWA--FAA oversight offices for seven other major 
air carriers also missed ATOS inspections. We have found that these 
missed inspections were in critical maintenance areas such as AD 
Management, the Continuing Analysis and Surveillance System (CASS),\5\ 
and the Engineering and Major Alterations Program. Some inspections had 
been allowed to lapse beyond the 5-year inspection cycle by nearly 2 
years.
---------------------------------------------------------------------------
    \5\ FAA requires air carriers to maintain a CASS, which monitors 
and analyzes the performance and effectiveness of their inspection and 
maintenance programs.
---------------------------------------------------------------------------
    As part of this review, we are also assessing FAA's recent 
transition of regional air carriers into the ATOS program. FAA 
inspectors responsible for oversight of large, commercial air carriers 
have been using this risk-based system for several years, but the 
majority of FAA offices responsible for oversight of regional air 
carriers have only recently transitioned to ATOS. This is a completely 
new way of conducting oversight, and inspectors we interviewed stated 
that ATOS applies more to large carrier operations and needs to be 
revised to fit the operations unique to smaller air carriers. We plan 
to issue our report later this year.
Ineffective Oversight of Repair Stations
    Our work has also shown that FAA's oversight of repair stations has 
struggled to keep pace with the dynamic changes occurring in that 
industry. Repair stations are rapidly growing as a primary source for 
aircraft maintenance as air carriers increasingly outsource maintenance 
in an effort to reduce costs. This is an area of particular concern for 
regional carriers since they outsource as much as 50 percent of their 
maintenance to repair stations. The NTSB's investigation into the 
January 2003 crash of Air Midwest flight 5481 (a regional air carrier), 
in which there were 21 fatalities, identified serious lapses in the 
carrier's oversight of outsourced maintenance as a contributory cause 
of that accident.
    In 2005, FAA established a risk-based oversight system for repair 
stations. However, this system does not include non-certificated repair 
facilities that perform critical maintenance.\6\ To address this 
concern, FAA issued guidance in 2007 that required inspectors to 
evaluate air carriers' contracted maintenance providers and determine 
which ones performed critical maintenance and whether they were FAA-
certificated. However, the guidance did not provide effective 
procedures for inspectors to do so, and FAA is now trying to develop a 
new method to capture these data.
---------------------------------------------------------------------------
    \6\ OIG Report Number AV-2006-031, ``Air Carriers' Use of Non-
Certificated Repair Facilities,'' December 15, 2005.
---------------------------------------------------------------------------
    Another issue we identified was air carriers' inadequate training 
of mechanics at non-certificated facilities. We found carriers provided 
from as little as 1 hour of video training for mechanics to as much as 
11 hours of combined classroom and video instruction.
    In 2008, we reported that while FAA established a system for air 
carriers to report the volume of outsourced repairs, it was inadequate 
because air carriers are not required to report this information.\7\ 
When they do voluntarily report it, FAA does not require that they list 
all repair stations performing repairs to critical components \8\ or 
that FAA inspectors validate the information. FAA is reevaluating this 
system in response to our report and expects to implement system 
improvements by the end of August 2009.
---------------------------------------------------------------------------
    \7\ OIG Report Number AV-2008-090, ``Air Carriers' Outsourcing of 
Aircraft Maintenance,'' September 30, 2008.
    \8\ For the purposes of our report, we used the term ``critical 
components'' to identify those components that are significant to the 
overall airworthiness of the aircraft, such as landing gear, brakes, 
and hydraulics. FAA does not use this term or include these types of 
components in its definition of substantial maintenance. FAA defines 
substantial maintenance as major airframe maintenance checks; 
significant engine work (e.g., complete teardown/overhaul); major 
alterations or major repairs performed on airframes, engines, or 
propellers; repairs made to emergency equipment; and/or aircraft 
painting.
---------------------------------------------------------------------------
    Gathering adequate data to target inspections is important since 
FAA does not have a specific policy governing when inspectors should 
initially visit repair stations performing substantial maintenance for 
air carriers. We found significant delays between FAA's initial 
approval of repair stations and its first inspections at those 
locations. For example, during a 3-year period, FAA inspectors reviewed 
only 4 of 15 substantial maintenance providers used by one air carrier. 
Among those uninspected was a major foreign engine repair facility that 
FAA inspectors did not visit until 5 years after it had received 
approval for carrier use--even though it had worked on 39 of the 53 
engines repaired for the air carrier.
    We again recommended that FAA develop and implement an effective 
system to determine how much and where critical maintenance is 
performed. In addition, FAA must ensure that inspectors conduct initial 
and follow-up inspections at substantial maintenance providers and 
perform detailed reviews of air carrier and repair station audits and 
corrective actions. In response to our report, FAA is reviewing its 
procedures for opportunities to strengthen its guidance. However, it 
does not expect to complete these reviews until the fourth quarter of 
this Fiscal Year.
Differences in Oversight of Aging Aircraft
    Following the December 2005 fatal crash of a regional airline, 
Chalks Ocean Airways, we identified vulnerabilities in FAA's oversight 
of aging aircraft. FAA rules require inspectors to perform aircraft 
inspections and records reviews, at least every 7 years, of each multi-
engine airplane used in scheduled operations that is 14 years and 
older. However, the rule does not require a focus on airplane fatigue 
cracks or crack growth, and these deteriorations can only be detected 
through supplemental inspections (detailed engineering reviews). FAA 
requires only those operators using aircraft with 30 or more seats to 
perform supplemental inspections of areas susceptible to cracks and 
corrosion.
    The Chalks aircraft involved in the crash did not receive a 
supplemental inspection because it was an outdated aircraft model that 
fell outside of this FAA requirement. Two months before the accident, 
FAA did a visual inspection and records review of the aircraft, and no 
structural issues were noted. However, the NTSB's subsequent 
investigation determined the probable cause of the accident was the in-
flight failure and separation of the right aircraft wing due to fatigue 
cracking that went undetected by FAA and the air carrier's maintenance 
program. This incident shows that for those aircraft only covered under 
FAA's requirements for a visual inspection and records review, the 
structural integrity of the aircraft cannot be assured. We note that 27 
regional operators in Alaska are not required to have any Aging 
Aircraft Programs.
    FAA, Congress, and the aviation industry have made significant 
strides toward ensuring the structural integrity of aging aircraft. 
However, as operators continue to operate aircraft beyond their 
original design service goals, aging aircraft will continue to be an 
area that bears watching.
Ineffective Utilization of the Aviation Safety Action Program
    We recently reported problems in how FAA utilizes ASAP.\9\ ASAP is 
a joint FAA and industry program intended to generate safety 
information by allowing aviation employees to self-report safety 
violations of regulations to air carriers and FAA without fear of 
reprisal through legal or disciplinary actions. When properly 
implemented, this program could provide valuable safety data to FAA. We 
found, however, that FAA's ineffective implementation and inadequate 
guidelines have allowed inconsistent use and potential abuse of the 
program. For example, we identified repetitive reports of safety 
violations indicating that pilot training may need to be strengthened 
at two air carriers we reviewed.
---------------------------------------------------------------------------
    \9\ OIG Report Number AV-2009-057, ``FAA Is Not Realizing the Full 
Benefits of the Aviation Safety Action Program,'' May 14, 2009.
---------------------------------------------------------------------------
    Further, FAA has limited the program's effectiveness because it has 
not devised a method to fully compile data reported through ASAP and 
analyze these data on a national level to identify trends. This impedes 
a primary intent of ASAP--to identify precursors of accidents or 
fatalities. While ASAP has proven highly beneficial to the airlines, 
FAA currently obtains only limited aviation safety data through the 
program for use in proactively identifying systemic safety issues. For 
example, FAA inspectors' quarterly reports of ASAP activity at 
participating carriers may only provide general information on the 
number--not the nature--of ASAP submissions for that quarter.
    As a result of these issues, ASAP, as currently implemented, is a 
missed opportunity for FAA to enhance the national margin of safety. In 
addition, ASAP is not widely used by regional carriers. While major 
carriers view ASAP as an integral safety tool, 37 percent of large 
regional carriers do not participate in ASAP. In response to our 
report, FAA agreed to clarify ASAP guidance and establish a centralized 
system for the acquisition and analysis of ASAP and other safety-
related information at a national level. We will continue to monitor 
FAA's progress in this area.
Mishandling Internal Reviews of Whistleblower Complaints
    Our work at SWA and Northwest Airlines (NWA) \10\ has identified 
systemic weaknesses in FAA's processes for conducting internal reviews 
and ensuring appropriate corrective actions. In the SWA case, FAA's 
internal reviews found, as early as April 2007, that the principal 
maintenance inspector was complicit in allowing SWA to continue flying 
aircraft in violation of an AD requiring inspections of aircraft for 
structural fatigue cracks. Yet, FAA did not attempt to determine the 
root cause of the safety issue nor initiate enforcement action against 
the carrier until November 2007.
---------------------------------------------------------------------------
    \10\ OIG Report Number AV-2007-080, ``FAA's Actions Taken To 
Address Allegations of Unsafe Maintenance Practices at Northwest 
Airlines,'' September 28, 2007.
---------------------------------------------------------------------------
    At NWA, FAA's reviews of an inspector's safety concerns were 
limited and also overlooked key findings identified by other 
inspectors, such as findings related to mechanics' lack of knowledge or 
ability to properly complete maintenance tasks and documentation. 
Although FAA found that some of the inspector's safety concerns were 
valid, FAA informed him that all of his concerns lacked merit.
    We also have concerns regarding FAA's failure to protect employees 
who report safety issues from retaliation by other FAA employees. At 
both SWA and NWA, we found that FAA managers reassigned experienced 
inspectors who reported safety concerns to office duties, after an 
alleged complaint from the airline, and restricted them from performing 
oversight on carrier premises. Both the SWA and NWA cases demonstrate 
that FAA must pursue a more reliable internal review process and 
protect employees who identify important safety issues.
    Given the vulnerabilities surrounding FAA's national program for 
risk-based oversight, ASAP implementation, and protection of 
whistleblowers, we have made a series of recommendations. Key actions 
needed from FAA include the following:

  <bullet> Develop a national review team that conducts periodic 
        reviews of FAA's oversight of air carriers.

  <bullet> Periodically rotate supervisory inspectors to ensure 
        reliable and objective air carrier oversight.

  <bullet> Require that its post-employment guidance include a 
        ``cooling-off' period when an FAA inspector is hired at an air 
        carrier he or she previously inspected.

  <bullet> Establish an independent organization to investigate safety 
        issues identified by its employees.

    In response, FAA has developed a proposed rule requiring a 
``cooling-off' period for its inspectors. However, FAA still needs to 
address our remaining recommendations to demonstrate its commitment to 
effective oversight. We will continue our efforts to examine FAA's 
oversight of the aviation industry and will keep this Subcommittee 
apprised of our progress as well as other actions FAA should take to 
ensure safety.
Operational Differences Between Regional and Mainline Carriers
    As mainline carriers continue to cut their capacity in response to 
the current economic downturn, regional airlines constitute an 
increasingly important proportion of operations in the U.S. National 
Airspace System. Today, regional flights represent one half of the 
total scheduled flights across the country, and regional airlines 
provide the only scheduled airline service to more than 400 American 
communities. Additionally, regional airlines provide passenger air 
service to communities without sufficient demand to attract mainline 
service. Regional carriers tend to fulfill two roles: (1) delivering 
passengers to the mainline airline's hubs from surrounding communities 
and (2) increasing the frequency of service in mainline markets during 
times of the day or days of the week when demand does not warrant use 
of large aircraft.
    These smaller airlines typically conduct business as a feeder 
airline, contracting with a major airline and operating under their 
brand name in what is essentially a domestic code share arrangement. 
Code sharing is a marketing arrangement in which one air carrier sells 
and issues tickets for the flight of another carrier as if it were 
operating the flight itself. Under both international and domestic code 
share agreements, a passenger buys a ticket from one carrier, but the 
actual travel for all or a portion of the trip could be with another 
carrier's aircraft and crew. For example, Colgan flight 3407 was 
operating as a Continental Connection flight.
    We reported 10 years ago on carriers' growing use of international 
code share agreements as a means to increase profit while expanding 
their network and offering passengers more seamless and efficient 
international travel services.\11\ While such agreements were 
beneficial, we reported that safety was not treated as a major factor 
in the Department's code share approval process, and FAA did not take 
an active role in the approval or oversight of these agreements.
---------------------------------------------------------------------------
    \11\ OIG Report Number AV-1999-138, ``Aviation Safety Under 
International Code Share Agreements,'' September 30, 1999.
---------------------------------------------------------------------------
    Domestic code shares between major and regional carriers follow a 
similar business model, with the focus on a more seamless travel 
experience. However, a significant difference is that FAA certificates 
and oversees both parties to these agreements. Yet, according to 
industry sources, FAA has no role in the contractual agreements. This 
is a potential concern since the safety implications of these 
agreements are unknown. We are examining this issue as part of the 
review you requested, Mr. Chairman.
    Last month's NTSB hearing brought to light the need to closely 
examine the regulations governing pilot training and rest requirements 
and the oversight necessary to ensure their compliance. This is a 
particular concern at regional carriers since the last six fatal Part 
121 accidents involved regional air carriers (see table 1 below), and 
the NTSB has cited pilot performance as a potential contributory factor 
in four of those accidents.

         Table 1. Part 121 Accidents Involving Regional Carriers
------------------------------------------------------------------------
  Accident                          Accident                  Potential
    Date       Regional Carrier       Site      Fatalities     Factors
------------------------------------------------------------------------
  12-Feb-09                    ColBuffalo, NY.          50   Not yet
                          (DBA Continental                    determined
                               Connection)                    . Training
                                                              and pilot
                                                              fatigue
                                                              issues
                                                              have been
                                                              raised.
  27-Aug-06                    ComLexington,DBA         49   Pilot
                         Delta ConnKYtion)                    performanc
                                                              e, non-
                                                              pertinent
                                                              conversati
                                                              on during
                                                              taxi.
  19-Dec-05    Flying Boat Inc.   Miami, FL             20   Deficiencie
                          (DBA Chalks Ocean                   s in the
                       Airways)                               company's
                                                              maintenanc
                                                              e program.
  19-Oct-04                    CorKirksville,ines       13   Pilots'
              (now Regions Air)    MO                         unprofessi
                                                              onal
                                                              behavior
                                                              during the
                                                              flight and
                                                              fatigue.
  14-Oct-04   Pinnacle Airlines   Jefferson              2   Pilots'
                 (DBA Northwest    City, MO                   unprofessi
                       Airlink)                               onal
                  repositioning                               behavior,
                         flight                               deviation
                                                              from
                                                              standard
                                                              operating
                                                              procedures
                                                              , and poor
                                                              airmanship
                                                              .
   8-Jan-03    Air Midwest (DBA   Charlotte,            21   Deficiencie
                   U.S. Airways    NC                         s in
                       Express)                               company's
                                                              oversight
                                                              of
                                                              outsourced
                                                              maintenanc
                                                              e.
------------------------------------------------------------------------
*Doing Business As (DBA)

    In addition to these accidents, there were two, non-fatal accidents 
in 2007 involving regional air carriers. In both of these accidents, 
the NTSB concluded that pilot fatigue was a contributing factor.
    While we have had only a short time to address the joint request 
from the Committee and Subcommittee to examine these issues, we have 
identified operational differences between regional and mainline 
carriers. These include differences in operations and flight experience 
and potential differences in pilot training programs. Our review will 
examine FAA's role in determining whether air carriers have developed 
programs to ensure pilots are adequately trained and have sufficient 
experience to perform their responsibilities.
Differences in Operations, Pilot Fatigue, and Flight Experience
    Regional carriers typically perform short and medium hauls to hub 
airports. This could result in many short flights in one day for a 
pilot with a regional air carrier. While there have been multiple 
studies by agencies such as the National Aeronautics and Space 
Administration that concluded that these types of operations can 
contribute to pilot fatigue, FAA has yet to revise its rules governing 
crew rest requirements.
    FAA last attempted to significantly revise flight duty and rest 
regulations in 1995, but the rule was never finalized and little or no 
action has been taken since then. Yet, pilot fatigue remains high on 
NTSB's list of most wanted safety improvements. As we begin our audits 
in response to the Committee's and Subcommittee's request, we will 
evaluate these operations, their potential effects on pilot fatigue, 
and FAA's oversight of air carrier programs established to meet the 
current flight and duty rest regulations.
    Coupled with potential fatigue issues, another defining factor of 
regional air carriers is that their pilots tend to have less experience 
than pilots with mainline air carriers. Generally, pilots are primarily 
interested in using regional air carrier experience as a stepping stone 
to the more lucrative pay at a major air carrier. We will also address 
the potential impact this issue could have on safety during our pending 
audit.
Potential Differences in Training Programs
    To fly for a regional or mainline air carrier, a pilot must have a 
commercial pilot's license, at a minimum. To obtain a commercial 
pilot's license, a candidate must have at least 250 hours of flight 
time. However, many air carriers require more stringent licensing 
requirements and may require pilots to have an Airline Transport 
Pilot's license, which requires a minimum of 1,500 flight hours.
    Once a pilot has been hired by an air carrier, they are required to 
undergo training provided by the airline that has been approved by FAA 
and meet certain minimum requirements. Every Part 121 certificate 
holder, which includes all scheduled operations with aircraft seating 
10 or more passengers, must establish and implement a training program 
that ensures each crewmember is adequately trained to perform his or 
her assigned duties. FAA regulations only provide general subjects to 
be covered during various training phases and minimum hours for the 
different training phases. The broad language in the regulations leaves 
air carriers significant latitude in formulating their training 
programs.
    Additionally, air carrier training programs must be approved by the 
carrier's FAA inspector. However, the lack of more specific 
requirements in the regulations may hinder FAA inspectors' ability to 
determine whether air carriers' established programs will ensure 
crewmembers are ``adequately'' trained. As we delve deeper into this 
issue in our upcoming audit, we will analyze more closely the degree of 
variance of air carrier training programs.
    FAA regulations also provide different instructional hour 
requirements for different types of aircraft. For example, pilots of 
piston engine aircraft are only required to have 64 hours of initial 
ground training, and those flying turbo-propeller powered aircraft must 
have 80 hours. Jet aircraft pilots must have 120 hours of initial 
ground training, or 50 percent more than turboprops, as shown in table 
2 below.

    Table 2. Air Carrier Training Hour Requirements by Aircraft Type
------------------------------------------------------------------------
        Training Type            Piston Engine    Turboprop    Turbojet
------------------------------------------------------------------------
Initial Ground Training                     64           80         120
------------------------------------------------------------------------
Pilot-In-Command Initial In-                10           15          20
 Flight Training and Practice
------------------------------------------------------------------------
Recurrent Ground Training                   16           20          25
------------------------------------------------------------------------

    Similar differences in instructional hours are found among in-
flight and recurrent training requirements. Other turboprop 
crewmembers, such as flight attendants and dispatchers, are also 
required to receive fewer instructional hours of training than the 
crewmembers of jet aircraft. The differences in instructional hours for 
turboprops are significant distinctions because 23 percent of regional 
aircraft are turboprop aircraft and 24 percent of U.S. airports receive 
scheduled air service only from turboprop aircraft operations. Colgan 
flight 3407 was a turboprop aircraft.
    While we need to complete additional work in this area, we are also 
concerned that the broad language of the requirements could result in 
wide variances between air carrier training programs. We will further 
focus our efforts on these differences and their potential impact on 
safety.
OIG Plans for Addressing New Work on FAA Safety Oversight
    The NTSB's recent hearing regarding the Colgan accident included 
evidence suggesting that pilot training and fatigue may have 
contributed to the crash. We are in preliminary stages of our review 
requested by the Committee and Subcommittee and would like to take this 
opportunity to discuss our overall approach.
    We are executing this engagement in three stages. The first review 
concentrates on several aspects of pilot training. These include 
standards for certification of pilot training; frequency of training on 
new technologies; and FAA's oversight of training (including use of 
simulators) and pilot qualifications. As part of this review, we are 
specifically examining training for regional pilots on the various 
types of aircraft since these carriers operate a wide variety of 
aircraft, including turboprop and regional jets. We are also reviewing 
FAA's January 2009 proposed rulemaking on pilot training and evaluating 
its potential impact on air carrier training programs at both mainline 
and regional carriers. Currently, the comment period on the proposed 
rule has been extended to the end of August 2009.
    Our second review concentrates on regulations covering pilot rest 
requirements and domicile and duty locations. The third review 
comprises a statistical analysis to determine if there is a correlation 
between accidents and pilot experience and compensation. As always, Mr. 
Chairman, we will adjust the focus of our reviews to address any other 
specific concerns that the Committee or Subcommittee may identify.
Conclusion
    The importance of airline safety is critical to the Department and 
the flying public. We will continue to do our part in advancing the 
Department's goal of one level of safety. While all stakeholders are 
committed to getting it right, our work has identified a number of 
significant vulnerabilities that must be addressed. This will require 
actions in areas FAA has already targeted for improvement as well as 
other areas where FAA will need to revisit differences in standards and 
regulations and rethink its approach to safety oversight.
    That concludes my statement, Mr. Chairman, I would be happy to 
address any questions you or other Members of the Subcommittee may 
have.

    Senator Dorgan. Mr. Scovel, thank you very much for your 
testimony and for your work at the Inspector General's office.
    Next, we'll hear from The Honorable Mark Rosenker--I hope I 
have that correct--and he's the Acting Chairman of the National 
Transportation Safety Board.
    Mr. Rosenker, you may proceed.

 STATEMENT OF HON. MARK V. ROSENKER, ACTING CHAIRMAN, NATIONAL 
                  TRANSPORTATION SAFETY BOARD

    Mr. Rosenker. Thank you, Mr. Chairman, Ranking Member 
DeMint, distinguished Members of the Committee.
    I'd like to begin my testimony this afternoon with a short 
summary of the NTSB's investigative actions to date regarding 
the accident involving Colgan Air Flight 3407. I want to 
emphasize that this is still an ongoing investigation and there 
is significant work left for our investigators. My testimony 
today, therefore, will be limited to those facts we have 
identified to date, and I will steer clear of any analysis of 
what we have found so far and avoid any ultimate conclusions 
that might be drawn from that information.
    On February 12, 2009, at about 10:17 p.m. Eastern Standard 
Time, Colgan Air Flight 3407, a Bombardier Dash 8-Q400, crashed 
during an instrument approach to runway 23 at Buffalo-Niagara 
International Airport in Buffalo, New York. The flight was 
operating as a Part 121 scheduled passenger flight from Liberty 
International Airport in Newark, New Jersey. The four crew 
members and 45 passengers were killed, and the aircraft was 
destroyed by impact forces and postcrash fire. One person in a 
house was also killed, and two individuals escaped the house 
with minor injuries.
    On May 12, 2009, the NTSB commenced a 3-day public hearing 
on the accident in which we explored airplane performance, cold 
weather operations, sterile cockpit compliance, flight crew 
training and performance, and fatigue management. I'd like to 
note that all of these issues are pertinent to every airline 
operation, major air carriers as well as regional air carriers. 
Our investigation continues, and we continue to make progress 
every day.
    I'd now like to discuss some of the Board's important 
safety recommendations that we have made over the years. The 
NTSB has issued numerous recommendations to the FAA on stall 
training, stick-pusher training, pilot records, remedial 
training for pilots, sterile cockpit, situational awareness, 
pilot monitoring skills, low airspeed alerting systems, pilot 
professionalism and fatigue, as well as aircraft icing. Two of 
these issue areas, aircraft icing and human fatigue, are on the 
Board's Most Wanted List of Transportation Safety Improvements.
    While there are currently more than 450 open 
recommendations to the FAA, on January 12 of this year, the FAA 
took action on some of those recommendations when they 
published a Notice of Proposed Rulemaking addressing pilot 
training and qualifications. The notice also proposes changes 
to include the requirement of flight training simulators and 
traditional flight crew-member training programs, and adds 
training requirements in safety-critical areas. The NPRM 
address issues raised in numerous safety recommendations that 
we issued to the FAA.
    In 1995, the NTSB issued recommendations to the FAA to 
require an airline to evaluate an applicant pilot's experience, 
skills, and ability before hiring the individual. The following 
year, Congress enacted the Pilot Records Improvement Act, PRIA. 
That came in 1996 and required any company hiring a pilot for 
air transportation to request and receive records from any 
organization that had employed the pilot during the previous 5 
years. However, the PRIA does not require an airline to obtain 
FAA records of failed flight checks. The Board has recognized 
that additional data contained in FAA records, including 
records of flight-check failures and rechecks, would be very 
beneficial for a potential employer to review and evaluate. 
Therefore, in 2005, the NTSB issued another recommendation to 
the FAA to require airlines, when considering an applicant for 
a pilot position, to perform a complete review of the FAA 
airman records, including any notices of disapproval for flight 
checks. In response to the NTSB's recommendation, the FAA 
stated that ``Notices of disapproval for flight checks for 
certificates and ratings are not among the records explicitly 
required by PRIA of 1996,'' and therefore, to mandate that air 
carriers obtain such notices would require rulemaking or a 
change in PRIA itself. To the credit of the FAA, on November 7, 
2007, an advisory circular was issued informing carriers that 
they can ask pilots to sign a consent form giving the carrier 
access to any notices of disapproval. The recommendation is 
currently classified ``open acceptable alternative response.'' 
However, to date, the FAA has not taken any rulemaking action 
or asked Congress to modify the Act.
    Mr. Chairman, this concludes my testimony, and I will be 
glad to answer any questions at the appropriate time.
    [The prepared statement of Mr. Rosenker follows:]

     Prepared Statement of Hon. Mark V. Rosenker, Acting Chairman, 
                  National Transportation Safety Board
    Good afternoon. With your concurrence, Mr. Chairman, I would like 
to begin my testimony with a short summary of the National 
Transportation Safety Board's (NTSB) actions to date regarding the 
investigation of the accident involving Colgan Air flight 3407. I want 
to emphasize that this is still an ongoing investigation and that there 
is significant work left for our investigative staff. My testimony 
today will therefore out of necessity be limited to those facts that we 
have identified to date, and I will steer clear of any analysis of what 
we have found so far and avoid any ultimate conclusions that might be 
drawn from that information.
    On February 12, 2009, about 10:17 p.m. eastern standard time, 
Colgan Air flight 3407, a Bombardier Dash 8-Q400, crashed during an 
instrument approach to runway 23 at Buffalo-Niagara International 
Airport, Buffalo, New York. The crash site was in Clarence Center, New 
York, about 5 nautical miles northeast of the airport, and was mostly 
confined to a single residential house. The flight was operating as a 
Part 121 scheduled passenger flight from Liberty International Airport, 
Newark, New Jersey.
    The four crew members and 45 passengers were killed, and the 
aircraft was destroyed by impact forces and post crash fire. One person 
in the house was also killed and two individuals escaped with minor 
injuries.
    The flight crew reported for duty on the day of the accident at 
1:30 p.m. However, the crew's first two flights of the day were 
canceled because of high winds at the departure airport. The accident 
flight, which had been delayed due to weather, departed Newark at 9:18 
p.m. with a planned arrival time of 10:21 p.m.
    The captain was the pilot flying the aircraft, and the cruise 
altitude was 16,000 feet. During the ascent to 16,000 feet, all de-ice 
systems were selected on and stayed on throughout the flight. About 40 
minutes into the flight, the crew began the descent portion of the 
flight.
    At 9:54 p.m., the captain briefed the airspeed for landing, which 
was to be 118 knots with the flaps set to 15 degrees. At 10:10 p.m., 
the flight crew discussed the build-up of ice on the windshield. At 
10:12 p.m., the flight was cleared to 2,300 feet and at 10:14 p.m., the 
airplane reached the assigned altitude. Over the next 2 minutes, with 
the autopilot engaged, power was reduced to near flight idle and the 
airspeed slowed from about 180 to about 135 knots. At 10:16 p.m., the 
crew lowered the landing gear. About 20 seconds later, the first 
officer moved the flaps from 5 to 10 degrees. Shortly afterward, the 
stick shaker activated, and the autopilot disengaged. The stick shaker 
is a stall warning mechanism that warns of slow airspeed and an 
approaching stall should the pilot take no action to remedy the 
situation. In this case, the stick shaker activated more than 25 knots 
before the stall airspeed.
    The flight data recorder data from the airplane indicate that the 
crew added about 75 percent of available engine power and the captain 
moved the control column aft. This action was accompanied by the 
airplane pitching up, and a roll to the left, followed by a roll to the 
right, during which time the stick pusher activated and the flaps were 
retracted.
    At the time of the accident, the weather at Buffalo was: winds from 
250 degrees at 14 knots, visibility 3 miles in light snow and mist, a 
few clouds at 1,100 feet, ceiling overcast at 2,100 feet, and 
temperature of 1 degree Celsius.
    Examination of the flight data recorder data and performance models 
shows that some ice accumulation was likely present on the airplane 
prior to the initial upset event, but that the airplane continued to 
respond as expected to flight control inputs throughout the accident 
sequence.
    The engines exhibited evidence of power at impact. Flight control 
continuity could not be established due to the extensive impact and 
fire damage to the airplane.
    On May 12, 2009, the NTSB began a 3-day en banc public hearing on 
the accident. The NTSB swore in 20 witnesses to discuss the following 
topics:

  <bullet> Airplane Performance;

  <bullet> Cold Weather Operations;

  <bullet> Sterile Cockpit Compliance;

  <bullet> Flight Crew Training and Performance; and

  <bullet> Fatigue Management.

    I would like to note that these issues are not relevant to regional 
airlines alone. They are pertinent to every airline operation, major 
air carriers as well as regional air carriers.
    The investigation is continuing with aircraft performance and 
simulation work, additional interviews, reviews of policies and 
procedures, and further examination of selected wreckage. We've 
identified numerous safety issues that we will explore in significant 
detail.
    During the hearing, the flight crew's experience and training were 
examined. The captain received his type rating in the Dash 8 in 
November 2008, only a few months before the crash. He had a total 
flight time of 3,379 hours, with 1,030 hours as pilot-in-command and 
110.7 hours in the Dash 8. The first officer received second-in-command 
privileges on the Dash 8 in March 2008. She reported 2,244 hours total 
pilot time with 774 hours in the Dash 8.
    The captain had a history of multiple FAA certificate disapprovals 
involving flight checks conducted before his employment with Colgan. 
The captain did not initially pass flight tests for the Instrument 
flight rating (October, 1991), the Commercial Pilot certificate (May, 
2002), and the multiengine certificate (April, 2004). In each case, 
with additional training, the captain subsequently passed the flight 
tests and was issued the rating or certificate.
    In 1995, the NTSB issued 4 recommendations to the FAA to require an 
airline to evaluate an applicant pilot's experience, skills, and 
abilities before hiring the individual. The FAA's effort in response to 
these recommendations resulted in the Pilot Records Improvement Act 
(PRIA) of 1996 (Public Law 104-264, section 502, which is codified in 
49 United States Code section 44703 (h), (i), and (j)). The PRIA 
required any company hiring a pilot for air transportation request and 
receive records from any organization that had previously employed the 
pilot during the previous 5 years. However, the PRIA does not require 
an airline to obtain FAA records of failed flight checks. Although 
validation of FAA ratings and certifications held by a pilot applicant 
is necessary in evaluating a pilot's background, additional data 
contained in FAA records, including records of flight check failures 
and rechecks, would be beneficial for a potential employer to review 
and evaluate.
    In 2005, the NTSB issued another recommendation to the FAA to 
require airlines, when considering an applicant for a pilot position, 
to perform a complete review of FAA airman records, including any 
notices of disapproval for flightchecks. In response to the NTSB's 
recommendation, the FAA stated that Notices of Disapproval for flight 
checks for certificates and ratings are not among the records 
explicitly required by the Pilot Records Improvement Act (PRIA) of 
1996, and therefore, to mandate that air carriers obtain such notices 
would require rulemaking or a change in the PRIA itself. The FAA 
indicated that such changes are likely to be time consuming and 
controversial. The FAA noted that some air carriers currently require 
applicants for pilot positions to sign a consent form permitting the 
FAA to release these records to the air carrier requesting them as part 
of the applicants' pre-employment screening. When this is done, the FAA 
furnishes these records to the air carrier without violating privacy 
laws. To date, the FAA has not issued any rulemaking to require 
airlines to obtain a release from all flight crew applicants to release 
their records to permit the airline to consider past performance in 
hiring decisions. These changes could also be made by modifying the 
statute, but to our knowledge, the FAA has not asked the Congress to do 
so. On November 7, 2007, the FAA issued Advisory Circular AC120-68D, 
which informs carriers that they can ask pilots to sign a consent form 
giving the carrier access to any Notices of Disapproval. The 
recommendation is currently classified ``Open-Acceptable Alternate 
Response.''
    The investigators also are pursuing why Colgan did not have a 
remedial training program in place as recommended in the FAA's 2006 
Safety Alert for Operators (SAFO) 06015, the purpose of which was to 
promote voluntary implementation of remedial training programs for 
pilots with persistent performance deficiencies.
    Specifically, the SAFO provides guidance to safety directors on the 
development of programs to identify pilots with persistent performance 
deficiencies, those who have experienced multiple failures in training 
and proficiency checks. It was suggested that three objectives be 
accomplished: (1) review the entire performance history of any pilot in 
question; (2) provide additional remedial training as necessary; and 
(3) provide additional oversight by the certificate holder to ensure 
that performance deficiencies are effectively addressed and corrected.
    The investigation is also exploring how commuting may have affected 
the pilots' performance. Both pilots were based in Newark, New Jersey, 
but lived outside of the Newark area. The captain commuted to Newark 
from Tampa, Florida, 3 days before the accident, and spent the night in 
Colgan's operations room the night before the accident. The first 
officer commuted from Seattle, Washington, on a ``red eye'' flight the 
night before the accident. She did not arrive into Newark until 6:30 
a.m. the day of the accident flight, and there is evidence that she 
spent the day in the crew room.
    Of the 137 Colgan pilots based at Newark in April 2009, 93 
identified themselves as commuters. Forty-nine pilots have a commute 
greater than 400 miles, with 29 of these pilots living more than 1,000 
miles away.
    During post-accident interviews, the Newark regional chief pilot 
said no restrictions were placed on pilots regarding commuting, but 
pilots had to meet schedule requirements. Colgan has a commuting policy 
that is outlined in its Flight Crewmember Policy Handbook. The handbook 
states ``a commuting pilot is expected to report for duty in a timely 
manner.'' A previous edition of the handbook stated that flight 
crewmembers should not attempt to commute to their base on the same day 
they are scheduled to work. This statement is not in the current 
handbook edition. Additionally, Colgan's procedures do not allow pilots 
to sleep in the operations room.
    The investigation is examining whether conversations inconsistent 
with the sterile cockpit rule (which prohibits crew members from 
engaging in non-essential conversation below 10,000 feet) impacted the 
pilots' situational awareness of the decreasing airspeed. For example, 
there was a 3-minute discussion on the crew's experience in icing 
conditions and training; this conversation occurred just a few minutes 
before the stick shaker activated and while the crew was executing the 
approach checklist.
    Another issue that the investigation is pursuing is whether fatigue 
may have affected the flight crew's performance. We know that on the 
day of the accident, the captain logged into Colgan's crew scheduling 
computer system at 3 a.m. and 7:30 a.m. And we know that the first 
officer commuted to Newark on an overnight flight and was sending and 
receiving text messages periodically the day of the accident.
    At the time of the accident, Colgan had a fatigue policy in place. 
The fatigue policy was covered in the basic indoctrination ground 
school. Colgan did not provide specific guidance to its pilots on 
fatigue management.
    On April 29, 2009, Colgan issued an operations bulletin on 
crewmember fatigue. The bulletin reiterated the company's fatigue 
policy and provided information to crewmembers on what causes fatigue, 
how to recognize the signs of fatigue, how fatigue affects performance, 
and how to combat fatigue by properly utilizing periods of rest.
    Once again, the issues we are exploring in the Colgan investigation 
are not new issues and are not unique to the regional airlines. The 
NTSB has previously issued recommendations on stall training, stick 
pusher training, pilot certification and recurrent training records, 
remedial training for pilots, sterile cockpit, situational awareness, 
pilot monitoring skills, low airspeed alerting systems, pilot 
professionalism, and fatigue. (See attachments.)
    As you may know, the NTSB maintains a list of Most Wanted 
Transportation Safety Improvements. Issues on this list are selected 
for follow-up and heightened awareness because the Board believes they 
will significantly enhance the safety of the Nation's transportation 
system, have a high level of public visibility and interest, and will 
otherwise benefit from being highlighted on the Most Wanted List. Of 
the six aviation issues currently on the Most Wanted List, two issue 
areas are in some manner related to the Colgan investigation. I would 
like to briefly explain the two issue areas, and recent FAA activities 
in response.

        1. Reduce dangers to aircraft flying in icing conditions.

        2. Reduce accidents and incidents caused by human fatigue.

    Both of these issue areas currently have a red timeliness 
classification indicating that the FAA's response has not been 
acceptable from the NTSB's perspective. In many cases, the FAA's 
response has been slow in coming, allowing important safety issues that 
the NTSB has identified to remain unresolved for a lengthy period of 
time. The FAA has recently indicated that actions are being taken in 
response to some of these recommendations, and the NTSB is currently 
reviewing this information. Some of the details, and recent FAA actions 
for each area are:

  <bullet> Flight in Icing Conditions: These recommendations date back 
        to 1996, and ask that aircraft approved to fly in icing 
        conditions be certified in icing conditions that represent the 
        most serious threats. In the 13 years since these 
        recommendations were issued, the FAA has not yet taken the 
        requested action. Recent staff level discussions with the FAA 
        revealed that they soon plan to propose changes to the 
        certification regulations that include revised icing conditions 
        that are more representative of the icing conditions that pose 
        the greatest aviation safety risk. In 2007, the FAA issued an 
        NPRM calling for activation and continuous operation of de-
        icing boots at the first signs of icing. The NTSB is still 
        awaiting a final rule mandating this needed change.

  <bullet> Human Fatigue: Human fatigue is another issue that has been 
        on the Most Wanted List since it was created 19 years ago. In 
        1995, the FAA issued a notice of proposed rulemaking (NPRM) 
        that addressed many of the issues identified by the NTSB. That 
        NPRM was controversial and encountered considerable opposition. 
        The FAA later withdrew the NPRM and has not proposed any 
        further revisions to existing flight and duty time regulations. 
        The regulations have not been significantly revised in over 50 
        years, although there has been substantial scientific-based 
        research over that time-frame that the NTSB believes supports 
        changes in the existing flight and duty time regulations. 
        Throughout the 19-year period that this issue has been on the 
        Most Wanted List, right up through today, the NTSB has 
        continued to investigate accidents where flight crew fatigue 
        was a significant issue.

    Finally, I would like to address pilot training issues. As you are 
aware, on January 12, 2009, the FAA published an NPRM titled, 
``Qualification, Service, and Use of Crewmembers and Aircraft 
Dispatchers.'' The notice proposes to amend the regulations for flight 
and cabin crewmembers and dispatcher training programs in domestic, 
flag, and supplemental operations. Proposed changes include requiring 
the use of flight simulation training devices (FSTD) in traditional 
flight crewmember training programs and adding training requirements in 
safety-critical areas. In addition, the proposal reorganizes 
qualifications and training requirements in the existing rule by moving 
several sections of advisory information to the regulatory section. The 
NPRM also addresses issues raised in numerous safety recommendations 
issued to the FAA by the NTSB; 13 of these recommendations remain open.
    On May 7, 2009, the NTSB provided comments to the NPRM. While the 
NTSB generally supports the proposed rule changes, we suggested 
additional requirements, including substantive changes that would 
improve or enhance crew and dispatcher procedures, qualifications, and 
training and the replacement of advisory circulars and other 
recommended guidance with regulatory changes mandating compliance.
    At an April 7, 2009, presentation on the NPRM, the NTSB was briefed 
that the FAA principle regarding training is ``Train like you fly, and 
fly like you train.'' The NTSB agrees with this principle and with 
several proposed initiatives that are especially appropriate for flight 
operations in today's environment. For example, the NTSB supports the 
NPRM's proposals for adding a continuous analysis process and FSTDs to 
training programs, requiring special hazards and environment training, 
and establishing qualifications for training centers and other 14 Code 
of Federal Regulations (CFR) Part 119 facilities. The NTSB also 
concurred with the FAA that it is important for flight crewmembers to 
be trained and evaluated in a complete flight crew environment, which 
means that, during training for pilot flying and pilot monitoring 
roles, crewmembers should occupy the seats for--and perform the duties 
of--the position for which they are being trained.
    The NTSB is aware that, in the past, some considered upset recovery 
training to be inappropriate due to limitations in aerodynamic model 
fidelity of simulators; however, unusual attitudes do not equate to 
being outside the angle of attack and sideslip range of the aerodynamic 
model. Many, if not most, upsets occur well within this envelope. 
Therefore, the NTSB supports the ``Airplane Upset Recovery Training 
Aid,'' which is an FAA-industry effort referenced in the NPRM, and 
believes that training could be further improved by feedback to the 
pilot from the simulator. The training aid suggests that, in a scenario 
in which the pilot has maneuvered the simulator to an extremely high 
angle of attack or sideslip, there should be a change in the visual 
display when the aerodynamic envelope is exceeded; specifically, a 
color change would alert pilots that they are at an angle of attack or 
sideslip that should be avoided during recovery efforts.
    The NTSB notes that some aircraft, such as the Saab 340 and the 
Bombardier CRJ, have experienced upsets due to premature stall caused 
by icing that disrupted the airflow over the wing or otherwise altered 
the aerodynamic stall characteristics of the wing or control surface. 
Because icing contamination can cause the critical angle of attack to 
be reduced considerably, these upsets can occur without warning. A 
stall roll-off departure from normal flight is often the flight crew's 
first indication of an upset due to icing contamination; however, the 
NTSB has found that flight crews often do not apply decisive and timely 
recovery controls when this occurs, which results in prolonged upsets 
that increase the probability of ground impact. For aircraft that have 
experienced upsets due to icing contamination, the NTSB suggests that 
upset recovery training should include recognition of these excursions 
from normal flight attitudes and prompt application of proper recovery 
procedures.
    Although the NPRM continues to encourage the traditional training 
approach to stall recovery (recovery from stick shaker), the NTSB is 
concerned that flight crews are not recognizing stalls and are not 
applying aggressive recovery procedures, as indicated by several 
aviation events. Among these events is the October 14, 2004, accident 
in which a Bombardier CL-600-2B19 crashed in Jefferson City, Missouri, 
when the flight crew was unable to recover after both engines flamed 
out as the result of a pilot-induced aerodynamic stall. Another example 
occurred during a December 22, 1996, accident in which a Douglas DC-8-
63 experienced an uncontrolled flight into terrain in Narrows, 
Virginia, after the flying pilot applied inappropriate control inputs 
during a stall recovery attempt and the nonflying pilot failed to 
recognize, address, and correct these inappropriate control inputs. 
Because of examples like these, the NTSB advises that training in stall 
recovery should go beyond approach to stall to include training in 
recovery from a full stall condition. In addition, in cases when flight 
data are available (whether from flight tests or accidents/incidents), 
these data should be used to model stall behavior to facilitate 
training beyond the initial stall warning.
    If the proposed rule becomes final, it would likely meet the intent 
of 5 of the 13 open safety recommendations related to crewmember 
training. The following is a list of the 13 recommendations and an 
explanation of whether or not the NPRM addresses each of them.
A-93-46
    Amend 14 CFR Parts 121, 125, and 129 to require Traffic Alert and 
Collision Avoidance System [TCAS] flight simulator training for flight 
crews during initial and recurrent training. This training should 
familiarize the flight crews with TCAS presentations and require 
maneuvering in response to TCAS visual and aural alerts.
    The NPRM contains requirements for TCAS training, as recommended. 
Therefore, the NPRM is responsive to the recommendation. If the NPRM 
(as currently presented) becomes a final rule, the NTSB would likely 
consider it an acceptable action, and the recommendation could be 
closed. The NTSB notes that this is currently the oldest open aviation 
recommendation.
A-94-107
    Revise 14 CFR Section 121.445 to eliminate subparagraph (c), and 
require that all flight crewmembers meet the requirements for operation 
to or from a special airport, either by operating experience or 
pictorial means.
    The NPRM proposes the following language for 14 CFR 121.1235(c): 
``The Administrator may determine that certain airports (due to items 
such as surrounding terrain, obstructions, or complex approach or 
departure procedures) are special airports requiring special airport 
qualifications and that certain areas or routes require a special type 
of navigation qualification.'' In addition, special routes, areas, and 
airports for special operations are among the subjects in the NPRM's 
list of required training. Therefore, the NPRM is responsive to the 
recommendation. If the NPRM (as currently presented) becomes a final 
rule, the NTSB would likely consider it an acceptable action, and this 
recommendation could be closed.
A-94-199
    Revise the certification standards for Part 25 and for Part 23 
(commuter category) aircraft to require that a flight simulator, 
suitable for flight crew training under Appendix H of Part 121, be 
available concurrent with the certification of any new aircraft type.
    The NPRM proposes a requirement that a flight simulator be 
available for training. The NTSB has previously indicated that such a 
requirement would be an acceptable alternative response to a design 
requirement for an aircraft. Therefore, if the proposed rule becomes 
final, the NTSB would likely consider it an acceptable action, and this 
recommendation could be closed.
A-95-124
    Require, by December 31, 1997, operators that conduct scheduled and 
nonscheduled services under 14 CFR Part 135 in Alaska to provide flight 
crews, during initial and recurrent training programs, aeronautical 
decision-making and judgment training that is tailored to the company's 
flight operations and Alaska's aviation environment, and provide 
similar training for Federal Aviation Administration principal 
operations inspectors [POI] who are assigned to commuter airlines and 
air taxis in Alaska, so as to facilitate the inspectors' approval and 
surveillance of the operators' training programs.
    The FAA has previously indicated to the NTSB that the NPRM would 
include aeronautical decision-making and judgment in the crew resource 
management portion of the proposed training rule. However, this Safety 
Recommendation is specific to Part 135 operations in Alaska, while the 
NPRM addresses Part 121 operations. Therefore, the FAA has not supplied 
a satisfactory response. Thus, the NPRM, as drafted, would not meet the 
intent of this recommendation, and the status would remain ``Open--
Unacceptable Response.''
A-96-95
    Develop a controlled flight into terrain training [CFIT] program 
that includes realistic simulator exercises comparable to the 
successful windshear and rejected takeoff training programs and make 
training in such a program mandatory for all pilots operating under 14 
CFR Part 121.
    The NPRM proposes to require special hazards training, including 
methods for preventing CFIT and approach and landing accidents. 
Therefore, if this requirement is included in the final rule, the NTSB 
would likely consider it an acceptable action, and the recommendation 
could be closed.
A-96-120
    Require 14 CFR Part 121 and 135 operators to provide training to 
flight crews in the recognition of and recovery from unusual attitudes 
and upset maneuvers, including upsets that occur while the aircraft is 
being controlled by automatic flight control systems, and unusual 
attitudes that result from flight control malfunctions and uncommanded 
flight control surface movements.
    The NTSB is pleased that, in response to Safety Recommendation A-
96-120, the NPRM includes training on recognizing and recovering from 
``special hazards,'' which are sudden or unexpected aircraft upsets. 
The NTSB interprets that this proposal would also include a requirement 
that gives FAA POIs the authority to review and require changes to 
training programs that do not adequately address a special hazard. Lack 
of such authority was a concern identified during the NTSB's 
investigation of a November 12, 2001, accident involving American 
Airlines flight 587, an Airbus Industrie A300-605R.\1\ During this 
investigation, the NTSB learned that the POI knew that aspects of 
American Airlines' training program had undesirable effects; however, 
he lacked the authority to force American Airlines to change its 
program.
---------------------------------------------------------------------------
    \1\ For more information, see In-Flight Separation of Vertical 
Stabilizer, American Airlines Flight 587, Airbus Industrie A300-605R, 
N14053, Belle Harbor, New York, November 12, 2001, Aircraft Accident 
Report NTSB/AAR-04/04 (Washington, DC: NTSB, 2004).
---------------------------------------------------------------------------
    In addition, a topic covered in the special hazards training 
section of the NPRM is recovery from loss of control due to airplane 
design, airplane malfunction, human performance, and atmospheric 
conditions. The ``Upset Recognition and Recovery'' section of the NPRM 
lists a number of items that should be covered, including catastrophic 
damage due to rapidly reversing controls and the use of light pedal 
forces and small pedal movements to obtain the maximum rudder 
deflection as speed increases.
    This recommendation is currently classified ``Open--Unacceptable 
Response'' because of the FAA's delayed response. Although the NPRM 
proposes requirements for Part 121 operators, similar action for Part 
135 operators will be needed before Safety Recommendation A-96-120 can 
be closed.
A-98-102
    Require air carriers to adopt the operating procedure contained in 
the manufacturer's airplane flight manual and subsequent approved 
revisions or provide written justification that an equivalent safety 
level results from an alternative procedure.
    The FAA has previously indicated to the NTSB that the NPRM would 
address the issues in this recommendation. However, the NTSB did not 
see any language in the NPRM that specifically addresses Safety 
Recommendation A-98-102, which currently is classified ``Open--
Acceptable Response'' pending a requirement for the recommended action.
A-01-85
    Amend 14 [CFR] 121.417 to require participation in firefighting 
drills that involve actual or simulated fires during crewmember 
recurrent training and to require that those drills include realistic 
scenarios on recognizing potential signs of, locating, and fighting 
hidden fires.
    The NPRM addresses the substantive issues in this recommendation. 
Although the NPRM does not propose to revise 14 CFR 121.417, it 
contains training requirements on the actions to take in the event of 
fire or smoke in the aircraft, including realistic drills with emphasis 
on combating hidden fires. This training includes simulated locations 
of hidden fires, such as behind sidewall panels, in overhead areas and 
panels, or in air conditioning vents. The NPRM also contains 
firefighting training requirements for flight attendants, including 
operation of each type of installed hand fire extinguisher. This 
recommendation is currently classified ``Open--Unacceptable Response'' 
pending a requirement for the recommended action. If the requirements 
proposed in the NPRM are enacted in the final rule, the NTSB would 
likely consider it an acceptable action, and this recommendation could 
be closed.
A-05-30
    Require all 14 [CFR] Part 121 and 135 air carriers to incorporate 
bounced landing recovery techniques in their flight manuals and to 
teach these techniques during initial and recurrent training.
    Although the NPRM contains detailed requirements for training on 
landing, the NTSB did not see anything in the NPRM related to bounced 
landing recovery techniques. This recommendation is currently 
classified ``Open--Acceptable Alternate Response'' pending the results 
of a survey indicating that all operators' training programs include 
the recommendations in a safety alert for operators.
A-07-44
    Require that all 14 [CFR] Part 91K, 121, and 135 operators 
establish procedures requiring all crewmembers on the flight deck to 
positively confirm and cross-check the airplane's location at the 
assigned departure runway before crossing the hold short line for 
takeoff. This required guidance should be consistent with the guidance 
in Advisory Circular 120-74A and Safety Alert for Operators 06013 and 
07003.
    The NPRM contains training requirements related to runway safety. 
Special hazards topics must include how to ensure that takeoff 
clearance is received and that the correct runway is being entered for 
takeoff before crossing the hold-short line. This recommendation is 
currently classified ``Open--Unacceptable Response'' because of 
continuing delays in the issuance of this NPRM. If the NPRM becomes 
final, the proposed requirement is partly responsive to this 
recommendation because it addresses only Part 121 operators. Action 
will still be needed for Part 135 and Part 91 subpart K operators 
before this recommendation can be closed.
A-07-96
    Require air carriers to revise their cabin crew training manuals 
and programs to ensure that the manuals and programs state that a door 
must remain open while the air conditioning (A/C) cart is connected, 
advise that the A/C cart can pressurize the airplane on the ground if 
all doors are closed, and warn about the dangers of opening any door 
while the air conditioning cart is supplying conditioned (cooled or 
heated) air to the cabin.
    The NPRM proposes a requirement for training that will familiarize 
cabin crewmembers with each aircraft on which they will work. Among 
these aircraft familiarization requirements are cabin pressurization 
indicators and systems. However, the NPRM does not fully address the 
recommended action because it only addresses specific actions to take 
when the door remains open while the A/C cart is connected. This 
recommendation is currently classified, and would remain, ``Open--
Acceptable Response'' pending timely and acceptable revisions to Notice 
8400.35 and Order 8900.1.
A-08-16
    Require 14 [CFR] Part 121, 135, and Part 91 subpart K operators to 
include, in their initial, upgrade, transition, and recurrent simulator 
training for turbojet airplanes, (1) decision-making for rejected 
landings below 50 feet along with a rapid reduction in visual cues and 
(2) practice in executing this maneuver.
    The NPRM proposes a requirement to use a simulator for training on 
rejected landing maneuvers, including the initiation of a rejected 
landing between 30 and 50 feet above the runway. Thus, the NPRM 
addresses the second part of this recommendation (``practice in 
executing this maneuver''). In addition, although the NPRM did not 
specifically address decision-making, this topic may be covered during 
training in the maneuver. Safety Recommendation A-08-16 is currently 
classified ``Open--Response Received.'' The NPRM partially responds to 
the recommendation because it addresses only Part 121, and not Part 135 
or Part 91 subpart K, carriers. Action for Part 135 and Part 91 subpart 
K operators will still be needed before this recommendation can be 
closed.
A-08-17
    Require 14 [CFR] Part 121, 135, and Part 91 subpart K operators to 
include, in their initial, upgrade, transition, and recurrent simulator 
training for turbojet airplanes, practice for pilots in accomplishing 
maximum performance landings on contaminated runways.
    The NTSB did not find any language describing how to accomplish 
maximum performance landings on contaminated runways in the NPRM. In 
addition, any proposed requirements associated with this NPRM would 
only apply to Part 121 carriers and not Part 135 or Part 91 subpart K 
operators. This recommendation is currently classified ``Open--Response 
Received.''
    Mr. Chairman, this concludes my testimony, and I will be glad to 
answer questions you may have.
Attachments:
    Recommendation history on:

  <bullet> stall training;

  <bullet> stick pusher training;

  <bullet> pilot training records;

  <bullet> remedial training for pilots;

  <bullet> sterile cockpit;

  <bullet> situational awareness;

  <bullet> pilot monitoring skills;

  <bullet> low airspeed alerting systems;

  <bullet> pilot professionalism;

  <bullet> and fatigue.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



    Senator Dorgan. Mr. Rosenker, thank you very much.
    And finally, we will hear from John O'Brien, who is a Board 
Member of the Flight Safety Foundation.
    Mr. O'Brien, you're--we're pleased you're here. Your entire 
statement will be part of the record, if you will summarize.

 STATEMENT OF JOHN O'BRIEN, MEMBER OF THE EXECUTIVE COMMITTEE, 
                    FLIGHT SAFETY FOUNDATION

    Mr. O'Brien. Thank you, Mr. Chairman.
    Chairman Dorgan, Senator DeMint, and Members of the 
Committee, thank you for the opportunity to appear before you 
today. We commend you, Mr. Chairman and the Committee, for 
focusing on these critical aviation safety topics.
    We've submitted a written statement, but I'll summarize, in 
the interest of time.
    I'm here today representing the Flight Safety Foundation, 
but I also speak to you as a pilot who has served for 22 years 
as a Director of Engineering and Air Safety for ALPA. Although 
I don't speak for ALPA today, I've participated in more than 50 
accident investigations, so these issues are near and dear to 
my heart.
    The Flight Safety Foundation was founded 60 years ago. It's 
a neutral forum where competitors can work together to share 
information, ideas, and best practices for safety. Today we 
represent over 1,000 organizations from 142 nations.
    As the Committee requested, our testimony is focused on 
specific measures that may be appropriate to improve pilot 
training, prevent errors resulting from crew fatigue, and 
address aircraft icing hazards. But, in the interest of time, 
I'd like to highlight for the Committee two topics that need 
particular attention. These topics cut across all of the 
Committee's issues.
    The oldest and most venerable aviation safety tool is 
accident investigation. These investigations identify causes 
that lead to findings and recommendation. Objective 
investigations will always be an essential part of the air 
safety equation, but today they are only part of a more complex 
picture. Today there's a management approach that can do more. 
The technique is a systems approach to aviation safety, a 
safety management system. This system will allow the FAA to 
carry out its inspection and oversight responsibilities in a 
much more effective way and allow the operators to also assure 
that they are complying with the regulatory requirements.
    Aviation safety professionals now have much more work with 
which they can adopt a more proactive safety management 
approach. They can identify risks and prioritize actions by 
collecting and analyzing data from many different sources. 
Studies show that this type of data can give us hundreds of 
warnings before an accident occurs. By protecting this data and 
acting on it early, lives are saved.
    Safety data is an invaluable commodity, but, if 
compromised, the consequences can be catastrophic. We cannot go 
back to the time when the only safety data was purchased at the 
cost of human life.
    In wake of recent judicial decisions over the disclosure of 
voluntary supplied safety information and the use of accident 
investigation reports in civil litigation and criminal 
prosecutions around the world, we believe there is a need for 
legislative protection against the release or use of voluntary 
self-disclosed reporting programs. We are calling for the 
creation of a legislative qualified exception from discovery of 
voluntary self-disclosed reporting programs similar to that 
which is provided in U.S. law against discovery and use of 
cockpit and service vehicle recordings and transcripts.
    The Foundation recommends legislative protection of such 
information against disclosure in any judicial proceedings, 
except that a court may allow limited discovery if it decides 
the requesting party has demonstrated a unique need for the 
information and that the party would not receive a fair trial 
absent the information. In the event any discovery is 
permitted, the Foundation urges that it only be made available 
to a party under protective order and not generally made 
available to the public. We believe this legislative protection 
for the safety data is absolutely necessary and will save 
lives.
    With regard to the issues of pilot training, fatigue, and 
anti-icing programs, including those raised by the Colgan 
crash, we would strongly commend the FAA's call for action this 
week, with one comment. We suggest that the FAA reexamine the 
report described in our submission for the record. This report 
contains discussions and recommendations on aspects of pilot 
training and qualifications beyond airline pilot training and 
qualifications. And the FAA might wish to investigate why the 
fatigue countermeasures and aircraft countermeasures training 
modules described in our written testimony concerning aircraft 
icing and fatigue have not produced the results that were 
intended.
    Thank you very much for allowing us the opportunity to 
testify before you today. I will be happy to take any of your 
questions.
    [The prepared statement of Mr. O'Brien follows:]

Prepared Statement of John O'Brien, Member of the Executive Committee, 
                        Flight Safety Foundation
    Chairman Dorgan, Senator DeMint and Members of the Subcommittee:
    Thank you for the opportunity to appear before this committee to 
discuss these recent important matters of aviation safety. We commend 
the Committee for focusing on these areas.
    I'm here today representing the Flight Safety Foundation, where I 
serve on its Board of Governors and Executive Committee. I also speak 
to you as a pilot who served for 22 years as the Director of Air Safety 
and Engineering for the Air Line Pilots Association--although I do not 
speak for ALPA today--but I've participated in more than 50 accident 
investigations, so these issues are near and dear to my heart.
    The Flight Safety Foundation was founded 60 years ago to address 
the problem of how to solve safety issues. The founding members 
believed that the industry needed a neutral ground where competitors 
could work together to share information, ideas, and best practices for 
safety.
    Today, our membership is over 1,100 and crosses into all segments 
of the aviation industry. We bring unions and management, regulators 
and operators, and rival manufacturers to the table and work together 
to find solutions. The Foundation occupies a unique position among the 
many organizations that strive to improve flight safety standards and 
practices throughout the world. Effectiveness in bridging cultural and 
political differences in the common cause of safety has earned the 
Foundation worldwide respect.
    The air transport industry is a unique global enterprise--a single 
flight can cross the borders of several countries and several 
continents. The Foundation, with members from 142 nations around the 
globe, transcends local, regional, or national political interests. 
This global membership provides a broad range of aviation safety 
expertise, which the Foundation can call upon to address a multitude of 
domestic and international matters of aviation safety.
    As the Committee requested, our testimony is focused on specific 
measures that may be appropriate to improve pilot training, prevent 
errors resulting from crew fatigue, and address aircraft icing hazards. 
But I'd like to highlight for the Committee two areas that need 
particular attention and cut across all of these issues, which is the 
urgent need to adopt effective Safety Management Systems and better 
protect voluntarily supplied aviation safety data.
Aviation Safety Regime
    All pilot training, crew fatigue, and anti-icing programs share the 
goal of improving safety. They all take advantage of the latest science 
and, to the best of their ability, make use of accident data and other 
data or information supplied by operators, manufacturers, and other 
members of the aviation community.
    The benefits they achieve, however, make us realize that increased 
enforcement of outdated oversight standards and processes will not 
produce the results we desire. For example, I'll note in a minute the 
leadership of this Committee in forming a Blue Ribbon panel on pilot 
training, which came up with great recommended changes to pilot 
training methodologies and rules, most of which have not been 
accomplished today. We've seen fatigue studies and the de-icing studies 
that have produced, among other things, training modules for regional 
airlines that, if properly utilized, can produce effective results.
    But there is a management approach that can reach far beyond these 
issues into the entire aviation safety regime. This management approach 
can be jointly employed by FAA and industry. The technique is a systems 
approach to aviation safety, a safety management system (SMS). If 
employed properly, SMS can produce significant safety improvements to 
the entire aviation system.
    The oldest and most venerable aviation safety tool is accident 
investigation. These investigations identify causes that lead to 
findings and recommendations. Objective accident investigations will 
always be an essential part of the safety equation, but today they are 
only part of a more complex picture.
    Aviation safety professionals now have much more to work with. They 
can adopt a more proactive safety management approach. They can 
identify risk and prioritize actions by collecting and analyzing data 
from many different sources. They can use automated systems to collect 
and analyze flight data on a continuous basis. They can use reporting 
systems that allow pilots, mechanics, and others to report problems 
that would normally go unrecognized. Studies show that this type of 
data can give us hundreds of warnings before a crash occurs. By 
protecting this data and acting on it early, lives are saved.
    Under provisions of the International Civil Aviation Organization 
(ICAO) that took effect in November 2006, the Organization's 189 Member 
States are required to ensure that aircraft and aerodrome operators, 
air traffic services providers, and maintenance organizations all 
implement safety management systems. Some States have mandated SMS in 
response to the ICAO recommendation. The FAA has provided guidance for 
those U.S. operators who wish to voluntarily implement SMS.
    This new approach to safety saves lives by focusing attention on 
those items likely to cause the next crash. Accident investigations 
focus attention on what caused the last crash. In a safety management 
approach, information comes from monitoring data that is the product of 
reporting programs built on a foundation of trust and commitment.
    Safety management is now the main driver of aviation safety. It 
functions quietly in the background outside the view of the public and 
the press, but if it were to be compromised, the consequences would be 
unbearable. We cannot go back to a time where the only safety 
information available was purchased at the cost of human life in an 
accident.
    In this country, Flight Operational Quality Assurance (FOQA) and 
Corporate C-FOQA have been implemented by many operators. These 
programs depend on automated systems that produce information that is 
automatically collected and analyzed. To supplement this, we have seen 
the increased usage of voluntary reporting systems such as the Aviation 
Safety Action Program (ASAP). These programs would be an important part 
of any SMS program.
Protecting Safety Data
    The key to success for all of these safety programs is the ability 
to collect good quality data and then analyze and apply it properly. 
The quality of the data gathered is only as good as the assurances for 
the operators and the operator's employees that data will be used to 
improve safety, not to facilitate prosecution or discipline. Therefore, 
whether it might be from the investigator on the scene of a crash or 
collected automatically by FOQA or reported by a member of a flight or 
ground crew, one of the most important keys is to protect the data from 
disclosure.
    In the wake of recent judicial decisions ordering disclosure of 
voluntarily supplied safety information, and the use of accident 
investigation reports in civil litigation and criminal prosecutions, 
the Flight Safety Foundation believes that there is a need for 
legislative protection against the release or use of voluntary self-
disclosure reporting programs.
    The Foundation has called for the creation of a legislative 
``qualified exception'' from discovery of voluntary self-disclosure 
reporting programs, similar to that provided in U.S. law against 
discovery and use of cockpit and surface vehicle recordings and 
transcripts.
    Examples of such voluntary self-disclosure reporting programs 
include the Aviation Safety Action Program (ASAP), Flight Operations 
Quality Assurance (FOQA), and the Aviation Safety Information Analysis 
and Sharing (ASIAS) System, which airlines increasingly have embraced 
as a means to obtain predictive information, instead of relying on 
forensic evidence after a crash.
    The Foundation recommended legislative protection of such 
information against disclosure in any judicial proceeding, except that 
a court may allow limited discovery if it decides the requesting party 
has demonstrated a particularized need for the information, and that 
the party would not receive a fair trial absent the information. In the 
event any discovery is permitted, the Foundation has urged that it only 
be made available to a party under protective order, and not generally 
made available to the public. We believe this legislative protection 
for safety data is absolutely necessary, and will save lives.
Pilot Training
    The Foundation has a long standing record of initiating or 
participating in programs or projects on these issues, from both a 
domestic and global perspective.
    In fact, one of the projects that the Foundation participated in 
had its beginning in hearings held by this Committee in August 1989. 
Senator Wendall Ford, the distinguished Chairman, held hearings on the 
supply and training of civilian and military pilots, at the urging of 
Senator McCain, a subcommittee member, who was concerned over the 
threat posed to the stability of the military pilot inventory caused by 
the growing demand for civilian pilots.
    It became clear at the hearings that the civilian flight training 
institutions would not be able to meet the demand posed by the airlines 
for the quality and quantity of needed pilots. Because it was not 
possible to provide a complete picture of this issue within the scope 
of the hearings, you might recall a ``sense of the Congress'' statement 
in the National Defense Authorization Act of 1989 calling for the 
establishment of a commission to study the national shortage of 
aviators. In early 1991, the Department of Transportation established a 
Blue Ribbon Panel to accomplish the work of the commission recommended 
by this Senate Committee.
    The work of the panel, which had been modified to include ``an 
assessment of availability and quality for pilots and aviation 
maintenance technicians for the twenty-first century'', began in early 
1992 and was completed in August 1993 with the publication of a report 
titled ``Pilots and Aviation Maintenance Technicians for the Twenty-
First Century--An Assessment of Availability and Quality.'' This report 
contains recommendations regarding pilot and technician training. All 
of these recommendations are still pertinent today and could go a long 
way toward addressing the pilot training issues presently confronting 
us. However, only one of those recommendations has been successfully 
implemented. In summary, this report recommended that:

  <bullet> That increased cooperation and an exchange of information 
        between the air transport industry and pilot schools is 
        necessary. Therefore, an aviation industry coalition designed 
        to improve and promote partnerships between industry and 
        training institutions should be established. Action: FAA

  <bullet> Convene a pilot training advisory board consisting of air 
        transportation industry and pilot training school 
        representatives to provide a continuing forum to devise 
        performance-based standards for entry-level air carrier and air 
        taxi pilots. Training organizations could use these standards 
        to prepare pilots for careers in transportation and the 
        industry would benefit from enhanced training. Action: FAA

  <bullet> Develop a detailed plan to establish a civilian pilot 
        training program to be implemented at such time as private 
        sector resources are unable to satisfy the demand for well-
        trained, highly-qualified pilots. Action: DOT

  <bullet> Examine ways in which at pilot training methods can be 
        improved and training costs can be reduced. Action: FAA

  <bullet> Because a baccalaureate degree reflects an excellent 
        preparation for the intellectual demands, knowledge and tasks 
        required of a professional pilot, it should be considered a 
        desirable factor during the screening and selection process for 
        entry-level carrier pilots. Action: Employers and UAA

  <bullet> Provide financial assistance to professional pilot 
        candidates through loans and scholarships. Action: FAA

  <bullet> Initiate legislative efforts to provide pilot training 
        schools with priority notification and receipt of available 
        surplus military and Federal property. Action: DOT

    While none of the above-mentioned recommendations have been 
implemented, I am pleased to note that the U.S. Congress did implement 
recommendation 4: enacting legislation designed to provide relief from 
excessive product liability awards, which allows U.S. manufacturers to 
resume production of training aircraft at a reasonable cost. This has 
made the U.S. more competitive with foreign manufacturers who had been 
the primary source of new general aviation and training aircraft in the 
U.S.
    There is a growing recognition within the U.S. aviation community 
that the FAA regulations covering the Air Transport Pilot rating must 
be reviewed and upgraded where appropriate. FAA should take a fresh 
approach to this issue beginning with a review of the Blue Ribbon 
Panel's recommendations followed by a comparison of U.S. requirements 
to those which exist in Europe for equivalent pilot ratings. Following 
this assessment changes should be made to the U.S. regulations so that 
a pilot trained under the new requirements would be capable of serving 
in an airline cockpit in a safe and efficient manner.
Fatigue
    The Foundation has also participated in many projects associated 
with flight crew fatigue. Many of these activities involved 
participation in studies undertaken by the National Aeronautics and 
Space Administration (NASA). In 1980, in response to a Congressional 
request, NASA, Ames Research Center created a Fatigue/Jet Lag Program 
to examine whether ``there is a safety problem of uncertain magnitude, 
due to transmeridian flying and a potential problem due to fatigue in 
association with various factors found in air transportation 
operations.'' Since 1980, the Program has pursued the following three 
goals: (1) to determine the extent of fatigue, sleep loss, and 
circadian disruption in flight operations; (2) to determine the effects 
of these factors on flight crew performance and (3) to develop and 
evaluate countermeasures to reduce the adverse effects of these factors 
and to maximize flight crew performance and alertness. It has been a 
priority since the Program's inception to return the information 
acquired through its extensive research to the operators--the pilots, 
air carriers, and others. In 1991, the Program underwent a name change, 
becoming the NASA Ames Countermeasures Group, to highlight the 
increased focus on the development of fatigue countermeasures.
    By 2000, this NASA Program produced enough scientific and 
operational data to produce an Education and Training Module on 
strategies for alertness management for members of the regional 
airlines operating community. The overall purpose of this Module was to 
promote aviation safety, performance, and productivity. It was intended 
to meet three specific objects: (1) to explain the current state of 
knowledge about the physiological mechanisms underlying fatigue; (2) to 
demonstrate how this knowledge can be applied to improve flight crew 
sleep, performance and alertness; and (3) to offer strategies for 
alertness management.
    Since NASA published this training and education Module in 2002, it 
has evolved through new scientific information developed by research 
organizations and information from operators and other industry 
organizations such as the Foundation. This Module contains information 
which addresses most of the factors which brought the attention of the 
Committee to the issue of flight crew fatigue.
Icing
    On a regular basis, the Foundation publishes information on the 
hazards associated with winter operations. Icing can be one of the most 
hazardous conditions encountered during winter flight operations. Both 
FAA and NASA have conducted research and produced information on 
aircraft icing and on pilot training for the hazards associated with 
ice on ground and flight operations. The Foundation, along with other 
members of the aviation community, has spent significant time 
participating in these government studies and on efforts to supply this 
information to the operating segment of our industry. Similar to the 
fatigue issue previously discussed, NASA produced a training module 
dealing with the Hazards posed by in-flight icing to turboprop aircraft 
operated by regional airlines. Like the fatigue module, this module 
addresses most of the factors which brought the issue of aircraft icing 
to the attention of the Committee.
    In regard to the issues of flight crew fatigue and aircraft icing 
we have provided the Committee with examples of training products which 
have been developed to assist the regional operators in their efforts 
to combat the safety hazards associated with fatigue and icing. The 
availability of such tools alone does not necessarily prevent 
accidents. It is a combination basic pilot qualifications, properly 
designed and applied training, and the conduct of affective FAA 
oversight which produce the desired results. We believe that the 
application of an SMS program with appropriate data protection 
provisions would produce an environment where training and oversight 
could be carried out in a much more effective manner.
    I'm encouraged when I consider all the progress that the aviation 
industry, in working with the FAA and other safety professionals, has 
made over the past decades. While we have achieved great levels of 
safety, the FAA needs to continue to work with the industry in 
encouraging the latest efforts to improve safety. The FAA needs to lead 
the world in this, not follow.
    Thank you very much for allowing me this opportunity to testify 
before you today. I would be happy to take any questions.

    Senator Dorgan. Mr. O'Brien, thank you very much for your 
testimony.
    Mr. Babbitt, my understanding is that an airplane, a 
commercial airplane--a 737, a DC-9, perhaps an Airbus 320--that 
airplane has a record somewhere, and everything that has gone 
wrong, or all the maintenance, all the work that's been done on 
that airplane, is recorded so that someone can go to that 
record and see everything that exists about that airplane since 
its birth. Is that correct?
    Mr. Babbitt. Yes, sir, that is correct.
    Senator Dorgan. Is the same true of the pilot, the person 
in the cockpit of that airplane? Is it possible to find all the 
information that you might want to find about the human factor 
in that plane, whether a pilot passed or failed the multi-
engine rating, commercial license, instrument rating?
    So--the reason I ask that question is, a pilot that has 
been described here had, I believe, five failures in various 
exams, and I believe the carrier did not know that. So, if you 
can learn everything there is to know about an airplane, why do 
we not, at this point, have a central repository of everything 
there is to know about a pilot's records?
    Mr. Babbitt. Yes, sir, that does shine a little light on an 
area that we really have to look at.
    Currently, the records exist. I think the issue that 
surrounds the concern is they exist in two different places. 
Any check ride, any testing that was done, written or 
otherwise, with the FAA is recorded by the FAA. However, when a 
pilot goes to work for an airline, if he's receiving routine 
training, whether it's upgrade, transition, recurrent training, 
proficiency checks, line checks, those records are not reported 
to the FAA, but instead they're maintained by the carrier. And 
I think it was alluded to here by some of the other witnesses 
that perhaps we'd better take another look at how we join or 
provide access, so that everyone can determine that 
information.
    Senator Dorgan. But, they are not easily available, and I 
think someone said the pilot would have to sign a waiver 
request to allow the employing company to get them, in which 
case perhaps the employing company simply goes back the 5 years 
and gets what records exist. And it seems to me that we need to 
fix that, and fix that soon, because there's no reason to know 
everything that you can know about the airplane, but not the 
pilot that's flying the airplane.
    I'd like to ask a question about commuting, if I might, and 
the issue of fatigue.
    I want to put up a chart that I understand--I think it's an 
NTSB chart--that shows--this happens to be Colgan Air pilots, 
probably not too different from most carriers. I'll ask you 
about that, Mr. Babbitt. This is Colgan Air pilots commuting to 
the Newark base to begin work. You see that they live in one 
part of the country and commute to their duty station in Newark 
and then get on an airplane to fly. And the issue of fatigue 
has been cited by some as a potential significant issue here. 
Perhaps, in that cockpit, both the pilot and the co-pilot were 
affected by fatigue issues.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Is--would this chart look different if we were talking 
about another commuter or a trunk carrier? Is this unusual, Mr. 
Babbitt?
    Mr. Babbitt. No, sir. One of the issues that should be 
interesting to note for the record, is that Colgan was a 
relatively new service provider. The capacity sale of their 
seats and service to Continental Airlines, is the reason its 
pilots are commuting to Newark. This same carrier could sign an 
agreement 6 months from now and pilots could be commuting to 
Memphis. And so, the pilots often don't move immediately.
    Underlying that, there are regulations. The regulations in 
force require the lookback, as far as their airline duty is 
concerned. There is no reference--the pilot has an obligation, 
a professional obligation to show up rested, just like everyone 
else going to work.
    Senator Dorgan. Yes. I'm a lot less interested in what 
regulations are in force versus how regulations are enforced. 
And so, I would ask this question. Mr. O'Brien, is it your 
sense that we have one level of safety, as between commuters 
and trunk carriers, these days?
    Mr. O'Brien. There certainly is a goal of one level----
    Senator Dorgan. I understand the goal.
    Mr. O'Brien.--of safety that everybody is aware of. The 
ability to obtain this goal is still being sought after very 
diligently. However, there is work to be done in this area.
    Senator Dorgan. Mr. Scovel, your impression?
    Mr. Scovel. Mr. Chairman, I do not believe we do. One level 
of safety has become code within the aviation industry and 
among stakeholders to describe the move of regional air 
carriers from Part 135 regulations to Part 121, in 1995. You 
mentioned, earlier, that when an American buys a ticket and 
boards an aircraft in this country, and understands that that 
aircraft is subject to FAA regulation, he or she could 
reasonably think that the level of safety would be the same, no 
matter what aircraft or what carrier. Yet, that is not entirely 
true.
    Senator Dorgan. If that's the case, Mr. Rosenker--it is, I 
assume, a fact that the major carriers in this country have an 
enormous stake in the records of commuters, because they paint 
their airplanes with their colors and their name, and consumers 
often aren't able to make a distinction, or don't make a 
distinction, of whether they're on the commuter or the main 
carrier. What--do you think that what has happened is that we 
have migrated to two standards? And, if so, is that not 
contrary to the interests of the major carriers?
    Mr. Rosenker. I don't believe, Mr. Chairman, we have 
migrated. What I do believe is, as the witnesses have 
indicated, we are looking to achieve one level of safety, and 
that is a high level of safety. In fairness, about 50 percent, 
perhaps a little more, of the flights that are made, are done 
by these commuter carriers. We want to make aviation a safe 
industry; and overall, as you indicated in your introduction, 
we enjoy a very safe aviation record in the United States. The 
objective is to raise that even higher, not only with the 
regional carriers, but with the major carriers, as well.
    We just recently investigated two major air carrier 
accidents, one in December and one in January, where we lost 
the entire hull of both aircraft. Thank goodness no one was 
seriously hurt, everyone got off. We are assisting our 
counterparts in France, right now, where the outcome was not as 
successful.
    Senator Dorgan. My time is about up, but I want to say that 
I have read all that I can read about this particular accident 
in Buffalo, and I know that we put a magnifying glass on this 
and looked at every part of it, but I was stunned, frankly, 
learning what I learned. And I wondered, is this a complete 
anomaly? Is it just happenstance that, in this cockpit, at 
below 10,000 feet in significant icing conditions, there was 
discussion about careers and career choices and things that 
deal with--I think one of you mentioned, professionalism? 
Clearly, that was not what the requirements would be at that 
point. And the amount of time in the equipment, the 
compensation paid to the pilot, the fatigue of, potentially, 
both the--what appears to be an inappropriate response to 
controls that gave them appropriate warning--I mean, a whole 
series of things. And you look at that, and you think, this is 
a stunning set of failures. Is it just something that is 
byzantine and unusual to that cockpit? Or, is this a harbinger 
of something that is much broader and that we ought to be very 
concerned about?
    And that's why--Mr. Babbitt, you assumed the reins of an 
agency that's very, very important, and you've flown these 
airplanes. I mean, you have had a career as a pilot. And we're 
going to rely on you, in future hearings, to help steer us to 
the right conclusions, here. And we appreciate very much the 
work of the NTSB, and we're going to have a lot of information 
from the Inspector General to be very helpful to us as we 
proceed.
    So, let me thank all of the witnesses.
    Let me call on Senator Lautenberg.
    Senator Lautenberg. Thanks, Mr. Chairman.
    As we listen to the testimony and review the matters that 
got us to this point of concern and investigation, and we see 
that the captain of the Colgan flight had several test 
failures, I ask, Mr. Babbitt, how many strikes put you out? 
Should there be a measure there that says, ``Look, if we have 
to squeeze you through the test, what are you going to do when 
the pressure's on?'' I think that there ought to be some finite 
limit that says, ``Look, if you can't get through it in a 
couple of turns, you're not fit for this kind of post.'' What 
do you think?
    Mr. Babbitt. Senator, the--that's a--it's an excellent 
question. Let me address it. If you'd indulge me for a second; 
there are a couple of things to look at, here. Number one, the 
regulations require--and the carrier standards require--
training to a level of proficiency. And people are human, they 
have a bad day. And you could have a situation where a pilot 
takes--a good pilot takes an excellent check right. I've had 
situations in my own career, taking a check ride in parallel 
with someone, and watched someone that I knew was a good pilot, 
who didn't feel well, had no business taking the check--failed 
it. Is that, you know, grounds to terminate their career?
    Senator Lautenberg. Well, would NASA say, if you want to go 
up in a Shuttle, that they'll give you a bunch of turns to--
times to pass the test?
    Mr. Babbitt. Well, but----
    Senator Lautenberg. I hope not.
    Mr. Babbitt.--following on to that, we would take that 
pilot, the particular element that they failed, and we'd train 
them to proficiency.
    I think there's another human aspect that we have to look 
at. If we had a system of strikes--whatever the number may be--
one strike, two strikes, three strikes and you're out--the 
check pilots, would, in effect, be vested with management hire-
fire decision authority. We will have someone who's giving 
another pilot a check ride, just a training check pilot, and 
now somebody else's career will be in their hands. If they fail 
this pilot, that's the end of the pilot's career. My concern 
would be that you might have the wrong reaction, that someone, 
instead of saying, ``Look, you've busted this portion. Go back, 
get trained, come back when you get this right,'' as opposed 
to, ``You know what? I'm not going to end his career. I'm going 
to''----
    Senator Lautenberg. Well, Mr. Babbitt, I have great respect 
for you and the others at the table, but I would say this to 
you. I'd rather end his career than have my wife and my 
children on that airplane, I can tell you that.
    Mr. Babbitt. Yes, sir.
    Senator Lautenberg. So, I think--you know, these are things 
that we saw with the brilliance of Captain Sellinger, who----
    Mr. Babbitt. Sullenberger, yes.
    Senator Lautenberg.--took that airplane down--past my 
apartment building, by the way, on the way to the river. I 
wasn't home then. I'm--but, you know, it's--how do we know that 
the react time--that the training is sufficient, as the Captain 
did on the United flight, saved over 150 lives. And the thing--
I think that picture of them standing on that wing will go down 
in history as----
    Mr. Babbitt. Yes, sir.
    Senator Lautenberg.--an icon of what safety----
    Mr. Babbitt. Yes, sir.
    Senator Lautenberg.--is about.
    Mr. Babbitt. Well, I wanted to add one other point. And 
your point is a good one, and I appreciate that. But, there are 
mechanisms. And this is one of the reasons we're bringing 
everybody together. We have carriers today that have good 
practices, where they have training review boards. And, we at 
the FAA, look at two things. Is a particular pilot showing and/
or exhibiting an excessive failure rate? Maybe the training 
program itself----
    Senator Lautenberg. Like a mechanic----
    Mr. Babbitt. Maybe you wouldn't want to see----
    Senator Lautenberg.--I'd rather a chance.
    Mr. Babbitt. Well, we wouldn't. But, what you have today 
are training review boards at some of the carriers, and I think 
what you're going to see is more movement towards this model. 
Maybe, if one particular pilot is failing over and over again, 
that's not acceptable, and I think we do need to deal with 
that.
    Senator Lautenberg. Yes. The--is there any concern about 
the population in the towers? You know, Newark, for instance, 
required 36 fully-trained controllers in the tower. We have 26 
or 27. Seven of them are controllers in training. As we all 
know, we have a fantastic aviation system. We have lots of 
brilliant people doing things, but we don't have enough. And if 
you were to go into the operating room short a radiologist, you 
wouldn't say that's good for the patient. And so, are we 
concerned enough, Mr. Administrator, that we have enough people 
to take care of the needs presently and the prospective 
retirements that are right in front of us?
    Mr. Babbitt. Appreciating that I'm relatively new on the 
job, I certainly have been looking into this. I will say that 
everyone starts a job somewhere as a rookie. And the way that's 
handled, whether it's in the cockpit, every pilot makes a first 
flight, and he goes with a trained captain with him. Every 
controller is going to pick up a microphone for the first time 
and control traffic; and standing next to him is going to be a 
fully-trained qualified controller, watching him and mentoring 
him as he learns. But, everybody has to start in the training 
program. So, yes, sir, there may be some times and some 
conditions where there is a training controller, but the 
provisions are there that there is always a fully-trained 
controller with him, or, in the case of the cockpit----
    Senator Lautenberg. Yes, I don't want to put too much 
pressure on your learning curve in this short period of time, 
but that's a question I'll be asking you repeatedly until we 
get the answer I want.
    Mr. Babbitt. Hopefully, I'll be able to say, ``Yes, sir, 
they're all trained now.''
    Senator Lautenberg. The--a recent report suggests that FAA 
ignored warnings in 2008 from one of its safety inspectors over 
the same type of airplane that crashed in Buffalo earlier this 
year, and that--it's also said that this inspector may have 
been retaliated against for raising these concerns.
    Now, once gain, I know you're new there, but you're an 
experienced person with aviation. What might we do to prevent--
what would you recommend that we do to prevent intimidation of 
whistleblowers and blocking their points of views?
    Mr. Babbitt. Interestingly, I was, you might recall, a 
member of the IRT, which was a special committee appointed by 
former Secretary Peters, and we looked into some of these 
cases. That Board, by the way, included a former Chairman of 
the NTSB as well as a number of safety experts on that panel. 
And we looked into this particular allegation. At the time, it 
was simply an allegation about conduct and the retaliation. I 
was, reasonably convinced, as a member of the Committee, that 
the FAA took appropriate action. I wasn't with the FAA then. We 
were critiquing the FAA. It was pursued by the IG, and it 
seemed to us, at the time, that it was handled in accordance 
with what we should do.
    Having said that, I will tell you that I want to make sure 
that those procedures set forward in that report, are followed 
and that we do actively pursue and make certain that no one is 
subject to retaliation or is ever inhibited from raising a 
safety question with fear of reprisal.
    Senator Lautenberg. Thanks, Mr. Chairman. Thank you.
    Senator Dorgan. Senator Lautenberg, thank you very much.
    Senator Isakson?

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Thank you very much, Mr. Chairman.
    Mr. Babbitt, we have tremendous confidence in you. I was 
very impressed with our meeting before your confirmation, and I 
appreciate your taking on this responsibility. And you 
certainly have the record and the training to be a quality 
administrator of the FAA.
    Mr. Babbitt. Thank you, sir.
    Senator Isakson. My understanding is that FAA requires that 
all pilots have adequate rest before they fly. Is that correct?
    Mr. Babbitt. Yes, sir.
    Senator Isakson. And they're the ones that certify to that. 
Is that correct?
    Mr. Babbitt. Yes, sure.
    Senator Isakson. In the case of the flight that crashed, 
I--as I understand it, the pilot had commuted, that day, from 
Tampa, and had slept in a pilot lounge, and there was no record 
of an accommodation, and that the co-pilot had flown from 
Seattle to Memphis to bump to Newark before they flew as a--not 
a--she didn't fly as a pilot, but flew as a passenger--before 
they flew on the flight that ended up crashing in Buffalo. I 
think that the Chairman asked a very--she has a graph there 
that showed the number of commuters commuting into Newark to 
then fly out. And from what I understand, it being with 
Hartsfield in Atlanta, how many pilots commute to Atlanta and 
then take their flights, should there be some requirements on 
the time in the air, whether you're flying as a passenger to 
get to the flight that you're going to fly as a pilot or a co-
pilot?
    Mr. Babbitt. I would make the observation that, when we 
pull this industry group together, we might want to look at 
that. I will tell you, from my own personal experience, I had 
over 20 years of line flying, and I commuted, myself, for 5 of 
those years. But, I took it upon myself to go up the night 
before and get a good night's rest. Now, I was flying for a 
major airline and economic circumstances might be different, 
but, the professionalism should not be any different, and 
that's another reason why we're pulling people in. There seems 
to be some gap. This type of thing doesn't go on at the major 
carriers. And I think we're--the semantics here--we talk about 
one level of safety. There is, in fact, one standard of safety, 
and that's the Federal regulations. However, we're seeing at 
some levels, people far surpassing that with either their own 
inspired professionalism or their carrier. In the case of some 
of the carriers, they have remarkably good training programs. 
And that's what we're going to try to do, is glean from that 
and ask ``Are there better practices out there? Is there a 
better way?''
    Because currently all the regulations do is ensure that the 
pilot is rested when he's on duty. We have defined ``duty,'' 
and we have defined ``required rest.'' When someone comes back 
from vacation, we don't know how much rest they got the day 
before they came in, but, that's true in every profession. So, 
we've depended upon--and perhaps unfortunately the 
professionalism of the pilot to show up rested and ready for 
work, and prepared to exercise the privileges of his airman's 
certificate, or hers, that he's obligated to do that. And we 
need to make sure they take that seriously.
    Senator Isakson. Your answer on what you imposed on 
yourself was very responsible, and I would venture to say it 
was probably partially ingrained in you in the corporate 
culture that you flew for in the corporation that you were in. 
Is that correct?
    Mr. Babbitt. Yes, sir.
    Senator Isakson. I don't want to make any indictment, but 
it--if you have two pilots in a plane that crashed, both of 
whom commuted within the same 24 hours to get to the flight 
that they then flew, it might not be, as the Chairman said, an 
anomaly, but it could be a part of the corporate culture, that, 
where there was a little less restrictive approach on the part 
of the corporation than might be true at another airline. Would 
that be a fair statement to make?
    Mr. Babbitt. Well, the professionalism certainly wasn't 
being pushed from the top down. And one of the things that 
we're going to have to look at--and when we talked, I mentioned 
this--is mentoring, you know, from the major carriers. I happen 
to know one carrier who if they don't already have, is about to 
have, a requirement that everyone who provides capacity 
purchase service to them--meaning they're bringing their 
passengers, they have their logo on the tail of that carrier--
has a FOQA program. They're also going to require them to have 
an ASAP program.
    We're going to suggest they go a step further. We're going 
to suggest that they need their seasoned safety folks mentor 
some of the younger pilots. Let's face it, when an airline 
expands very rapidly, it's not inconceivable that you have a 
pilot with 2 years sitting in the left seat and a pilot with 6 
months, in the right seat. How much mentoring is going on in 
that environment? But, you know, I think we have an obligation, 
at the FAA and as a transportation system, to make sure that 
they are getting that professionalism instilled in them.
    Senator Isakson. Mr. Rosenker, I understand one of the top 
six recommendations of NTSB is a requirement that all turboprop 
aircraft be flown--hand-flown during icing conditions. Is that 
correct?
    Mr. Rosenker. It is something we've recommended, yes, sir.
    Senator Isakson. And, Mr. Babbitt, as I understand it, the 
FAA has no requirement with regard to the use of the autopilot 
or hand-flying in a turboprop during icing conditions.
    Mr. Babbitt. There may well be, but given my newness, I'm 
not aware of any requirement.
    Senator Isakson. I think, in the transcript from the 
cockpit, as the Chairman was referring to, there was a direct 
comment by the first officer that, although she had--well, she 
didn't--she had 2,600 hours flying, but had never flown in 
icing conditions. I believe that's correct.
    Mr. Babbitt. My understanding of reading some of that 
transcript was that she was describing that she had flown in 
icing conditions before. She was describing how that earlier 
experience concerned her. She was actually looking to get more 
experience, appreciated building some time, and suggested that, 
even if she could be promoted to captain, she wanted more time 
in the Northeast before she would accept that.
    Senator Isakson. My time's running out, but when NTSB makes 
a recommendation, which they've made regarding icing conditions 
and turboprops, what does FAA do? Do you have a response 
procedure that you go through, or do you just--you take it or 
leave it, depending on what you think?
    Mr. Babbitt. My understanding of the process today is that 
we certainly evaluate every single one. And I don't think, 
honestly, that there's an expectation on behalf of the NTSB 
that we should adopt every single one they make. I've actually 
had, you know, some discussions with former chairmen to that 
effect.
    In my opinion, one of the three things should happen to an 
NTSB recommendation to the FAA. Number one, we should either 
adopt it as they have suggested it. Number two, modify it, you 
know, because of some reason, reasonableness or otherwise, and 
explain why. Or, third, if we don't adopt it, I think we have 
an obligation to explain to the NTSB and to the public why we 
didn't adopt it, what was the rationale that we didn't adopt 
it.
    Senator Isakson. I think that's exactly the right answer, 
and I appreciate your candor.
    Thank you, Mr. Chairman.
    Senator Dorgan. Senator Isakson, thank you.
    I'm going to call on Senator Begich, but I just want to 
make two points relative to your questions. One, I went back 
and read the de-icing issues--or, the icing issues, this 
morning in the transcript, and the co-pilot--this is a quote 
from the transcript, ``I've never seen icing conditions. I've 
never de-iced. I've never seen any--I've never experienced any 
of that. I don't want to have to experience that and make those 
calls. You know, I freaked out. I'd like to--I'd have, like, 
seen this much ice and thought, `Oh, my gosh, we're going to 
crash.' '' Yet, when you read the several descriptions from the 
person in the cockpit about this, I think it does imply, at 
least, this person had minimum icing experience.
    The other point I wanted to make, that Senator Isakson 
asked you about, Mr. Babbitt, is, when you traveled and 
commuted and got a full night's rest, my guess is that someone 
making $20,000 or $22,000 traveling all the across the country 
is not going to be paying rent on a hotel room or a crash pad 
to find a place to stay, because they probably can't afford it. 
And so, I just wanted to--you know, that's a very important 
issue that Senator Isakson was raising.
    I apologize to my colleagues.
    Senator Lautenberg. Let me suggest that the question is--I 
think it's a good question--the guy's got to work, perhaps, 
another job. You know, what's he thinking about?
    Senator Dorgan. Senator Begich?

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Mr. Chairman.
    And I apologize to the panel, I'm going to have to leave 
after my questions. But, for me, this is not only an important 
discussion, my father perished in a plane crash, so I'm very 
familiar with the issues and the impact it can have on a 
family. So, I appreciate you all here today.
    I have--you know, from Alaska's perspective, you know, it 
is, you know, the small plane capital of the world. I mean, 
small planes are like vehicles; that's how we get around. And 
so, as we think of safety issues, we have to keep that in 
perspective, and especially in rural areas, in how we deal with 
that. So, I am very aware of what could be an impact.
    But, I want to follow up on a couple of questions. And it 
was intriguing to me, as I was listening to the 
recommendations--and, Mr. Babbitt, we've had some good 
conversations in regards to the FAA and your new role, and 
you've kind of come in with a firehouse coming at you--but, I 
want to make sure I understood what you said. And then, I saw 
your body language, so I'm going to try to connect the two, 
here.
    I can't imagine you would make recommendations that are not 
necessarily recommendations you're looking to have implemented, 
so I'm--I want to make sure I heard you right. And that is, if 
the NTSB is making a recommendation, my assumption is, you want 
to see elements--or, those implemented. Yes or no?
    Mr. Rosenker. That is correct, sir.
    Senator Begich. Because, Mr. Babbitt, what I heard you say 
was, not all of them are they looking to have implemented. I 
just heard--and I don't think you meant that, but I want to 
make sure I'm clear, because as soon as you said that, I saw--I 
don't want to say ``recoil,'' but----
    [Laughter.]
    Senator Begich.--I saw movement. And so, can you just 
clarify that and make sure we're on the same page, here? 
Because, otherwise, they shouldn't make the recommendations, if 
they're not going to be implemented.
    Mr. Babbitt. No, that's a valid clarification that you 
seek.
    I spent time, as I mentioned, for 4 months, with this IRT. 
And on that IRT was the former Chairman of the NTSB, Carl Vogt. 
And in our discussions, we talked about this, that there are a 
number of recommendations. And they're excellent. I mean, the 
NTSB does a great job, and it's a great arm to help us enhance 
safety. But, we heard a statistic that the FAA adapts somewhere 
in the range of 82, 85, some percentage--not all--and that's 
where, you know, the honorable former Chairman Vogt said, you 
know, ``We have an obligation to report everything.''
    Senator Begich. And that's where I wanted to make sure we 
were clear. That other 18, 15 percent is--the question is, What 
happened?
    Mr. Babbitt. Yes, sir.
    Senator Begich. And for--not only for NTSB to know, but for 
the public to know, why you didn't implement those----
    Mr. Babbitt. Precisely.
    Senator Begich.--and is it--you know, what are the reasons, 
and then where do you go from there?
    Mr. Babbitt. That----
    Senator Begich. That's what----
    Mr. Babbitt. And that's--that was the point I tried to say. 
Perhaps I didn't make it clear.
    Senator Begich. Well, I saw a recoil occur, so I wanted to 
make----
    Mr. Babbitt. Yes.
    Senator Begich.--sure we're all clear, here. But, I want to 
make sure that your policy that you're going to implement--not 
look at, but you're going to implement--is that percentage that 
is not taken into--as a full recommendation, you're going to 
respond, in some way that the NTSB can see that and the public 
can see why.
    Mr. Babbitt. Yes, sir.
    Senator Begich. OK.
    Mr. Babbitt. That's----
    Senator Begich. And that will then, obviously, draw some 
other potential pathway.
    Mr. Babbitt. Right.
    Senator Begich. Maybe or maybe not. It depends on what 
happens.
    Mr. Babbitt. Yes, sir.
    Senator Begich. Good.
    I want to--you know, I'm struggling--and the Chairman just 
said it again, about the salary levels. I just--I struggle with 
this, because I know, in our State, we passed--and I don't want 
the regionals to start to call me after I make this comment, so 
regionals who are represented in the audience, please don't 
call me----
    Voice. That won't----
    Senator Begich. Well, I know it won't work, but----
    [Laughter.]
    Senator Begich. You know, we had bus driver--school bus 
driver incidences, quite a few, and we made a requirement of a 
certain pay level, a minimum pay level, in order to ensure we 
have the quality and that they're not taking second jobs or 
third jobs or whatever might be, and it has had a very positive 
impact. Is that a discussion--by anyone who wants to comment on 
this, and I'll start, maybe, with you, Mr. Babbitt--of 
discussion? Because this $16,000--and just assume it's a full 
year pay--is just barely above minimum wage.
    Mr. Babbitt. Yes, sir. I think the carrier did correct that 
minimum. It was about $23,000, if I recall.
    Senator Begich. OK, so it's just now--instead of $7.69 an 
hour, it's about $8.10, maybe--$8.10 an hour.
    Voice. Great.
    Mr. Babbitt. It might surprise you that there are major 
carriers who start pilots at that number. There are a----
    Senator Begich. That does surprise me, to be very frank 
with you.
    Mr. Babbitt. Now, there are some that start considerably 
higher than that.
    Senator Begich. Sure.
    Mr. Babbitt. There are some major carriers flying large 
airplanes under Part 121 that start that low. I think Captain 
Sullenberger mentioned it in testimony, before. It is a 
concern. I know that during the era that I was hired in (and I 
am very badly dating myself into the 1960s) probably half of 
the people that were hired, you know, when I was hired as a 
pilot, not only came out of the military, half of them came out 
of military academies. So, we had a wonderful pool.
    Senator Begich. Right.
    Mr. Babbitt. Of course, the service, at that time, was 
training--you know, we had 50,000 pilots flying in Vietnam, so 
we had a lot of veterans, we had a lot of very seasoned people. 
They came with discipline, and they were well trained, they 
were well educated. They had other options. So, if you wanted a 
pilot like that, you were going to pay, because they had other 
options; they could go be an engineer, they could go into 
another profession.
    Senator Begich. Sure. But, it's an area of interest.
    Mr. Babbitt. Yes, sir.
    Senator Begich. OK.
    Anyone else want to comment on it? Does that sound--does 
anyone disagree with that, that that's an area that has to be 
looked at?
    Mr. Scovel?
    Mr. Scovel. Senator, I will note that the Committee has 
asked my office to examine pilot pay.
    Senator Begich. Excellent.
    Mr. Scovel. It is an important factor, as several members 
of the Committee have pointed out, as an influencer on the 
question of fatigue and also perhaps as a proxy for the 
question of experience and how that will relate to performance 
in the cockpit.
    Senator Begich. OK.
    Mr. Rosenker. I----
    Senator Begich. Let me----
    Mr. Rosenker. I'm sorry.
    Senator Begich. Go ahead.
    Mr. Rosenker. As we continue our investigation of the 
Colgan accident, facts will continue to be analyzed, and we 
could end up with some form of recommendation dealing with 
fatigue that could also have relevance to low pay scales.
    Senator Begich. Compensation issues, OK.
    Mr. Rosenker. Yes, sir.
    Mr. O'Brien. Senator, if I may?
    Senator Begich. Sure.
    Mr. O'Brien. If you refer back to our statement we 
submitted for the record, there is reference in there to a 
blue-ribbon panel report. This report was stimulated by 
hearings held by this Committee back in 1990. That report 
covers pre-employment requirements for airlines, it covers 
salary ranges for pilots, it covers what kind of basic training 
should be provided by the civilian flight schools, because, at 
that time, the primary reason for the report was the 
Committee's interest in why there was such a drain on military 
pilots.
    So, I think if we would look at that report again, we'll 
find that the 13 recommendations made by that particular panel 
speak directly to the issues that we're talking about today.
    Senator Begich. Very good.
    Mr. O'Brien. That was back in 1990.
    Senator Begich. Thank you very much. And this--I'll end on 
this; my time has expired, but I hope this is just a yes-or-no, 
and that is--for each one of you--I'll start--Mr. Babbitt, I'll 
start with you--do you believe you have the necessary resources 
within the organizations you work in to do the job with regards 
to safety?
    Mr. Babbitt. Yes, sir, I do. And having said that, we 
depend heavily on input from a number of the people here. We 
certainly respect what the IG has to say. We certainly respect 
what the NTSB has to say. And with those tools, together, yes, 
sir.
    Senator Begich. Mr. Scovel?
    Mr. Scovel. Generally, I would agree, certainly. The 
programs that FAA has in place, properly implemented, would 
allow it to exercise proper safety oversight.
    Senator Begich. OK.
    Mr. Scovel. It's always a question of----
    Senator Begich. But, there's a little----
    Mr. Scovel.--execution and----
    Senator Begich.--room there.
    Mr. Scovel.--implementation versus the plan, itself.
    Mr. Rosenker. Sir, the FAA is doing as good a job as it can 
possibly do. I believe these are well-intentioned people. These 
people care about safety as much as any of us here do. But, 
they have a lot to do. They have the objective and the mission 
of making sure that our aviation system is as safe as it 
possibly can be. And with that, it will take oversight, it will 
take new 21st-century equipment, and that comes with money. I'm 
not here to lobby on behalf of my colleague, because I could 
use a little money for my organization, at the same time.
    [Laughter.]
    Senator Begich. So, the answer is simply ``a little bit 
helps.''
    Mr. Rosenker. A lot would help----
    Senator Begich. A lot helps----
    Mr. Rosenker.--these people----
    Senator Begich.--OK.
    Mr. Rosenker.--yes, sir.
    Senator Begich. And--last question--Mr. O'Brien, anything 
on your----
    Mr. O'Brien. In spite of what Administrator Babbitt may 
have indicated, I believe the FAA could do much more with a 
little bit more help.
    Senator Begich. Excellent.
    I thank you very much. Thank you for your testimony. And 
again, from a personal perspective, thank you for everything 
you do to ensure our air safety is at the highest level 
possible. There is always room for improvement. That's what 
we're here to do.
    Thank you.
    Senator Dorgan. Senator Boxer?

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you so much, Mr. Chairman, for this 
important hearing. And thank you all, and good luck to you, 
Administrator Babbitt.
    I've had problems with the FAA and safety for so many 
years, I can't even tell you, and it had nothing to do with if 
it was a Republican President or a Democratic President. I just 
felt that the NTSB, which is one of my hero agencies in 
government all my life, one of the agencies that just tells the 
truth, and they don't--they just come right out and say it--
that they have been ignored and ignored and ignored, and it 
really gets to me, and it's upsetting. And I hope we'll have a 
change with this Administration. And if we don't have a change, 
you'll be hearing from me. I mean, I want you to succeed, but I 
think you need to be honest about what you need. And if you--
you know, I would ask, Mr. Rosenker, how many years have you 
been on the NTSB?
    Mr. Rosenker. Six years, ma'am.
    Senator Boxer. Six. So, you have a good background on it. 
It seems to me, over the years, there have been dozens and 
dozens and dozens of recommendations that have been ignored--am 
I correct?--by the FAA, regardless of who is President.
    Mr. Rosenker. Four hundred and fifty are outstanding today, 
many of which are more than 10 to 15 years old.
    Senator Boxer. Well, it's an outrage. Four hundred--and, 
you know, my friend Mark, who suffered such a loss, and his 
family, you know, he needs to hear this--450 recommendations of 
the NTSB have been ignored by the FAA over the years. That, to 
me, is an indictment of the FAA. It's not about anybody 
personally; it's the institution, it's the way they think. And 
it's very disturbing to me.
    Now, I want to pick up on a very disturbing transcript, and 
I'm going to quote from the Buffalo News. And I thank Senator 
Dorgan for his intense interest in this. Senator Snowe and I 
have--had written a letter to The Honorable Ray LaHood about 
this Buffalo accident. And as we read this, it just got to us. 
And I wanted to share this article, in part:
    ``Captain Marvin Renslow began the last hour of his life by 
engaging the autopilot on the Continental connection Flight 
3407.''
    He said, ``Autopilot's engaged.''
    ``All right,'' replied his co-pilot, Rebecca Shaw.
    ``'It's probably a good thing,' Renslow replied.''
    ``Those words show both pilots highlighting their lack of 
experience. Renslow complained about the plane he was flying. 
Shaw said she'd never flown on an icy night.''
    ``In addition, the transcript shows Renslow and Shaw 
panicking once the plane lost control. While engaging in the 
idle banter in the last minutes of the flight, Renslow and Shaw 
stopped checking the plane's instruments and failed to 
recognized--failed to realize that the plane was flying so 
slowly that it could stall.''
    ``But Flight 3407's troubles apparently began far 
earlier.''
    Renslow might have been joking when he said, ``It's 
probably a good thing that the plane was on autopilot.''
    ``But, in reality, it wasn't a joke. The Safety Board 
recommends the pilots turn off the autopilot and fly manually 
when icing could be an issue.''
    ``A minute later, Renslow noted he was hired by Colgan Air, 
which operated the flight, with just 625 hours of flying 
experience.'' Quote, ``That's not much for, uh, back when you 
get [sic] hired,' Shaw said. A moment later, Shaw complained of 
her own inexperience.''
    ``The crew then lowered the plane's flaps and landing gear. 
The plane quickly encountered trouble. The plane's stick 
shaker, a stall-warning device, activated at 10:16 p.m. for 
nearly 7 seconds. A horn then sounds to signal the autopilot 
was disconnecting.''
    ``At that board [sic], Renslow inappropriately pulled back 
on the plane's yoke, pushing its nose upward. The--that altered 
the airflow over the wings and sent the plane tumbling.''
    And then a quote from Mr. Rosenker, Acting Chairman, told 
reporters that ``Renslow and Shaw violated regulations banning 
extraneous conversation once a plane descends below 10,000 
feet. Clearly, there were violations of the sterile cockpit 
rules which ban such conversations,'' he said. ``Critical 
phases of flight need clear and direct focus. Without that, 
there is a risk of mistakes.''
    This is chilling--chilling to everyone. And if you have had 
a loved one on that plane, it's beyond chilling; it's 
unforgivable, it seems to me.
    So, I want to get to a letter that Senator Snowe and I sent 
to Secretary LaHood. And we said some tough things, Mr. 
Babbitt, and I want you to tell me if you think that we were 
too tough. I'm serious.
    ``We are troubled by reports suggesting the FAA would talk 
to carriers about duty time.'' That's a direct quote, ``talk to 
carriers about duty time.'' This refers to this flight and 
pilot fatigue. ``The FAA,'' we say, ``must become a proactive 
agency, and merely talking doesn't fulfill their primary 
mission to ensure the safety of the flying public. We cannot 
afford to act after it is discovered that inspectors are overly 
friendly with the airlines they oversee, and we cannot continue 
to wait until another tragedy occurs before we implement 
improvements in training requirements, much less simply 
enforcing existing regulations.''
    So, I mean, that's a tough charge. We are suggesting that 
there's too much coziness between the FAA and the airlines that 
they regulate. Could you respond to that?
    Mr. Babbitt. Yes, Senator Boxer. As I mentioned--I'm not 
sure if you were in here--I was part of the internal review 
team that was set up by the Department of Transportation under 
Secretary Peters, and we looked into this very charge. There 
were questions about relationships, in both the American 
Airlines case and the Southwest case. We certainly have 
reported a number of things in that report, in findings, and as 
I stated in this hearing, we'll follow up on that.
    Senator Boxer. But, I'm not asking you specifically about 
this, really. It is in the context of the crash, but it's in 
the institutional relationships, here. It's in the culture. And 
we need to hear that that culture must change.
    Mr. Babbitt. And I'm----
    Senator Boxer. So, talk to me about how----
    Mr. Babbitt. Sure.
    Senator Boxer.--you feel about this, because you are--
you've been around--my God, you went into these aircraft, and 
you had the passengers' safety on your back----
    Mr. Babbitt. Sure.
    Senator Boxer.--for all those years. If anybody can change 
the culture over there, it's you. But, can you tell me, are you 
doing anything to change the culture?
    Mr. Babbitt. We're certainly trying. I've only been there--
I can count----
    Senator Boxer. I know.
    Mr. Babbitt.--my tenure on my watch----
    Senator Boxer. I know.
    Mr. Babbitt.--at this point.
    [Laughter.]
    Senator Boxer. I know.
    Mr. Babbitt. But, yes, I want----
    Senator Boxer. But, I'm asking for a commitment that you 
will look into this charge, that we made, Olympia and I, and 
get back to us, on what you're finding. And be honest, like the 
NTSB is honest. Don't cover up anything, because, I'll tell 
you, you've got too much responsibility on your hands, and I--
we want to help you; that's the purpose of this. This isn't an 
inquisition, here; it's--we want to--we don't want to be back 
here on another day about another crash.
    Thank you.
    Senator Dorgan. Thank you.
    Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you so much, Chairman Dorgan, for 
chairing this, and to our witnesses, many of whom--Mr. Rosenker 
and I worked extensively together on the 35W bridge collapse. 
And, Mr. Scovel, thank you.
    The--I was, ironically, working, at the beginning of this 
hearing, having to get a speech done in honor of Paul 
Wellstone. He and his wife are, posthumously, getting a big 
award from a mental health association, and I had crossed off 
the part about their tragic plane accident, because I thought 
it sounded too negative for this award ceremony. As I sat here, 
then, listening, I flipped over to what we were doing here, 
thinking about--that their plane went down. It was a private 
plane, but, because of icing conditions, as well as pilot 
issues, that were not that dissimilar to this, with training 
and things like that. So, it hit home to me.
    My colleagues have done a great job of asking some good 
questions in the areas of fatigue and icing and other things, 
so I thought I would just follow up with some of these ideas 
I'm trying to get at with the clear problem and training issues 
with these pilots. And one of the things that I thought about a 
lot was that the regional carriers--and Senator Dorgan and I 
both are in States that--where we have a lot of regional 
airlines and flights going--that they typically fly short-haul 
flights to hub airports. And this means that regional pilots, 
unlike their counterparts at the large carriers, are more 
likely to fly many short flights. Is that right, Administrator 
Babbitt?
    Mr. Babbitt. Yes, it is.
    Senator Klobuchar. And are the--so they're--instead of 
doing one long flight, they're doing a bunch of short flights, 
sometimes. And I would think that that could mean that they are 
more prone to fatigue or stress, that it's more difficult. Is 
that----
    Mr. Babbitt. That's correct. One of the things that we're 
looking into--it has been a challenge of mine; I stated it in 
my confirmation hearing--is flight time and duty time. There 
are different types of duty during a 12- or 14-hour period. 
There's the nonstop flight to Narita from Detroit, and there's 
the 12-stop flight never leaving the State of Michigan. And 
those are dramatically different environments. We have science, 
we have knowledge----
    Senator Klobuchar. And so, you're looking at potentially 
changing the regulations on rest requirements to reflect these 
different flying experiences?
    Mr. Babbitt. Yes.
    Senator Klobuchar. Would that be a fair thing? Is that 
something you've recommended before?
    Mr. Rosenker. Senator, we have recommended that, and we 
also want to close a loophole which enables a pilot to continue 
to fly his 8 hours, for example, which is the legal amount 
during the day, and then continue on in a Part 91 or a 
``ferry'' status, where there are no passengers on the aircraft 
and they move it to a maintenance site, which could be another 
hour or two or three away.
    Senator Klobuchar. OK.
    Mr. Rosenker. We believe that needs to be changed.
    Senator Klobuchar. All right. Then, the second thing I was 
thinking about, from just common sense, is that the pilots for 
the regional carriers are flying these shorter distances, and 
they're flying at lower altitudes. And can that lead to worse 
weather? At least that's how I feel when I'm in a plane; it 
seems harder when you're down close. Is that right?
    Mr. Babbitt. Certainly, you're exposed to more convective 
weather, although I would note, almost humorously, that every 
airplane I ever flew was going to be the one that would clear 
all the weather, and I've never gotten in one yet that would.
    [Laughter.]
    Senator Klobuchar. So--but, just that you'd have an 
argument that, because they're on these shorter flights and 
they might have--be more--you know, have--deal with this worse 
weather, I'm just thinking it, again, goes to the training 
requirements, that they may have to deal more often with more 
difficult situations if they're doing multiple flights that are 
at lower altitudes.
    Mr. Babbitt. That's absolutely true. And I think there's 
another thing we have to take into consideration--and that's 
where, you know, the science comes in. But, again, during a 
very tight instrument approach--an approach down to 200-foot 
minimums or something like that--there's a lot of focus in the 
cockpit. And if you're going to do that six or eight times in a 
duty period, in an 8-hour flying period, that's considerably 
more fatiguing than just making two or three flights and flying 
3-hour legs. We need to address, with science, what is the 
right way to do this. And it has been an open question, in my 
opinion, for way too long. I've made it a challenge and a 
commitment, and we will follow up on it.
    Senator Klobuchar. OK. The other thing I was reading up 
is--and with the second--the co-pilot, which was an issue in 
the private plane that flew Paul Wellstone--it was the 
inexperience of the second pilot. And in this case, on this 
regional airline, the first officer told the pilot, ``I've 
never seen icing conditions. I've never de-iced. I've never 
experienced any of that.'' And what we've heard that some 
industry experts say is that co-pilots or first officers 
basically can be an apprentice position in--on regional 
flights, and that the pilots only view these positions as 
short-time assignments, a stepping stone for a job with a major 
carrier. I mean, if this is looked on as regional--with 
regional airlines with that number-two position as something of 
a farm system for them to get to the major leagues, does that 
present some training challenges, as well?
    Mr. Babbitt. Well, I think it raises a good question for us 
to take a look at, and that's the difference in training, 
qualitative versus quantitative. You know, there have been 
suggestions that maybe we should require more hours. My 
suggestion would be we should perhaps look at the quality of 
the training that people are getting. To have 1,500 hours, you 
know, flying as the SIAC, 20-hour legs at a time, that's not a 
lot of experience with takeoffs and landings. Someone else with 
high-quality training and much less time could, in fact, be a 
better-trained pilot. And that's one of the things we're going 
to try and glean from bringing this industry together to look 
at training. Do we make a distinction, should we make a 
distinction, between the quality of the training that people 
are exposed to versus an arbitrary measure of an amount of 
flying time? And I think that's a very legitimate question.
    Senator Klobuchar. Does anyone want to add anything on the 
training issue?
    Mr.----
    Mr. Rosenker: I think Administrator Babbitt is right on 
target. It's not always about high numbers of hours. We have 
investigated, unfortunately, a number of accidents where we 
have seen 15,000-hour pilots make mistakes. The question again 
is, is it quality, is it a performance-standard base, and are 
we getting the best people we possibly can into this career so 
that they can do their jobs safely and efficiently?
    Senator Klobuchar. OK.
    Mr. O'Brien?
    Mr. O'Brien. I just want to again refer the Committee to 
that blue-ribbon panel report. The interesting thing about that 
report is, it was stimulated by this Committee, it does address 
all of these issues we're talking about. The panel was staffed 
by experts from the fields of training and operations. And so, 
all of these issues have been addressed. Specific 
recommendations were made that apply to the NTSB, the DOT, the 
FAA, industry in general, and to Congress.
    Senator Klobuchar. All right. Very good.
    Mr. Scovel?
    Mr. Scovel. Senator, I will note, again, that the Committee 
has asked my office to investigate these matters. Training will 
be the first phase of our ongoing review.
    Senator Klobuchar. I really appreciate that. And I will 
also, I know, at another time, Administrator Babbitt--Senator 
Snowe and I have a bill focusing on some of the inspections and 
the relationship with the FAA that we hope to be included in 
the reauthorization. And we can talk about that and the 
cooling-off periods at another time.
    Thank you.
    Mr. Scovel. Thank you.
    Senator Dorgan. Senator Klobuchar, thank you very much.
    Senator Thune?

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman.
    And thank you, gentlemen, for appearing before us today. 
And I just have--I want to follow up with Mr. Rosenker, if I 
can.
    In your testimony regarding the background of the pilot of 
the Colgan Air flight number 3407, you noted that, and I quote, 
``The captain had a history of multiple FAA certificate 
disapprovals involving flight checks conducted before his 
employment with Colgan. The captain did not initially pass the 
flight test for the instrument flight rating in October 1991, 
the commercial pilot certificate, May 2002, and the multi-
engine certificate in April 2004. In each case, with additional 
training, the captain subsequently passed the flight test and 
was issued the rating or certificate.''
    Now, I'd--recognizing that, you know, not every pilot's 
going to pass various flight tests on the first attempt, my 
question is, What is the general pass-fail percentage when it 
comes to instrument flight ratings, commercial pilot 
certificates, and multi-engine certificates?
    Mr. Rosenker. I can't give you the specific numbers. 
Perhaps the Administrator would have a better idea of that. 
Before I turn it over to the Administrator if that's OK with 
you, Senator--one of the issues we're particularly concerned 
about is that the carriers themselves should have the ability, 
when they are comparing new hires and candidates, to say, 
``Here is somebody who seems to demonstrate less than adequate 
proficiency over a period of time, and here is another 
candidate that seems to be demonstrating much better 
proficiency. That's the individual I want to have in my 
airline.''
    As I indicated earlier in my testimony, we believe that 
some changes in PRIA could do much to improve that situation.
    [The information referred to follows:]

    According to the Federal Aviation Administration's Airman Registry, 
the pass rate for Airmen Knowledge Tests for an Instrument Rating-
Airplane in 2008 was 88.73 percent. In 2008, FAA examiners approved 
79.9 percent of original commercial airmen certificates (8,309 total); 
FAA inspectors approved 89.7 percent (122 total). In 2008, FAA 
examiners approved 90.5 percent of the additional commercial airmen 
certificates (8,852 total); FAA inspectors approved 94.0 percent (237 
total).

    Mr. Rosenker. Administrator Babbitt?
    Senator Thune. Mr. Babbitt?
    Mr. Babbitt. Thank you. Yes, sir. The--as a rule of thumb, 
you know, the inspector, the principal operation inspector, 
would be reviewing the training that's ongoing in an airline. 
And if he began to see a failure rate, for written tests and so 
forth, in the 80-percent--you know, if it got worse than 80-
percent success, he would be talking to that carrier about 
revisions to their training process. So, you know, that's just 
a kind of a rule of thumb.
    These are written tests. That means, you know, if they're 
getting 75s, they're passing, but something's wrong, here. 
They're not getting the training; we need to reevaluate the 
training at that particular carrier, and they need to 
reevaluate their training curriculum.
    Senator Thune. But, do you have, and what is that--the--do 
you have a percentage--pass-fail percentage on each of those 
various tests?
    Mr. Babbitt. No, the carriers--each POI--I would tell you 
from experience, it's much higher than that. The pass 
percentage is much higher than that.
    Senator Thune. Gotcha.
    Mr. Babbitt. But, that would set off an alarm. An inspector 
would say, ``This is not acceptable.'' If the majority of your 
pilots are reflecting this in their testing, then your 
instruction technique is lacking, and let's reevaluate it. 
You're not getting it to them. It's not being presented to them 
properly--you know, there's something wrong.'' The format or 
the training techniques could be wrong, and it would be 
reevaluated.
    Again, I can tell you that, in reality, if you go out or if 
the Inspector General did an audit, I think he'd find--and I 
think he will find--that those training numbers are 
considerably higher. They take this very seriously.
    And I think it's worth noting, too, there's probably no 
profession out there that gets tested more than airline pilots. 
A typical captain, assuming he's just stable in one airplane, 
is going to take two physicals a year. He's also going to take 
multiple check rides; he's going to take one that tests his 
proficiency, he's going to take another to test--that's 
actually a check ride; and then he's going to have a third 
random line check, where someone will just show up and ride 
with him, unannounced. So, this is a lot of testing that goes 
on. The first officer has one physical and one check and an 
occasional line check. So, they're certainly being well 
scrutinized, and they're scrutinized by their peers with 
professional standards and other feedback mechanisms.
    Senator Thune. Go ahead. Mr. Scovel?
    Mr. Scovel. Senator, if I may, just for a moment. Mr. 
Babbitt has referred to his service on the independent review 
team under then-Secretary Peters. One of the findings of the 
team was that there was an unambiguous commitment to the core 
mission of safety on the part of FAA safety staff. And that has 
been my experience, as well, since the time I've been IG and 
observed FAA in action.
    A follow-on observation of the independent review team, 
however, was that there was, quote, ``a remarkable degree of 
variation in regulatory ideologies among field office staff, 
which could result in wide variances and possible errors in 
regulatory decisionmaking.'' In fact, there is no FAA standard 
referring to training failures that you described.
    Mr. Babbitt, of course, is correct when he says that FAA 
inspectors have a wide degree of latitude; they are expected to 
exercise significant judgment and discretion. So, we will find, 
from office to office, inspector to inspector, carrier to 
carrier, significant variations. The next phase of my office's 
review will explore those facts in more detail.
    Senator Thune. Is it--my understanding is, though, that--
and you talked about--Mr. Rosenker, about possible amendments 
to PRIA--that PRIA does not require an airline to retain FAA 
records of failed flight checks, and that the FAA does allow 
airlines the ability to have pilots sign a privacy waiver so 
that this information can be shared with prospective employers, 
but that the FAA has said such a process would be time-
consuming and controversial. And so, I'm curious to know--it 
seems, to me at least, that that info being shared from a 
carrier to another prospective employer would be a very 
practical consideration and something that I wouldn't think 
would be overly time-consuming and controversial.
    Mr. Babbitt. No, I wouldn't disagree with you at all. The 
Pilot Records Improvement Act allows, and, in fact, requires, 
that the hiring carrier do the lookback. I think what this 
instance and these cases are shining a pretty bright line on is 
that there is a gap. To my knowledge--and I will, you know, 
stand corrected and provide you the correction if I'm wrong--
but I believe we have an advisory circular that suggests that 
carriers should ask for the pilot's FAA records. Now, the 
carrier does, because of Privacy Act restrictions, have to ask 
for waiver. If I were hiring pilots and I asked you to give me 
a waiver so that I could look at your FAA certificate actions 
of the past, such as your training, and you denied it, I think 
it would raise my eyebrows.
    Senator Thune. Go ahead.
    Well, it seems to me, Mr. Chairman, that that--maybe one 
part of any proposals to reform that statute, that it makes 
sense. So, thank you.
    I thank you all very much for your----
    Senator Dorgan. Senator Thune, thank you very much. Yes, we 
did talk about that a bit earlier. I think we have to propose 
some legislation that fixes that.
    But, let me ask Mr. Babbitt if--if, in fact, the 
recommendation had been made--now, you weren't there, but--the 
NTSB had made the recommendation to the FAA--what, 2 years ago?
    Mr. Rosenker. The recommendation was actually made a number 
of years ago.
    Senator Dorgan. All right.
    Mr. Rosenker. But, an advisory circular came out, to their 
credit, which suggested that this can be done by having the 
waiver signed. We would like to see it----
    Senator Dorgan. No, that's--no, we understand that you can 
get a signature on a waiver form, but you had recommended, I 
believe, that the FAA do a rulemaking and proceed to allow an 
easy access to the complete records of the pilot, just as they 
have easy access to the complete records of the airplane.
    Mr. Rosenker. Yes, sir.
    Senator Dorgan. Now, I guess, Mr. Babbitt, I would ask the 
question, Based on your knowledge of the culture of the FAA, 
why, a couple of years after that recommendation was made, 
would the FAA not have initiated a rulemaking?
    Mr. Babbitt. To be honest with you, I can't answer that. I 
don't know why they didn't. I'll certainly look into it, and 
I'll certainly get the information back to you.
    [The information referred to follows:]

    In 2005, the National Transportation Safety Board recommended that 
the Federal Aviation Administration require all Part 121 and 135 air 
carriers to obtain any notices of disapproval for flight checks for 
certificates and ratings for all pilot applicants and evaluate this 
information before making a hiring decision. Because these records 
contain information protected under the Privacy Act, FAA could not 
require airlines to request these records. Instead, FAA advised 
airlines to ask a pilot job applicant to sign a consent form permitting 
the FAA to release records of Notices of Disapproval to the air carrier 
requesting them, as part of their pre-employment screening. The FAA 
issued Advisory Circular 120-68, which explained that, consistent with 
the Privacy Act, the FAA could release records of Notices of 
Disapproval to prospective employers who provided letters of consent.

    Senator Dorgan. I mean, of all the issues here, the one 
that just is just filled with common sense is, you ought to 
know the same about the pilot that you know about the plane, 
the entire--the record from the day the guy--the person started 
flying. And yet, we don't. And it is not as if we don't know 
that doesn't exist. The NTSB has said it doesn't. And we should 
make it accessible to the airlines.
    And the captain, as you know, had failed--or, had flight 
crew disapprovals of the private-pilot instruments--excuse me--
the private instrument check ride, I assume it is, perhaps; 
commercial pilot initial; the commercial multi-engine ATP Saab 
340; and, as a first office, the flight instruction initial. 
So, those must be the five failures. But, the point is, that 
commuter airline that hired this captain did not know this 
information. They have indicated to us they did not--they were 
not aware of this.
    The other question is--Mr. Rosenker, you've stressed 
several times today that the investigation is not complete. I 
understand that. But, I, having read a lot of what the NTSB has 
done and learned, it's pretty impressive to me. What is there 
that you yet have to learn? I mean, at this stage of the 
investigation, it appears to me that you're well down the road. 
So, what remains that you expect to learn?
    Mr. Rosenker. Senator, it was only the day before yesterday 
that we were actually able to get into a simulator where we 
could fly those same parameters, those same patterns, those 
same actions to understand more about the human performance 
factor and the aircraft performance factor. And there's 
analysis that's going on at this moment. We literally sent a 
crew to that simulator to enable us to understand more of what 
happened in that cockpit. So, there is a good deal of analysis 
which still must be done if we're going to cross every ``t'' 
and dot every ``i,'' and that's what we do in our 
investigations.
    Senator Dorgan. Why are you only able to get in a simulator 
in June?
    Mr. Rosenker. We just finished a public hearing on this. We 
go through a process which, in fact, takes us to various stages 
of an investigation.
    Senator Dorgan. I see.
    Mr. Rosenker. So, in this particular accident, early June 
is when we could put everything that we had learned from our 
public hearing into what we needed to do and test in the 
simulator.
    Senator Dorgan. Mr. Scovel--well, thank you--Mr. Scovel, 
you mentioned something, I think, that is likely not related to 
this particular issue, but it may well be related, it certainly 
is, perhaps, related, to safety, and that is the issue of 
outsourcing of maintenance. Tell me again your testimony about 
that and your judgment about it. And you--the reason I ask the 
question is, you suggested that the evidence is that there is a 
greater outsourcing of maintenance among commuters than the 
major carriers, although the--what I have understood about 
major carriers is that an increasing amount of their 
maintenance is now outsourced.
    Mr. Scovel. You are correct, Mr. Chairman. Major carriers 
are outsourcing an increasing amount of all of their 
maintenance; whereas, formerly they did it in-house. Now they 
are looking to have it done by contract maintenance providers. 
Among regional carriers, our research shows that up to 50 
percent of maintenance needed by regional carriers is now being 
outsourced.
    My office examined outsourced maintenance in 2003, 2005, 
and 2008. A key finding of ours is that the new risk-based 
safety oversight system for repair stations, initiated by FAA 
in 2005, is currently ineffective, in our judgment, due 
primarily to the fact that FAA has not yet got a handle on 
exactly what type of and how much is being outsourced 
maintenance, and where it is conducted when outsourced. Until 
FAA gathers that data and is able to feed it into this risk-
based system, it will not be able to assign its inspector 
resources where they are most needed.
    Senator Dorgan. Mr. Scovel, I--in a book I wrote, I 
described maintenance by one large carrier in this--one of the 
carriers, I should say, in this country, in which they would 
fly an empty 320 Airbus from the U.S. to El Salvador to do the 
maintenance, then fly an empty 320 back after it did the 
maintenance. Can you tell me what the equivalent standards are, 
or if the standards are equivalent, in terms of the FAA's 
ability to inspect a maintenance station in El Salvador, for 
example, versus outsourcing or contracting maintenance in 
Detroit or Chicago?
    Mr. Scovel. There are a number of factors that go into 
FAA's inspection of repair stations, wherever they are located, 
sir, whether in the United States or overseas. If it is a 
certificated repair station, FAA has much wider latitude with 
which to go in and inspect. If it is a non-certificated 
facility, companies may still use it, and FAA may still inspect 
it, but this will not be done by inspectors dedicated to the 
inspection of that facility. Rather, it will be by inspectors 
who are following airlines' use of that facility, and they will 
follow the aircraft into the repair facility in order to do 
their inspections, as well. It results in a more tenuous 
inspection trail, if you will, sir.
    The conclusion of my office over the years has been, 
really, that the key point is not where the outsourced 
maintenance is conducted, whether it's in the United States or 
overseas, or whether it is done by a certificated or non-
certificated facility, but the quality of FAA's oversight over 
the process.
    Senator Dorgan. I'm, perhaps, going to ask you more about 
that at some other occasion. I know that you've done some work 
on it. And so, I'll be interested in evaluating that.
    Let me talk just for a moment with all of you again about 
this issue of fatigue, because I think fatigue likely played 
some role, here, in a crash that is prominently mentioned 
during this hearing. And let me put up, again, the chart that 
shows--we can just put it on an easel, perhaps. And I want to 
especially ask Mr. Babbitt about that, because you say you 
commuted for 5 years.
    The one with the description of the commuting. The map. Is 
there one with a map? All right, thank you.
    That shows--and I--again, this perhaps would show the same 
kind of thing for virtually any commuter airline that we would 
talk about, and perhaps the same map for any major trunk 
carrier. Would most of you agree with that?
    [No audible response.]
    Senator Dorgan. And I think the question that remains in 
the minds of many, as you--evidenced by the questions today 
from members of the Committee is, Does this matter? Does it 
make a difference? And if--if several pilots are in Seattle or 
Portland or Los Angeles or wherever, and fly to the East Coast 
to start their duty station and start their work, is fatigue 
something that we should be concerned about?
    And, Mr. Babbitt, you indicated that, as a conscientious 
pilot, you would go early, you'd check into a motel or wherever 
you--and you'd get your rest. And I understand that and applaud 
that. I--it is clear to me, however, that that's probably not 
likely going to be the case with someone who's a new hire 
that's making $23,000 a year, to go find a place to rent.
    The reason I ask these questions is, I fly a lot, on a lot 
of airlines, and I have sat next to a lot of crew members who 
are flying to get to their duty station; in some cases, very 
long distance. Has this ever been discussed in--at the FAA, or 
has there ever been an effort to decide? Does this contribute 
to fatigue in a way that is significant enough to want to do 
more than just ask people, ``Well, you're on your own. We're 
going to expect you to have adequate rest, and that's about all 
we can do?'' Is there something more than that that exists 
here? Because, again, it starts with the question I asked at 
the front end of this hearing, Was this circumstance in this 
cockpit a complete anomaly, or is it referencing symptoms that 
we should be concerned about?
    Mr. Babbitt. Well, I think the map, is based on some 
factual locations, where people live. But, I think what we're 
focused on here is people who didn't professionally deal with 
what they should have; in other words, they did not have the 
adequate rest that a professional should. That doesn't mean 
that most of these people commuting weren't doing it the right 
way, coming in the night before. I don't know. We can't tell 
from that.
    Senator Dorgan. But, isn't that the key: You don't know.
    Mr. Babbitt. We don't know.
    Senator Dorgan. We don't know.
    Mr. Babbitt. That's correct.
    Senator Dorgan. None of us know. So, that's--I mean----
    Mr. Babbitt. Right.
    Senator Dorgan.--that's the reason I asked the question.
    Mr. Babbitt. And different carriers have different 
methodologies. I know some of the cargo operations, they really 
don't care where you're based, they will actually buy you a 
hotel room. They expect you to come in the night before, and 
they'll pay for the hotel room. And that's a solution. They 
have looked at it, they don't want their pilots fatigued. So, 
that's a solution.
    And again, that's exactly why we're bringing everybody in. 
If this is going on and there are better ways to do it, we need 
to know about it, and we need to know about it now.
    Senator Dorgan. And you're bringing them in Monday?
    Mr. Babbitt. Yes, sir.
    Senator Dorgan. Next Monday?
    Mr. Babbitt. Yes, sir.
    Senator Dorgan. Yes. You and I talked yesterday about that, 
and I--that makes a lot of sense to me, too, because----
    Mr. Babbitt. Thank you.
    Senator Dorgan.--we should address the issue rather than 
ignore the issue.
    Mr. Rosenker, you've obviously been looking at this issue. 
Your reaction?
    Mr. Rosenker. We have concerns about commuting. We want to 
make sure that both management and the pilots have a 
responsible outlook on how commuting can be done in a safe and 
efficient way. The reality of life is, these people are going 
to live where they wish to live. Many of these bases don't 
exist where they would like to live, and some of the bases are 
in cities where the cost of living is very high, where it costs 
a fortune to try to buy a home or to rent an apartment. The 
practice of commuting has been around since commercial 
aviation. Pilots traditionally are allowed to fairly 
inexpensive, if not free, transport anytime they wish.
    So, we realize this is a fact of life, and what we are 
trying to strive for is the safest way we can get there, 
because we can't ignore it. But, we've made recommendations to 
the FAA concerning fatigue. Fatigue is a very insidious 
condition. And many times people don't even know they're 
fatigued until, unfortunately, it's too late.
    So, we're hoping that the FAA will be taking our 
recommendations and incorporating them into some regulations. 
And we believe that, if implemented, they will go a long way to 
reducing the insidious effects of----
    Senator Dorgan. What----
    Mr. Rosenker.--fatigue.
    Senator Dorgan.--percent of the commercial airline flights 
in our country are by commuter carriers?
    Mr. Rosenker. About 50 percent of the flights, representing 
about 20 percent of the passengers.
    Senator Dorgan. OK. Fifty percent of the flights, by 
commuters. Do you have data that's accessible with respect to 
accidents in the last 10 years of commuters versus major 
carriers?
    Mr. Rosenker. I don't have that handy. We could get that, 
if you wish, and I can----
    Senator Dorgan. Does anyone have that?
    [No response.]
    Mr. Rosenker.--supply that to you.
    [The information referred to follows:]

Accident and Major Accident Rates: Regional Airlines Versus Other 
        Passenger Operators Conducting Operations Under Part 121 of 
        Title 14, Code of Federal Regulations
    The table below compares overall accident rates and major accident 
rates for regional airlines with rates for all other Part 121 passenger 
operations for 5-year periods since 1984-2008. For purposes of this 
table, regional airlines defined as follows: revenue passenger flights 
operated under Part 121 (excludes all cargo operations, regardless of 
business model or fleet, and all non-revenue flights, such as the 
Pinnacle Airlines accident in October 2004 and the Colgan Air accident 
in August 2003), including all turboprop aircraft that operate 
passenger services under Part 121 and all RJ aircraft that operate in 
passenger service, including the ERJ-190. All other jet passenger 
service under Part 121 is assumed to constitute the comparison group.

           Accident and Major Accident Rates: Regional Carriers and Other Part 121 Passenger Operators
                                        [Per 100,000 Aircraft Departures]
----------------------------------------------------------------------------------------------------------------
                          All Accidents                 Major Accidents                Million Departures
----------------------------------------------------------------------------------------------------------------
                                      Other 121                      Other 121
                      Regionals          Pax         Regionals          Pax        Regionals      Other 121 Pax
----------------------------------------------------------------------------------------------------------------
1984-1988                  0.519     0.342                0.120     0.050          13.3                  27.8
----------------------------------------------------------------------------------------------------------------
1989-1993                  0.308     0.272                0.074     0.043          18.8                  30.5
����������������������������������������������������������������������������������������������������������������
1994-1998                  0.250     0.403                0.035     0.027          20.0                  33.0
����������������������������������������������������������������������������������������������������������������
1999-2003                  0.327     0.459                0.005     0.016          20.5                  30.9
----------------------------------------------------------------------------------------------------------------
2004-2008                  0.211     0.275                0.013     0.011          23.2                  28.0
----------------------------------------------------------------------------------------------------------------
* Major accidents include all hull losses, whether fatal or not, and all non-hull loss accidents with multiple
  fatalities. The premise is that major accidents best represent the frequency of accidents that impose high
  risks that are broadly shared by occupants and others.

    The table shows that, over the long-term, accident rates and major 
accident rates for regional airlines have decreased steadily and 
sharply. This reflects the changes brought by ``one level of safety'' 
rulemaking which was promulgated in 1994 and was implemented in spring 
1997, and the major upgrading of the regional fleet that followed.
    The table also shows that the regional industry expanded rapidly 
through the late 1990s. Growth then slowed after September 11, 2001. 
Volume later rebounded but has slowed once more during the recession. 
However, the regional industry has continued to increase its share of 
overall passenger traffic.
    Finally, the table shows that overall accident rates for regional 
airlines have been lower than overall rates for main-line carriers 
since the final ``one level of safety'' rule was published in 1994. 
This partly reflects the greater exposure of larger aircraft operated 
by mainline carriers to relatively minor accidents involving turbulence 
and ramp events, in which risk or injury typically are isolated to a 
single person or two. However, major accident rates for regionals have 
been comparable to those for mainline carriers for the past 15 years, 
sometimes being lower than the comparison group and sometimes higher.
    The major accidents involving regional airlines come after two 
sustained periods of zero major accidents (January 1998 through January 
2003, then 2007 and 2008). Prior to the 2009 Colgan Air accident, 
regional airlines had just 3 major accidents in 10 years.

    Senator Dorgan. My--the reason I asked the question is, my 
understanding is that somewhere around seven out of the most 
recent nine accidents were accidents with commuter carriers. Is 
that--does that sound reasonable to you?
    Mr. Rosenker. That may not be including the three accidents 
that we are investigating right now, which include the Hudson 
River, which include a Denver 737 Continental----
    Senator Dorgan. Right.
    Mr. Rosenker. These were not fatal, but they were major air 
carrier, major hull loss. And, of course, now the Air France, 
that we are participating with the French authorities.
    Senator Dorgan. And we should say that we are discussing 
this through the lens of a tragedy, and understand, always, 
that that is the case. And the tragedy existed in the cockpit, 
as well. I mean, in some ways I feel bad about talking about 
two people who flew that airplane who can't represent 
themselves, and yet, we're very concerned, all of us are very 
concerned, about what happened, what could have been done 
differently, and how do we make certain that others who board 
airplanes understand that the things that we can learn from 
this crash will be implemented.
    Mr. Babbitt, one final question. You will, no doubt, appear 
before this committee many, many times. I understand that when 
you are asked whether you have sufficient funding at the FAA, I 
believe most witnesses are instructed to support whatever the 
President's budget request is. The last person I recall who 
came to the Congress, one of the committees that I was on, in 
fact, and said the President's budget request is far inferior 
and far short of what is needed for his agency, was fired the 
next morning, publicly, in a great show of strength. So, I 
understand, you must say that you have all the money you need, 
and yet, a couple of the witnesses have suggested that you 
might well need some additional funding to implement, assuming 
that you have the will and the agency has the will, to 
implement the things that are necessary and to enforce what is 
necessary to enforce. So, we'll talk when you don't have a 
microphone in front of you----
    Mr. Babbitt. All right, sir.
    [Laughter.]
    Senator Dorgan.--about those issues.
    But, I do say that, when you come back here, I'm going to 
ask the same question, after you've had a couple of weeks, Have 
you begun a rulemaking on that which the NTSB suggests? There's 
no excuse, in my judgment, for the FAA to wait another month to 
begin a rulemaking to make certain that all the records of a 
pilot are available immediately and now to a potential employer 
of that pilot. That ought to happen now. And I will ask you, 
the next time you're here, whether the rulemaking has started. 
And I hope you will consider that a priority.
    Mr. Babbitt. Well, if you don't invite me back for at least 
a week, the answer will be, ``Yes, sir.''
    Senator Dorgan. All right. Thank you very much.
    Let me thank the four of you for appearing. As I indicated, 
next week we will have a discussion with the airlines and some 
other witnesses in addition to the airlines.
    This is, as I said, a serious subject; in many ways, as is 
probably always the case, these subjects are most aggressively 
and often discussed when they are borne of tragedy. And our 
heart goes out to those who are involved in the tragedy and 
those who loved them. And we just hope that, through these 
discussions, we will make progress in protecting others.
    And I want to end it the way I started this, to say that we 
have an unbelievable safety record in this country with air 
travel. But, that ought not suggest any of us sit on our 
laurels. I know enough, from having studied this, that there 
are a lot of recommendations out there that are not yet 
implemented, and I don't want the next airplane tragedy to be 
one in which we discussed a recommendation that we knew about, 
but was never implemented. We can do a lot better than that, 
and should. And at least my stewardship of this Subcommittee is 
going push--to push, and push very hard, to implement that 
which we know can save lives.
    Thank you very much for appearing.
    This hearing is adjourned.
    [Whereupon, at 4:20 p.m., the hearing was adjourned.]
                            A P P E N D I X

              Prepared Statement of Hon. Maria Cantwell, 
                      U.S. Senator from Washington
    Thank you, Chairman Dorgan, for calling this hearing. On the FAA's 
website, under agency values, it says quote ``Safety is our passion. We 
are the world leaders in aerospace safety.'' And by-and-large, the U.S. 
airspace is the safest in the world. But there are events such as the 
crash of Colgan Air Flight 3407 in Buffalo, New York, that requires us 
all to take a step back and examine whether we are doing all we can 
when it comes to having the necessary safety rules on the books and 
enforcing compliance of the rules that do exist.
    Each new detail coming out of the investigation into the crash of 
the Colgan Air Flight 3407 in Buffalo, New York, turns out to be even 
more disturbing than the last. My heart goes out to the families who 
lost loved ones. This includes the family of the co-pilot who had to 
live at home in Washington State and commuted to her job on the east 
coast because Colgan Air paid her a little over sixteen thousand 
dollars a year.
    For over the past decade the FAA has a policy of ``one level of 
safety'' for all commercial flights carrying ten or more passengers. 
Prior to that, regional carriers had to meet lesser standards. The FAA 
has moved to a risk-based approach for oversight, which only recently 
has been extended to the 70 regional carriers. To date, it is not clear 
that the FAA has the will or available resources available to make this 
strategy effective.
    Company culture plays a more significant role than many of us like 
to admit. Some regional airlines still may have an engrained culture 
from the time prior to ``one level of safety'' of doing the bare 
minimum, if that. Also some regional carriers may have chosen to cut 
corners on safety and training, aware that the oversight during the 
previous Administration was limited at best. For these carriers, they 
need to understand that times have changed.
    There are regional carriers, though, such as Washington-based 
Horizon Air that realize it is its own best interests to meet the FAA's 
one level of safety. One critical difference at Horizon Air is its 
pilots. Unlike many regional carriers where the job of a pilot is often 
considered an entry-level position for the industry, Horizon's captains 
average 14 years of experience and have logged an average of 12,500 
flight hours. Horizon pilots have a low attrition rate and I am told 
only 10 percent commute to work by aircraft. Pilots receive recurrent 
training in the classroom, in simulators, and in actual flights, in 
excess of the FAA annual requirements. And while Horizon's primary 
aircraft is the Q-400, its pilots are trained to react properly when 
the stall protection system warning alarm goes off.
    I would be remiss if I did not mention that on Monday, I introduced 
the Air Medical Service Safety Improvement Act of 2009. It follows the 
NTSB's recommendations for improving helicopter emergency medical 
services made in 2006. The changes in this Act from the Act I 
introduced last Congress, are as result of the four-day NTSB hearing 
this February and the hearing in the Transportation and Infrastructure 
that I served on when I was a member of the House.
    I want to thank Chairman Rosenker for his leadership, Board Member 
Hersman for her assistance over the years, and Stacey Friedman for her 
persistence. I know her sister would be proud. I also note that the 
Flight Safety Foundation issued a report this past April on the HEMS 
Industry Risk Profile.
    Thank you.
                                 ______
                                 
            Prepared Statement of Hon. Charles E. Schumer, 
                       U.S. Senator from New York
    First, I'd like to thank my colleagues, Senators Dorgan and DeMint, 
for holding this important hearing. I am proud to represent the people 
from Western New York. They are a resilient community, and if there is 
any comfort to come from this tragedy, it is in knowing that their 
outreach to the victims' families has been nothing short of heroic.
    I would also like to say how much I admire the family members of 
the victims of Continental Connection Flight 3407. On February 12, 
2009, their lives changed in tragic and dramatic ways when they lost 
their loved ones on a Buffalo-bound flight from Newark Airport. I met 
with the families, as so many of you did, during the week of the 
National Transportation Safety Board public hearings on the crash, and 
I can't say enough how humbled I am by all of their hard work. It is a 
tribute to their loved ones' lives that they are a presence in 
Washington to advocate for aviation safety, and I am honored to help in 
their cause.
    The crash of Flight 3407 in Clarence, NY claimed 50 lives, and 
serves as a tragic reminder that our Nation's aviation industry is not 
immune to tragic accidents. Unfortunately this seems to be particularly 
true of the regional airline industry. The 3 day-long NTSB hearings 
revealed some very disturbing suggestions into what may have caused the 
crash of the Bombardier Dash 8-Q400 airplane.
    First, I was very troubled by reports that the Colgan pilots of the 
Dash 8 were not adequately trained in the operation of a ``stick-
pusher''--the instrument installed in aircraft like the Dash 8 that 
prevents an aircraft from stalling. The stick-pusher is not 
demonstrated in pilot training flight simulators, and experts believe 
that pilots are missing out on important hands-on training. I wrote to 
Secretary Ray LaHood and asked that he reevaluate FAA's approval of 
airline training curricula, and I am so pleased that he, along with 
Administrator Babbitt, announced that they will immediately inspect 
regional airlines' training programs. It is unacceptable that any 
training program leave pilots unprepared to deal with crisis 
conditions, and the FAA is doing exactly the right thing by examining 
their training procedures with a fine tooth comb and closing any holes 
that may help avoid another terrible tragedy.
    It has also been reported that the pilots of Flight 3407 were not 
properly rested before their flights, and they the young co-pilot was 
making just $16,000 a year. It is clear that we must examine the ways 
in which the regional airline industry treats its pilots. Industry is 
evolving and we're beginning to see more of these smaller regional 
airlines, but FAA's regulations are not keeping up. FAA must crackdown 
on issues of pilot rest, compensation, and training, especially with 
these young airlines that seem to be prioritizing issues of saving 
money, and not issues of safety.
    For the last 8 years FAA has had ineffective leadership with one 
goal: to cut costs. That is unacceptable operation for an agency that 
needs to put safety above all else. So, in an effort to ensure that 
safety is prioritized over all other industry concerns, I introduced 
legislation--S. 1163--to add a member to the FAA Administrator's 
Management Advisory Council. The Council is the executive advisory 
board to the Administrator, acts as a sounding board on FAA management, 
policy, spending, and regulatory issues. The Council is currently made 
up of CEOs, presidents and representatives of the aviation industry, a 
scenario which has the potential to lead to a greater focus on what is 
best for the airline industry versus what is safest for the passengers.
    My legislation would add an additional member who would 
specifically represent the aviation safety sector. It is critical that 
safety expertise be represented in every decision that FAA makes about 
the airline industry.
    The initial investigation of Flight 3407's crash also suggested 
that icing conditions may have affected the aircraft. While I 
understand that icing is no longer the main focus, a bright light was 
still shed on the fact that NTSB and FAA have differing recommendations 
as to how a pilot should handle an icing condition, and that NTSB first 
asked FAA to adopt NTSB's recommendation 12 years ago, to no avail. For 
this reason I, along with Senators Rockefeller and Dorgan, called for 
an official GAO investigation into what specific roles NTSB and FAA 
should be playing in aircraft icing prevention, and why a lag exists 
between the time NTSB makes a recommendation and FAA formally adopts 
it.
    I asked Administrator Babbitt to review NTSB's outstanding safety 
recommendations, or as NTSB calls it, the ``Most Wanted List.'' He 
ensured me that he will give each suggestion its due diligence, and I 
hope that moving forward FAA will give all of NTSB's future 
recommendations better consideration.
                                 ______
                                 
                                FAA Whistleblowers Alliance
                                                       June 3, 2009
U.S. Senate Committee on Commerce, Science, and Transportation

Hon. John D. Rockefeller IV,
Committee Chairman,
Washington, DC.

Hon. Kay Bailey Hutchison,
Committee Ranking Member,
Washington, DC.

Hon. Byron L. Dorgan,
Subcommittee Chairman,
Washington, DC.

Hon. Jim DeMint,
Subcommittee Ranking Member,
Washington, DC.

Re: Whistleblowers Warned of Lax FAA Oversight That Led to 
                                      Preventable Tragedies

Dear Chairpersons Rockefeller, Dorgan, Hutchison and DeMint:

    The FAA Whistleblowers Alliance commends you on your examination of 
the FAA's oversight role and specifically the safety issues surrounding 
the crash of Colgan Flight 3407. Our Alliance is comprised of a cross 
section of professionals from the major FAA disciplines: Air Traffic, 
Flight Standards, Security and Aircraft Certification. We are current 
and former FAA employees that have extensive experience and have served 
in several different FAA regions and Headquarters.
    This unique mixture of members and experiences give us an insider's 
perspective of serious failures within the FAA. This collective 
perspective inescapably leads us to conclude these failures are 
systemic; they run deep in the organization. Our perspective, plus the 
available evidence, reveals a directly resulting, clear and present 
danger to the public.
    Your Committee's call for a hearing on June 10 to further 
investigate the causal factors of the Colgan Flight 3407 fatal crash 
and your May 18 letter to the DOT Inspector General requesting review 
of a number of safety areas are critically important. You have already 
identified ``the FAA's oversight of industry compliance with relevant 
safety regulations'' as a major area to be examined.
                    CAUSES: A Tradition of Collusion
    The evidence of FAA oversight failure has been a constant and 
troubling concern in fatal air carrier accidents over the past several 
years. In fact, ``lack of FAA oversight'' has been determined by the 
NTSB to be a contributing factor in a number of fatal air carrier 
accidents.
    A misguided and dangerous culture resides all the way to the top. 
There have also been numerous disclosures made by Air Traffic 
Controllers that revealed a pervasive danger to the public that have 
been investigated by the DOT Inspector General. These investigations 
have validated controllers safety concerns despite FAA denials. ``Pubic 
Image'' at all costs. Indeed.
    The FAA has fostered an internal culture of non-accountability that 
continues to endanger the public. The consequence has been loss of 
life, as well as malicious attacks on its own employees after reporting 
safety violations that are discovered in the course of their duties. 
Overstatement? We respectfully ask you to please consider the following 
three examples exposed by Alliance members having first hand knowledge.
               CONSEQUENCES: Hundreds of Needless Deaths
    In addition to the recent Colgan tragedy (50 fatalities), members 
of our Alliance have made safety disclosures about a chain of ``lack of 
FAA oversight'' fatal accidents that includes the 2005, Chalk's Ocean 
Airways Flight 101 (20 fatalities), and the 2000, Alaska Airlines 
Flight 261 (88 fatalities). Regrettably, for 158 families directly 
related, the pre-accident safety disclosures revealed by Aviation 
Safety Inspectors were ignored. Many, too many, such disclosures were 
suppressed by the FAA.
    The recent crash of Colgan Airlines Flt. 3407, which is the current 
subject of investigation, the 2005 crash of Chalk's Flt. 101 and the 
2000 crash of Alaska Airlines Flt. 261 are all examples of likely 
preventable tragedies where members of our Alliance made safety 
disclosures well before these accidents occurred. In fact, safety 
disclosures about deficiencies in Colgan's pilot training, and flight 
operations conducted by fatigued pilots exhibiting failure to maintain 
a sterile cockpit were reported by one of our members to the Office of 
Special Counsel months before the Buffalo, NY crash.
    All three of these tragic examples exhibit an apparent ``lack of 
FAA oversight'' as a common denominator and strongly suggest a chronic 
FAA non-accountability.
  ONGOING VULNERABILITY: Lack of Accountability for Business as Usual
    The search for probable cause and regulatory compliance pertaining 
to the Colgan tragedy will be of limited effectiveness and of 
questionable validity if deeply imbedded, root-cause deficiencies 
within the FAA are not fully exposed and immediately and forcefully 
corrected by those with direct oversight responsibility.
    Congress and the public that it serves were afforded a rare glimpse 
into the FAA toxic culture during last April's House and Senate 
hearings on Southwest Airlines maintenance difficulties and the FAA's 
deficient oversight. Again, because of the safety disclosures of one of 
our members, the House Committee on Transportation and Infrastructure 
caught and cited three high ranking FAA officials, Nicholas Sabatini, 
James Ballough and Thomas Stuckey for giving ``misleading testimony'' 
when they were questioned about FAA internal actions.
    This arrogant display before Congress and the reported subsequent 
derision of Congress within the FAA inner sanctum at 800 Independence 
Avenue, are the epitome of an agency intent on preserving its self-
serving power structure at the expense of public safety.
    The fact that Sabatini has been allowed to retire, and Ballough and 
Stuckey have reportedly been allowed to go into taxpayer funded 
``organizational hiding'' should not be construed as evidence that the 
problems are solved. As you know, Congress has had to include language 
in the FAA Reauthorization of 2009, H.R. 915,  332, to modify the FAA 
``Customer Service Initiative'' that was implemented by Sabatini in 
2003. This 2003 initiative was used to sidestep Congressional intent to 
provide the highest level of safety oversight for the public. It is 
requiring Congressional action to correct this FAA induced safety 
deficiency since the FAA has refused to do so voluntarily. The FAA 
power structure in place now continues Sabatini's disservice to the 
public and the easily identified benefactors have merely played 
organizational musical chairs.
    As you search for answers to the Colgan tragedy, keep in mind the 
FAA institutional attitudes. The deficiencies identified in training 
programs and the lack of effective FAA oversight of these programs are 
the easy causal factors to identify. If your search stops there nothing 
of any consequence will be fixed. Your challenge is to dig deep and 
address the root cause of accountability deficiencies. Who is 
accountable for maintaining an environment that has created a danger to 
the public? You will have to look behind the FAA logo and identify 
those that have violated the public trust. They have no place in a 
safety agency. This systemic violation of the public trust is why the 
FAA Whistleblower Alliance exists today.
                       POTENTIAL: New Directions
    A new FAA Administrator has been confirmed. Mr. Babbitt is an 
extremely well qualified aviation expert. Those who want to have the 
public trust restored will have the opportunity to observe his 
expertise. However, those in the FAA who want to maintain the status 
quo will most assuredly meet Mr. Babbitt's efforts with vigorous 
resistance.
    We remain available to support your efforts in any way your 
committee deems appropriate. We can provide critically relevant 
testimony to your inquiry or provide a briefing before the forum. We 
are requesting that you include this letter in the Congressional 
Record. Please contact Gabe Bruno of the FAA Whistleblowers Alliance at 
407-977-1505, or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dd9a9fafa8b3b2ee9dbebbb1f3afaff3beb2b0">[email&#160;protected]</a>, if we can be of any help.
            Sincerely,<SUP>*</SUP>
---------------------------------------------------------------------------
    \*\ Some of our members wish to keep their names confidential, due 
to fear of continued retaliation, therefore have not signed this 
letter.[Any listed affiliation with the FAA or any other Federal agency 
is listed only for identification purposes. We are speaking in our 
capacity as citizens and as part of the FAA Whistleblowers Alliance, 
and not on behalf of the FAA or any Federal agency.]
---------------------------------------------------------------------------
                  Bobby Boutris, Flight Standards Inspector

      Gabe Bruno, retired Manager, Flight Standards Service

                 Ricky Chitwood, Flight Standards Inspector

  Mary Rose Diefenderfer, former Flight Standards Inspector

Bogdan Dzakovic, former Special Agent/Air Marshal Service, 
                                                    now TSA

          Kim Farrington, former Flight Standards Inspector

               Cheryl Henderson, Flight Standards Inspector

              Ed Jeszka, retired Flight Standards Inspector

   Shawn Malekpour, Program Manager, Aircraft Certification

                Chris Monteleon, Flight Standards Inspector

                        Geoff Weiss, Air Traffic Controller

             Anne Whiteman, Supervisor, Air Traffic Control

        Richard Wyeroski, former Flight Standards Inspector
                                 ______
                                 
                                                U.S. Senate
                                      Washington, DC, June 10, 2009
Hon. Byron Dorgan,
Chairman,
Subcommittee on Aviation Operations, Safety, and Security,
Senate Committee on Commerce, Science, and Transportation,

Dear Chairman Dorgan,

    I want to thank you for holding a hearing on the issue of the 
Federal Aviation Administration and its role in the oversight of 
commercial air carriers. This issue has become a very personal one for 
me.
    In meeting with the families, who lost loved ones, I heard 
tremendous concerns about fundamental failures in our aviation system. 
These families have raised questions about a variety of issues, from 
uniformity of training requirements to relations between the regulators 
and the airlines they regulate.
    Although not a Member of your Subcommittee, I want to ensure that 
the questions of the family members of Flight 3407 do not go 
unanswered. To that end, 1 have asked family members to submit 
questions to my office, and I ask that their questions, in turn, be 
submitted for the record.
    It is my hope, and the hope of those who lost love ones on that 
flight, that the answers will lead to changes in the way that the 
Federal Aviation Administration operates and interacts with the airline 
industry.
    I thank you for your attention to this request, and ask that you 
contact me with any questions.
            Sincerely,
                                      Kirsten E. Gillibrand
                                              United States Senator
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Byron L. Dorgan to 
 Hon. Randolph Babbitt on behalf of Hon. Kirsten E. Gillibrand for the 
                        Families of Flight 3407
    Question 1. Families of Flight 3407 have been repeatedly told that 
Colgan Air met all FAA standards, but they have serious questions about 
the `minimum' standards that are used when it comes to experience 
requirements for being hired or upgraded, hands-on (i.e., simulator 
time) training for stall identification and recovery, operating in 
icing conditions, and the amount of time spent training on crew 
resource management, particularly sterile cockpit procedures. How does 
the FAA arrive at these `minimums', and how often, if ever, are they 
re-evaluated?
    Answer. The standards are designed to provide an acceptable level 
of safety based on demonstrated performance. The FAA revises and 
updates pilot certification requirements as circumstances warrant. 
Although the basic requirement to earn a commercial certificate is a 
minimum of 250 hours of eligible flight time, the pilot also has to 
successfully complete a written test on aeronautical knowledge and a 
practical test of aeronautical skill, which evaluate the pilot's actual 
performance, not just how many hours he has completed. These tests are 
regularly reviewed and revised to ensure that pilots receive up-to-date 
aviation education and training.
    Commercial pilots who fly for part 121 and 135 operations have to 
meet additional requirements. To act as pilot in command (captain) for 
these operations, the pilot must have an airline transport pilot (ATP) 
certificate, which requires a minimum of 1,500 hours. The holder of a 
commercial pilot certificate is limited to serving as a first officer 
on an air carrier operation.
    FAA currently requires training on crew resource management (CRM), 
and various flight conditions, including stall identification, upset 
recovery, and icing. We are continually evaluating operator training 
programs to ensure they meet the standards and account for any airline 
specific operations. Based on these evaluations and our experience with 
scenario based training programs, the FAA has issued a notice of 
proposed rulemaking (NPRM) which would require enhancements to the 
existing training programs.

    Question 2. Another major issue raised by the families of Flight 
3407 is whether an FAA Principal Operations Inspector (POI) [is] 
enabled to correct deficiencies in an airline's day-to-day operating 
procedures. According to the families of Flight 3407, when asked about 
numerous delays in Colgan's publication of a Company Flight Manual 
(CFM) for the Q-400 and whether he had imposed deadlines on Colgan to 
speed things up, Colgan's POI Douglas Lundgren stated that the only way 
he could influence things were through `diplomatic persuasion and arm-
twisting'. Are the POIs keeping the airlines in check, or in reality, 
is it the other way around? What actions can be taken to give more 
`teeth' to the authority of POIs to ensure airline compliance to safety 
procedures and operations?
    Answer. The FAA's central mission is to ensure the safety of the 
flying public. FAA Principal Operations Inspectors (POIs) currently 
have the authority to ensure compliance with all FAA standards and they 
monitor their operators to confirm continued compliance with the 
regulations. When suspected regulatory noncompliance is found during 
the performance of normal surveillance, the inspector must change 
emphasis from compliance to enforcement. ``Enforcement'' means legal or 
administrative action, such as a suspension of a certificate, a 
monetary fine or a letter of warning or correction.

    Question 3. When it comes to the mechanical side of the planes 
itself, the FAA can issue Airworthiness Directives (ADs) that require 
manufacturers and/or airlines to take certain steps to address 
deficiencies. During testimony at the NTSB hearings, it was explained 
that, short of making a rule, the strongest recourse available to the 
FAA is a Safety Alert for Operators (SAFOs), which is merely a 
recommendation rather than a requirement for airlines to follow. 
Furthermore, the FAA has no mechanism in place to even get feedback on 
the percentage of Part 121 airlines that are complying with the SAFOs. 
What can we do to strengthen the FAA's authority when it comes to 
ensuring that much-needed improvements in these operational or 
procedural areas are actually implemented by these Part 121 carriers?
    Answer. ADs, which require manufacturers and/or airlines to take 
certain steps to address deficiencies, are issued only when the FAA has 
determined that an unsafe condition exists. In those instances where 
existing operating procedures are found to lead to an unsafe condition, 
such as operations in icing, the FAA has issued ADs which require a 
change to the flight manual to reflect the appropriate procedure, or 
impose a flight limitation. For other issues which do not rise to the 
level of an unsafe condition, the FAA may issue a SAFO. Although not 
mandatory, the SAFOs contain important safety information that is 
communicated to both operators and inspectors.

    Question 4. Following the tragedy, Continental is now offering 
Colgan pilots Continental's two-day Crew Resource Management/Threat 
Error Management (CRM/TEM) program. As more and more major carrier 
flights are being operated by regional airlines, the major carriers 
should make advanced training programs available to regional partners. 
Given that the regional partners have smaller training budgets, yet 
must train pilots who are less experienced, what steps can be taken to 
provide the appropriate level of training--the same level offered by 
major carriers?
    Answer. Regulations establish the standard that every air carrier, 
regardless of size, and every crewmember must comply with and train to. 
Voluntary programs such as FOQA and LOSA provide a means for evaluating 
whether training and other programs are effective. The voluntary nature 
of these programs is key to their effectiveness. Because air carriers 
and their employees design these programs to ensure that data are used 
to enhance safety and training, and not to penalize employees for 
inadvertent mistakes, they produce information that would not otherwise 
be available. Although we have strongly encouraged all air carriers to 
establish these types of programs, there are other ways carriers can 
evaluate the effectiveness of their training and safety programs.

    Question 4a. Additionally, according to the family members I have 
spoken with, the NTSB hearings emphasized that Colgan was deficient in 
implementing industry-wide best practice safety initiatives, such as 
FOQA (Flight Operation Quality Assurance program) and LOSA (Line 
Observation Safety Audits). These programs are only recommended, but 
never required. How can we make sure that these regional airlines offer 
their passengers the same level of safety as the major carriers?
    Answer. All air carriers must operate to a common standard that has 
produced the safest air travel system in the world. To further enhance 
training standards, FAA has proposed changes that are now out for 
comment. FAA's proposal includes improvements that have already been 
adopted by some operators. Completion of this rulemaking will enhance 
training standards for all operators.

    Question 5. Following the crash that took the life of Senator Paul 
Wellstone in 2003, the NTSB recommended that the FAA study the 
feasibility of installing an aural, non-startling low airspeed alert 
that would give pilots more time to react to an impending stall and 
avoid reaching a speed where the stick shaker would activate. To date, 
the FAA has not implemented this recommendation, which means that 
existing planes do not have to be retrofitted for it, and new planes do 
not have to be equipped with it either. A device like this could have 
prevented many of the recent accidents and incidents such as Flight 
3407, where loss of airspeed was a factor.
    Please explain the calculations that go into determining why 
technology like this does not get implemented; what something like this 
would cost per airplane, versus the number of passengers carried on 
that plane and its rate of having an incident or accident?
    Answer. Introducing a technology solution for low speed alerting 
across a broad range of aircraft, including existing fleets, would 
require a new rule to change requirements in applicable sections of 14 
CFR. As part of the rulemaking process, the FAA first identifies 
potential solutions and then studies these solutions using a rigorous 
economic analysis to weigh the cost of implementation against the 
economic benefit of avoiding future accidents.
    The FAA shares the NTSB's concern regarding flightcrew awareness of 
low airspeed situations. After studying the accidents upon which the 
NTSB based its 2003 recommendations, an internal FAA team noted that 
many of these accidents occurred immediately prior to touchdown and 
were reflective of poor pilot technique. The team determined that low 
speed warning indications during the landing would not be effective in 
avoiding future incidents of this type. In the interim, the FAA 
published guidance on Electronic Flight Deck Displays including 
guidance on incorporating low airspeed alerting cues. Transport 
airplane manufacturers have voluntarily used low speed protection 
features on all recent new designs.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Claire McCaskill to 
                         Hon. Randolph Babbitt
    Question 1. Describe any progress the FAA has made in implementing 
recommendations made by the Inspector General for the Department of 
Transportation with respect to oversight of the safety and security of 
foreign repair stations.
    Answer. The Inspector General for the Department of Transportation 
made 16 recommendations in two reports. The FAA accepted all 16 
recommendations. We have completed eight recommendations, and are 
working on the other eight. to date, we have implemented procedures to 
improve information sharing through FAA's integrated Safety Performance 
Analysis System by requiring inspectors to document the repair stations 
reviewed in the Air Transportation Oversight System (ATOS) database and 
to include in the Program Tracking and Reporting System (PTRS) the 
areas inspected, the results, and corrective actions taken. We 
developed a standardized approach to repair station surveillance and we 
modified existing inspection documentation requirements with foreign 
aviation authorities so FAA receives sufficient documentation to ensure 
FAA-certified repair stations meet FAA standards. We developed a 
process to capture results from: (a) foreign aviation authority 
inspections and (b) FAA sample inspections of foreign repair stations 
in FAA's PTRS. FAA also developed procedures to verify that foreign 
aviation authorities place adequate emphasis on FAA regulations when 
conducting reviews at FAA-certified facilities, and FAA clarified 
requirements with foreign aviation authorities to ensure that changes 
to FAA-certified foreign repair stations' operations that directly 
impact FAA requirements are sent to FAA for approval. Finally, we 
modified procedures for conducting sample inspections to permit FAA 
inspectors to conduct the number of inspections necessary to gain 
assurance that foreign aviation authority inspections meet FAA 
standards.
    FAA has made continual improvements to its oversight system for the 
safety of all U.S. and foreign repair stations. The FAA now uses the 
Repair Station Assessment Tool, which is an enhanced risk-based 
surveillance system for repair stations. The tools currently in place 
include a Safety Performance Analysis System (SPAS) and the Outsource 
Oversight Prioritization Tool (OPT). Aviation safety inspectors use 
these tools as a part of the enhanced repair station and air carrier 
oversight system. These tools assist FAA in the application of system 
safety and risk management concepts, assuring that all repair stations 
and air carriers meet their responsibility to accomplish maintenance or 
use maintenance providers in accordance with standards established by 
the regulations. This risk-based system improves FAA's ability to 
analyze data, and it allows the agency to target resources toward areas 
of identified risk.

    Question 2. Describe any progress the FAA has made in improving 
oversight over contract maintenance providers who perform work for air 
carriers.
    Answer. To improve the oversight of maintenance providers, the FAA 
revised several definitions to better enable air carriers and FAA 
offices to consistently apply the definitions and related policies. We 
changed the term ``air carrier maintenance provider'' to mean anyone 
who does work on an air carrier airplane and, the term ``essential 
maintenance'' is now used in place of the term, ``substantial 
maintenance.'' The FAA has revised air carrier operations 
specifications to reflect the air carrier's role in oversight of 
essential maintenance providers. FAA has revised the policy and 
guidance documents, as well as inspector training, related to 
``essential maintenance'' and maintenance providers.
    FAA has also created the Oversight Prioritization Tool (OPT), which 
is a database and oversight planning tool for inspectors. This database 
assists inspectors in performing surveillance. In conjunction with the 
Repair Station Assessment Tool (RSAT), the OPT provides a risk-based 
oversight system.

    Question 3. I understand that the FAA is in the process of 
reviewing its system to track contract maintenance providers used by 
air carriers. Improvements to the program are to be announced by August 
2009. Will the improvements to the FAA's program ensure that the FAA 
will be able to track all contract maintenance providers and determine 
which are certified repair stations and which facilities are not 
certified?
    Answer. Current regulations require the air carrier to identify and 
audit its maintenance providers and vendors. Starting in September 
2009, new guidance will require the air carrier to identify all of its 
essential maintenance providers, and to list them in its manual. FAA 
inspectors must complete an inspection of each essential maintenance 
provider on the list. After the initial inspection, FAA will conduct 
subsequent inspections based on risk.

    Question 4. In 2007, my office requested information from the FAA 
about the amount it spent to inspect part 145 certificated repair 
stations located abroad and how much it collected in fees from those 
repair stations. Analysis of the numbers provided to my office 
indicated that those inspections cost the FAA several million dollars 
more than it collected in fees from those repair stations between 2004 
to 2006. Since then, the FAA has updated its fee schedule twice. Please 
provide the Committee with figures on how much the FAA spent to inspect 
part 145 stations abroad and how much it collected in fees from those 
stations since it updated its fee schedule in 2008?
    Answer. In FY07, FAA spent approximately $9 million on 
certification and surveillance of foreign repair stations, and 
collected approximately $5.8 million in fees. In FY08, FAA spent 
approximately $10.5 million on certification and surveillance of 
foreign repair stations, and collected $6.9 million in fees. We expect 
to spend $10.3 million for this purpose in FY09, and collect $7 million 
in fees.

    Question 4a. How much does the FAA expect to collect under the new 
fee schedule that went into effect on June 1, 2009?
    Answer. Under the new fee schedule, FAA expects to collect $7 
million in FY10 and $7.3 million in FY11.

    Question 4b. Does the FAA expect those fees to cover costs?
    Answer. FAA does not expect these fees to fully cover the cost of 
certification and surveillance activities. Current law does not 
contemplate reimbursement for some of the safety-critical activities 
that FAA performs on behalf of foreign governments and carriers. Also, 
there is a fixed scale for fees, but certain jobs are more complex and 
more expensive than others.

    Question 5. Several air ambulance pilots and their representatives 
have testified before Congress and Federal agencies that they feel an 
economic pressure to fly that conflicts with considerations of safety. 
Some pilots have also stated that economic conditions are, in the words 
of a representative of a pilots union, ``leading to a degradation of 
the equipment they utilize.'' Two large air ambulance operators have 
said they will not invest in IFR for their helicopters, even though the 
FAA has said it would like to incentivize the adoption of IFR. In light 
of these comments, do you believe that an unregulated market air 
ambulance is capable of assuring the safest possible air operations?
    Answer. The FAA's role with respect to helicopter emergency medical 
services is focused on safety. It is the Office of the Secretary (OST) 
within the Department of Transportation that exercises authority over 
aviation economic regulation. Air ambulances remain subject to FAA 
safety regulations governing operations, and in OST's experience, 
competition is not inconsistent with safety. Moreover, OST supports the 
authority of States to issue FAA-compliant regulations on patient care 
that would affect air ambulance operations. However, we take the issues 
raised by the industry and those in pending legislation very seriously. 
For that reason, we support a study in this area to determine whether 
there is merit to the argument that economic conditions are adversely 
affecting the safety of HEMS operations.

    Question 6. Representatives from the FAA have testified that they 
are concerned that, if they make any exception to the Airline 
Deregulation Act to allow states to regulate air medical services, it 
will open the door for state regulation of other industries, such as 
air tour providers. Is there a distinction to be made between tour and 
passenger service and critically ill and injured patients for whom, 
because of the nature of their injuries and critical importance of 
timely transport, there is no choice of carriers?
    Answer. The FAA's role with respect to helicopter emergency medical 
services is focused on safety. It is the Office of the Secretary within 
the Department of Transportation that exercises authority over aviation 
economic regulation. As a result, under current law, air ambulances are 
air carriers subject to the Airline Deregulation Act of 1978 (ADA). As 
such, States are prohibited from enforcing regulations related to air 
carrier prices, routes, and services. That said, the ADA has no bearing 
on a State's ability to regulate the medical aspects of air ambulances, 
including patient medical care. It has long been the Department's view 
that the provision of medical services is not ``aviation'' services and 
thus, not preempted by the ADA.
    We recognize the interest States have in ensuring that medical 
professionals on board air ambulances are properly qualified and that 
air ambulances arrive properly equipped with the medical and 
communications equipment necessary to care for patients and communicate 
with emergency medical services (EMS) personnel on the ground. Although 
State medical regulations that would affect air ambulances must always 
be compliant with FAA requirements, we believe that there is a wide 
range of medically-related interests that States can and currently do 
regulate without encroaching on the Department of Transportation's 
economic authority under the ADA.
    DOT believes that before considering legislation that could create 
a ``slippery slope'' for the federally regulated aviation industry 
should Congress set a precedent in the area of air ambulances, there 
should be a determination on whether a systemic problem exists and, if 
so, any proposed legislation should narrowly address the defined 
problem.

    Question 7. The joint FAA/DOT testimony at the House hearing on 
Helicopter Medical Services (HMS) indicated that FAA/DOT fully support 
the critically important work of state EMS authorities in providing 
medical oversight of air ambulances, but further noted they were 
concerned that 50 separate state regimes addressing economic regulation 
of air ambulances. The State EMS directors testified that DOT guidance 
to states has had a chilling effect on their ability to assure public 
accountability of the EMS system. What are the best ways, in your view, 
to reconcile these two different views regarding oversight of air 
ambulance services?
    Answer. We recognize and support the interest States have in 
ensuring that medical professionals on board air ambulances are 
properly qualified and that air ambulances are properly equipped with 
the medical and communications equipment necessary to care for patients 
and communicate with emergency medical services (EMS) personnel on the 
ground. State officials interested in determining whether the ADA 
preempts a particular State requirement may contact DOT's Office of 
General Counsel, which stands ready to assist States in reviewing 
proposed or existing requirements for consistency with the ADA. Federal 
and State case law, as well as DOT's opinion letters, also provide 
guidance in this area.

    Question 8. The State EMS directors at the House HMS hearing noted 
the explosive growth from 350 to 850 air ambulance helicopters in the 
past 5 years and that more helicopters does not guarantee more access 
if they are right on top of each other in highly competitive markets. I 
have been told that in some competitive markets some ambulances have 
taken dangerous risks such as flying below weather minimums to gain 
volume, flight-stacking, and refusing to communicate with other 
helicopters in the air to avoid mid-air collisions. Since neither the 
DOT nor the FAA regulate competition, do you believe that these 
concerns can be addressed if states lack the ability to regulate 
competition? What are some ways that we can address these risks and 
concerns, in your view?
    Answer. The Department has received distinctly different 
descriptions of the state of the industry from proponents and opponents 
of the pending legislation, including on the issue of whether any 
problem exists in this area. Proponents of the pending bills state that 
subtle economic pressures result in unnecessary use of air ambulances 
inconsistent with medical protocols, whereas opponents of the bills 
strongly disagree with the assertion that the dispatch of air 
ambulances is taking place in disregard of those protocols. DOT 
believes that before considering legislation that could adversely 
affect the air ambulance industry, there should be a study similar to 
that which is proposed in H.R. 915, the House FAA Reauthorization bill, 
focusing on whether a systemic problem exists and, if so, any proposed 
legislation should narrowly address the defined problem.

    Question 9. S. 848, legislation I have introduced, seeks to 
incorporate the suggested recommendations made by FAA with regard to 
H.R. 978, which was previously introduced in the House. Please share 
your views on S. 848 and whether the FAA has any concerns with how the 
legislation has been drafted.
    Answer. The Department believes that the industry would benefit 
from a thorough study and analysis of the issues that have been raised 
both at Congressional hearings and in the proposed legislation. H.R. 
915, the FAA Reauthorization bill, contains a proposal for such a 
study.

    Question 10. Are there ways to ensure that air medical service 
providers have access to unserved areas, especially rural areas, within 
a framework of state regulation of competition in the air medical 
service industry?
    Answer. It is unclear to DOT whether, or to what degree, rural 
areas may be unable to attract air ambulance service providers. It is 
also unclear whether a state regulatory scheme could be successful in 
filling such gaps in coverage even if we were to assume that there are 
a significant number of underserved areas. For these reasons, DOT 
supports a study that would encompass these issues and allow any 
potential legislative remedies to be based on a more comprehensive 
understanding of the facts.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Johnny Isakson to 
                         Hon. Randolph Babbitt
    Question 1. The FAA sets mandatory criteria and minimums for the 
various levels of pilot certification. Although the minimums to obtain 
a commercial license for example is seemingly very low (250 hours), the 
airlines have seemingly in the past always had higher time requirements 
then what the FAA minimums were.
    In the past they also hired almost, but not always, former military 
pilots. My understanding is that this was because a military pilot 
offered a ``known quantity'' of sorts regarding prior training and 
experience. As the industry evolved, regional airlines took on flying 
that major airlines used to do, and for a variety of reasons the pool 
of potential pilot hires changed.
    Relating to the Colgan 3407 crash, at the time of the crash the 
Captain had approximately 3,300 hours of flight time and the first 
officer had 2,300 hours. The Captain, according to a statement by him 
in a conversation recorded on the cockpit voice recorder, had 625 hours 
total time when he was hired at Colgan. The First Officer had 1,600 
hours at her date of hire but, according to reports I have seen, that 
was in mostly warm clear weather flying in mostly single-engine piston 
airplanes. By her own admission on the cockpit tapes she had never seen 
icing. So what we are seeing here is that while the quantity of 
training time may be high, the quality of that training time may not be 
that great. For example, 1,600 hours in a single engine piston in fair 
weather is not equivalent to 1,600 hours of military flying, or 
previous airline flying. When were the current FAA mandatory criteria 
and minimums for the various levels of pilot certification set?
    Answer. Experience levels for commercial pilots were originally 
established in the 1940s. They have been revised and updated over the 
years. Today, the basic requirements for commercial certification can 
be found in part 61 of the Federal Aviation Regulations (FAR). 
Commercial pilots who fly for part 121 and 135 operations must meet 
additional requirements. For example, the holder of a commercial 
pilot's license can only be, at most, a first officer on an air carrier 
operation. To be a captain, a pilot must have an air transport pilot 
certificate, which requires a minimum of 1,500 hours.

    Question 1a. Given the evolution of the industry, do you think it 
is time for the FAA to update those criteria and minimums not only the 
quantity of the training, but the quality as well? For example, my 
understanding is that there is no requirement for training in in-flight 
icing.
    Answer. Currently, FAA has a Notice of Proposed Rulemaking (NPRM) 
out for comment which updates and increases the requirements for 
airline pilot training, flight checks, and evaluations. While the pool 
of potential pilots has changed over time, military pilots sometimes 
have to undergo significant additional training before they can be an 
airline pilot. If their entire flying experience was in a supersonic 
aircraft with centerline thrust (two engines close to the fuselage), 
they would have to receive training appropriate to the aircraft they 
will fly as a civilian and obtain experience operating aircraft with 
asymmetrical thrust (two engines out on the wings).
    A requirement to train pilots in various icing situations has 
existed for some time. This includes classroom education in recognition 
and evasion for private pilots to classroom and operational experience 
for airline pilots. For safety purposes the airlines' flight training 
for in-flight icing is conducted in a simulator. The simulator can 
accurately reproduce the effects of various forms and intensities of 
icing. Airline pilots receive this training after their initial hire 
training and in recurrent training. When they transition from one 
aircraft to another, they receive training in in-flight icing for that 
specific aircraft.
    Regarding the Colgan crash, it appears that the first officer's 
comments as reported in the media may have been taken out of context. 
However, while the FAA is examining the facts that have come to light 
so far, since the NTSB has not issued findings, it would not be 
appropriate to speak to any potential findings at this time.

    Question 2. During your confirmation hearing I asked you if you 
thought FAA regulations needed to be changed to require hand flying of 
aircraft in icing conditions. There have been 15 recorded accidents or 
incidents where a turboprop aircraft, being flown by the autopilot, 
departed controlled flight while operating in icing conditions. The 
NTSB has recommended turboprop aircraft be hand-flown in icing 
conditions. You replied that based on your experience as a pilot, hand 
flying the airplane for awareness of any effects of icing on the 
airplane must be balanced against the potential detrimental effects of 
increased crew workload but, with that in mind, you supported 
continuing to assess the feasibility, benefits, and risks associated 
with hand-flying turboprop aircraft in icing conditions. Can you tell 
me if any such effort has begun at FAA to bring in stakeholders to 
start such an assessment?
    Answer. This issue is one of my priorities and is being examined by 
the appropriate engineers and flight test personnel on a continual 
basis. As stated during my testimony, I want to again emphasize that we 
must balance hand-flying the aircraft against the workload mitigation 
the autopilot provides. Not using the autopilot in some emergency 
situations could add risk to an otherwise manageable event.
    The Aircraft Certification and Flight Standards Services have begun 
to work with manufacturers and operators on this issue. Our Aircraft 
Certification Office and Aircraft Evaluation Group are looking at 
autopilot use during icing conditions, with emphasis on factors such as 
pilot workload, aircraft characteristics, and the aircraft 
manufacturer's recommendations. This internal team is assessing 
feasibility, benefits and risks associated with mandatory hand-flying 
during icing conditions in consideration of different manufacturers 
design and operating philosophies.

    Question 3. During your confirmation hearing, I asked if you 
thought that the FAA should install crash-protected image recorders in 
cockpits to give investigators more information to solve complex 
accidents. You responded that accident investigators need all the tools 
science can provide them, but you were aware of the controversy 
surrounding the use of image recorders and their effect on privacy, as 
well as how the images could be used. You also stated that if 
confirmed, you would focus on this issue in your tenure. Can you tell 
me what progress has been made on this issue?
    Answer. I am still committed to addressing this issue during my 
tenure. FAA has already participated in numerous industry activities 
regarding image recorders, crash-protected lightweight recording 
systems, and the emerging technology of multi-use flight recording 
systems. This work has included both domestic and international 
efforts.
    From an accident investigator's perspective, an image recorder may 
not be the best vehicle for providing the information, for equipment 
and privacy reasons. Current technological developments in flight 
recording systems allow flexibility in capturing flight data directly 
from the aircraft avionics systems. The current, performance-based 
requirement, which stipulates the particular flight data that must be 
captured on a cockpit voice recorder (CVR) and digital flight data 
recorder (DFDR), may therefore be more appropriate. I commit, again, to 
consider all options for gathering as much information as possible for 
not only investigative purposes but also for safety analysis.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Johnny Isakson to 
                         Hon. Mark V. Rosenker
    Question 1. I understand that the FAA has no regulation regarding 
using the autopilot in icing conditions for turboprop aircraft, and 
that one of the NTSB's ``6 most wanted safety improvements for 
aviation'' is to require pilots to hand-fly turboprop aircraft in icing 
conditions. Colgan's fleet, to my knowledge, is comprised of two types 
of turboprop aircraft: the Saab 340, and the Bombardier Dash 8-Q400. In 
your investigation into the Colgan 3407 accident, was there any 
indication as to whether Colgan had a policy that its pilots must hand-
fly its Saab and Bombardier aircraft in icing conditions? Did 
Bombardier the maker of the airplane had any limitations or 
restrictions on the use of the autopilot in icing conditions?
    Answer. Colgan's policy was consistent with the Bombardier policy 
that required the autopilot to be disconnected in severe icing 
conditions. The NTSB's recommendation addressed disconnecting the 
autopilot while operating in icing conditions, including those not 
characterized as severe.

    Question 2. This is a question that may be more technical in 
nature, but one of the recommendations that the NTSB has on its ``Most 
Wanted'' aviation safety improvements is to require that airplanes with 
pneumatic deice boots activate boots as soon as the airplane enters 
icing conditions. My understanding of how these boots work is that the 
pilot looks for an accumulation of a certain amount of ice on the 
leading-edge of the airframe surface before activating the deice boots. 
I am told this is because of the threat of ``ice bridging'', which 
would occur if the ice forms in a shape around the activated boot and 
makes the boot ineffective in removing ice at that point. Can you 
please clarify the NTSB recommendation?
    Answer. The NTSB recommendation is for activation of deicing boots 
as soon as an airplane enters icing conditions. The NTSB was explicit 
when issuing this recommendation that concerns about ice bridging are 
not supported. A widely held belief in the aviation community, among 
both operators and manufacturers, is that the deice boots should not be 
activated until the ice buildup is estimated to be between 1/4- and 1/
2-inch thick and that early activation of the boots may result in ice 
bridging on the wing. However, in Advisory Circular 25.1419-1A, 
``Certification of Transport Category Airplanes for Flight in Icing 
Conditions,'' the FAA states that, although ice may not be completely 
shed by one cycle of the boots, the residual ice will usually be 
removed by subsequent cycles and does not act as a foundation for a 
bridge of ice to form. Further, information from numerous sources, 
including a 1997 Airplane Deice Boot Bridging Workshop, icing wind 
tunnel tests, and flight tests, revealed that ice bridging did not 
occur on modern airplanes equipped with deice boots that quickly 
inflate and deflate. The icing wind tunnel tests also revealed that 
thin (1/4 inch or less), rough ice accumulations on the wing leading 
edge deice boot surfaces could be as aerodynamically detrimental to an 
airplane's performance as larger ice accumulations. A search of the 
NTSB accident database revealed no accidents related to ice bridging; 
however, the NTSB has investigated many icing accidents in which the 
airplane stalled and the stall warning system did not activate before 
the stall because of ice accumulation on the wing leading edges.
    Accident investigations, NTSB accident data, and existing icing 
information clearly show that delaying the activation of the deice 
boots can create an unsafe condition. The NTSB concludes that ice 
bridging does not occur on modern airplanes; therefore, it is not a 
reason for pilots to delay activation of the deice boots.

    Question 3. From the transcript that I have seen of the cockpit 
voice recorder (CVR) in the Colgan 3407 crash, it is clear that the 
flight crew violated the sterile cockpit rule regulation requiring 
pilots to refrain from non-essential activities during critical phases 
of flight and below 10,000 feet. During the course of your 
investigation into the Colgan 3407 crash what other regulations did you 
find were violated?
    Answer. The NTSB does not determine violations of the FARs; that is 
a function for the FAA. Additionally, the Colgan 3407 investigation is 
ongoing, and the NTSB has not reached any conclusions.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
